No.

In the Supreme Court of the United States
DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES,
PETITIONER

v.
CITIZENS FOR RESPONSIBILITY AND ETHICS IN
WASHINGTON, ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

PETITION FOR A WRIT OF CERTIORARI
JEFFREY B. WALL
Acting Solicitor General
Counsel of Record
JEFFREY BOSSERT CLARK
Acting Assistant Attorney
General
HASHIM M. MOOPPAN
Counselor to the Solicitor
General
MORGAN L. RATNER
BRINTON LUCAS
Assistants to the Solicitor
General
MARK R. FREEMAN
MICHAEL S. RAAB
DANIEL WINIK
Attorneys
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

QUESTION PRESENTED

The Foreign Emoluments Clause provides that no
person holding an “Office of Profit or Trust” under the
United States “shall, without the Consent of the Congress, accept of any present, Emolument, Office, or Title, of any kind whatever, from any King, Prince, or foreign State.” U.S. Const. Art. I, § 9, Cl. 8. The Domestic
Emoluments Clause provides that, apart from the President’s compensation for the period for which he is
elected, he “shall not receive within that Period any
other Emolument from the United States, or any of
them.” U.S. Const. Art. II, § 1, Cl. 7. In this case, various members of the hospitality industry sued President
Donald J. Trump, in his official capacity, asserting an
implied cause of action to enforce the Emoluments
Clauses. The district court granted the President’s motion to dismiss, holding that alleged business competitors cannot seek redress in an Article III court to enforce the Emoluments Clauses against the President. A
panel of the court of appeals vacated and remanded.
The question presented is:
Whether plaintiffs who claim to compete with businesses in which the President of the United States has
a financial interest can seek redress in an Article III
court to enforce the Foreign and Domestic Emoluments
Clauses of the U.S. Constitution against the President.

(I)

PARTIES TO THE PROCEEDING

Petitioner Donald J. Trump, in his official capacity
as President of the United States, was defendant in the
district court and appellee in the court of appeals.
Respondents Citizens for Responsibility and Ethics
in Washington; Restaurant Opportunities Centers
United, Inc.; Jill Phaneuf; and Eric Goode were plaintiffs in the district court and appellants in the court of
appeals.
RELATED PROCEEDINGS

United States District Court (S.D.N.Y.):
Citizens for Responsibility & Ethics in Wash., Rest.
Opportunities Ctrs. United , Inc. v. Donald J.
Trump, President of the United States, No. 17-cv458 (Dec. 21, 2017)
United States Court of Appeals (2d Cir.):
Citizens for Responsibility & Ethics in Wash., Rest.
Opportunities Ctrs. United , Inc. v. Donald J.
Trump, President of the United States, No. 18-474
(as amended Mar. 20, 2020)

(II)

TABLE OF CONTENTS

Page
Opinions below .............................................................................. 1
Jurisdiction .................................................................................... 2
Constitutional provisions involved .............................................. 2
Statement ...................................................................................... 2
Reasons for granting the petition ............................................... 9
A. The panel’s decision is wrong......................................... 11
B. The panel’s decision conflicts with decisions from
other courts of appeals involving standing of
economic competitors...................................................... 23
C. The panel’s decision warrants further review,
particularly when paired with the parallel Fourth
Circuit decision ................................................................ 27
Conclusion ................................................................................... 30
Appendix A — Court of appeals opinion (Sept. 13, 2019) ..... 1a
Appendix B — Court of appeals opinion (Mar. 20, 2020) ... 77a
Appendix C — District court memorandum and order
(Dec. 2, 2017) .............................................. 80a
Appendix D — Court of appeals opinion (Aug. 17, 2020) ... 115a
TABLE OF AUTHORITIES

Cases:
Adams v. Watson, 10 F.3d 915 (1st Cir. 1993) .................... 24
Allen v. Wright, 468 U.S. 737 (1984) .................................... 15
Already, LLC v. Nike, Inc., 568 U.S. 85
(2013) .................................................................. 10, 12, 15, 23
Armstrong v. Exceptional Child Ctr., Inc.,
575 U.S. 320 (2015).............................................................. 20
Blumenthal v. Trump, 949 F.3d 14 (D.C. Cir. 2020),
petition for cert. pending, No. 20-5
(filed July 6, 2020) ........................................................... 8, 29
Bond v. United States, 572 U.S. 844 (2014) ........................ 22
(III)

IV
Cases—Continued:

Page

Canadian Lumber Trade Alliance v. United States,
517 F.3d 1319 (Fed. Cir.), cert. denied, 555 U.S. 819
(2008) .................................................................................... 25
Cheney v. United States Dist. Court,
542 U.S. 367 (2004)........................................................ 10, 28
Clapper v. Amnesty Int’l USA, 568 U.S. 398
(2013) .................................................................. 10, 13, 16, 17
Clarke v. Securities Indus. Ass’n, 479 U.S. 388 (1987) ..... 20
Daimler Chrysler Corp. v. Cuno, 547 U.S. 332
(2006) .............................................................................. 12, 13
El Paso Natural Gas Co. v. FERC, 50 F.3d 23
(D.C. Cir. 1995) ............................................................. 24, 25
Franklin v. Massachusetts, 505 U.S. 788 (1992) ................ 23
Gonzaga Univ. v. Doe, 536 U.S. 273 (2002)......................... 20
Lexmark Int’l, Inc. v. Static Control Components,
Inc., 572 U.S. 118 (2014) ..................................................... 19
Lujan v. Defenders of Wildlife, 504 U.S. 555 (1992) .......... 13
Match-E-Be-Nash-She-Wish Band of Pottawatomi
Indians v. Patchak, 567 U.S. 209 (2012) .......................... 20
Mississippi v. Johnson, 71 U.S. (4 Wall.) 475 (1867)......... 22
Morrison v. National Australia Bank Ltd.,
561 U.S. 247 (2010).............................................................. 21
New World Radio, Inc. v. FCC, 294 F.3d 164
(D.C. Cir. 2002) ................................................................... 25
Nixon v. Fitzgerald, 457 U.S. 731 (1982) ............................ 28
Raines v. Byrd, 521 U.S. 811 (1997) .................. 10, 13, 23, 27
Schlesinger v. Reservists Comm. to Stop the War,
418 U.S. 208 (1974).............................................................. 14
Simon v. Eastern Kentucky Welfare Rights Org.,
426 U.S. 26 (1976) ......................................................... 16, 17
State Nat’l Bank of Big Spring v. Lew,
795 F.3d 48 (D.C. Cir. 2015)............................................... 25

V
Cases—Continued:

Page

Steel Co. v. Citizens for a Better Env’t, 523 U.S. 83
(1998) .................................................................................... 21
Tenet v. Doe, 544 U.S. 1 (2005) ............................................. 21
Thompson v. North Am. Stainless, LP,
562 U.S. 170 (2011).............................................................. 19
Trump v. Mazars USA , LLP, 140 S. Ct. 2019 (2020) ....... 28
Trump, In re:
928 F.3d 360 (4th Cir. 2019).................................. 9, 18, 26
958 F.3d 274 (4th Cir. 2020)................................... passim
United States v. Richardson, 418 U.S. 166 (1974) ............. 14
United States v. Williams, 504 U.S. 36 (1992) ................... 21
Valley Forge Christian Coll. v. Americans United
for Separation of Church & State, Inc.,
454 U.S. 464 (1982).............................................................. 19
Warth v. Seldin, 422 U.S. 490 (1975) ............................. 15, 19
Constitution and statutes:
U.S. Const.:
Art. I, § 9, Cl. 8 .................................................................. 2
Foreign Emoluments Clause .......................... passim
Art. II, § 1, Cl. 7................................................................. 2
Domestic Emoluments Clause ........................ passim
Art. III ..................................................................... passim
§ 2, Cl. 1 ...................................................................... 12
Administrative Procedure Act, 5 U.S.C. 702 ...................... 20
28 U.S.C. 1292(b) ................................................................. 8, 9

VI
Miscellaneous:

Page

3 Jonathan Elliot, The Debates in the Several State
Conventions on the Adoption of the Federal
Constitution as Recommended by the General
Convention at Philadelphia in 1787 (2d ed. 1891) .......... 13

In the Supreme Court of the United States
No.
DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES,
PETITIONER

v.
CITIZENS FOR RESPONSIBILITY AND ETHICS IN
WASHINGTON, ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

The Acting Solicitor General, on behalf of President
Donald J. Trump, in his official capacity, respectfully
petitions for a writ of certiorari to review the judgment
of the United States Court of Appeals for the Second
Circuit in this case.
OPINIONS BELOW

The amended opinion of the court of appeals (App.,
infra, 1a-76a, 77a-79a) is reported at 953 F.3d 178. The
order of the court of appeals denying rehearing en banc
and the opinions concurring in and dissenting from that
denial (App., infra, 115a-204a) are not published in the
Federal Reporter but are available at 2020 WL 4745067.
The opinion of the district court (App., infra, 80a-114a)
is reported at 276 F. Supp. 3d 174.

(1)

2
JURISDICTION

The judgment of the court of appeals was entered on
September 13, 2019. A petition for rehearing was denied on August 17, 2020. The jurisdiction of this Court
is invoked under 28 U.S.C. 1254(1).
CONSTITUTIONAL PROVISIONS INVOLVED

The Foreign Emoluments Clause (U.S. Const. Art. I,
§ 9, Cl. 8) provides:
No Title of Nobility shall be granted by the United
States: And no Person holding any Office of Profit or
Trust under them, shall, without the Consent of the
Congress, accept of any present, Emolument, Office, or
Title, of any kind whatever, from any King, Prince, or
foreign State.
The Domestic Emoluments Clause (U.S. Const. Art.
II, § 1, Cl. 7) provides:
The President shall, at stated Times, receive for his
Services, a Compensation, which shall neither be encreased nor diminished during the Period for which he
shall have been elected, and he shall not receive within
that Period any other Emolument from the United
States, or any of them.
STATEMENT

The Constitution’s Foreign and Domestic Emoluments Clauses are structural provisions that prophylactically protect the Nation as a whole against the corruption of official action. Yet in seeking to invoke the power
of the federal courts to determine whether the President is violating the Emoluments Clauses because of his
financial interests in various hotels and restaurants, respondents rely on attenuated and speculative economic

3
harms that their businesses allegedly suffer in competing for the patronage of foreign and domestic governmental customers. App., infra, 2a-7a.
The district court granted the President’s motion to
dismiss. App., infra, 80a-114a. It held that respondents
lacked Article III standing because they failed to adequately allege that they have been injured at all, much
less that the President’s challenged conduct caused any
injury. Id. at 91a-96a. The court further held that, even
if respondents could satisfy Article III, their alleged
competitive injuries would fall outside any zone of interests protected by the Emoluments Clauses. Id. at 97a100a. A divided panel of the court of appeals vacated
and remanded. Id. at 1a-76a. It held that respondents
had Article III standing to sue and that the district
court’s zone-of-interests analysis was mislabeled as jurisdictional. Id. at 12a-35a, 77a-79a. The court of appeals denied en banc review by an 8-4 vote, with several
judges authoring opinions. Id. at 115a-204a.
1. In 2017, respondents brought this suit directly
under the Constitution against the President of the
United States, in his official capacity, for alleged violations of the Foreign and Domestic Emoluments
Clauses. D. Ct. Doc. 1 (Jan. 23, 2017). As relevant here,
respondents allege that they own, operate, or work for
hospitality companies, hotels, or restaurants in the New
York City or Washington, D.C. areas. App., infra, 82a84a. They further allege that, since taking office, the
President has maintained an ownership interest, through
the Trump Organization, in a variety of properties and
restaurants in New York City and Washington, D.C.,
and that, when foreign and state governmental officials

4
patronize those businesses, the President receives benefits in violation of the Domestic and Foreign Emoluments Clauses. Id. at 84a-85a. Respondents assert
that, as a result of those alleged violations, “they will
suffer increased competition” and lose business. Id. at
88a; see id. at 88a-89a. Respondents seek a declaration
that the President has violated and will continue to violate the Emoluments Clauses, an injunction preventing
the President from receiving prohibited Emoluments in
the future, and an injunction requiring the President to
release financial records to confirm that he is not engaging in further transactions that would violate the
Emoluments Clauses. Id. at 81a; see D. Ct. Doc. 28, at
64-65 (May 10, 2017). 1
2. The President moved to dismiss respondents’
complaint for lack of jurisdiction and for failure to state
a claim on which relief could be granted. D. Ct. Docs.
34, 35 (June 9, 2017).
In December 2017, the district court dismissed the
complaint for lack of jurisdiction. App., infra, 80a-114a.
As relevant here, the court first held that respondents
lacked Article III standing. Id. at 91a-96a. It emphasized that respondents could not adequately show that
Respondent Citizens for Responsibility and Ethics in
Washington—the sole original plaintiff in this action—asserted a
different set of injuries, but it has abandoned its challenge to the
district court’s holding that it lacks Article III standing. App.,
infra, 2a n.1. Respondent Jill Phaneuf, who left the job in which she
allegedly competed against the President’s businesses, has likewise
acknowledged that she no longer has Article III standing to pursue
her claims. Ibid. References to respondents therefore cover the
remaining respondents, all of whom have asserted hospitalityrelated competitive injuries.
1

5
any loss of foreign or domestic governmental business
was caused by the President’s financial interest in competing hotels and restaurants, as opposed to any of the
other reasons why customers might prefer those establishments to respondents’. See id. at 93a-96a. The court
further held that “[t]he zone of interests doctrine
demonstrates that [respondents] are not the right parties to bring a claim under the Emoluments Clauses.”
Id. at 97a. Because “[n]othing in the text or the history
of the Emoluments Clauses suggests that the Framers
intended these provisions to protect anyone from competition,” id. at 98a, the court found “no basis” to conclude that respondents’ alleged competitive injuries entitled them to bring suit under the Emoluments Clauses,
id. at 100a. The court construed both holdings as implicating its subject-matter jurisdiction, and thus did not
otherwise reach the question whether respondents had
stated a cognizable claim under the Emoluments Clauses.
Id. at 81a n.1.
3. A divided panel of the court of appeals vacated
and remanded. App., infra, 1a-79a.
a. As to standing, the panel majority concluded that
the “Article III threshold for economic competitors” requires only a showing that, “because of unlawful conduct, [a plaintiff ’s] rivals enjoy a competitive advantage
in the marketplace.” App., infra, 13a. And the majority
found that respondents have cleared that bar by alleging that they compete over the same customer base with
various President Trump-affiliated establishments. Id.
at 14a-15a. The majority also concluded that respondents had adequately pleaded causation and redressability by alleging “that the President’s receipt (and invitation) of allegedly illegal emoluments actually influences

6
at least some government customers’ purchasing decisions.” Id. at 22a.
As to the zone-of-interests requirement, the panel
majority initially concluded both that the district court
had improperly labeled the requirement as jurisdictional and also that the court had erred in its substantive analysis because any “[p]laintiffs who are injured
by the defendant’s alleged violation of a limiting law
may sue to enforce the limitation.” App., infra, 44a; see
id. at 35a-44a. The majority later amended its opinion,
however, to remove any discussion of the substantive
analysis. Id. at 77a-79a. The amended opinion instead
rests solely on the rationale that the zone-of-interests
requirement relates to the availability of a cause of action rather than to a court’s subject-matter jurisdiction.
Ibid.
b. Judge Walker dissented. App., infra, 50a-76a. In
his view, respondents have failed to plead “any direct
injury actually caused by violations of the Emoluments
Clauses, much less how such injury might actually be
redressed by the courts.” Id. at 55a. He explained that
“it cannot be the case that, every time a competitor
achieves some benefit through allegedly unlawful conduct that has no direct relationship to competition, competing businesses have standing to challenge that unlawful action simply by virtue of their status as a direct
competitor.” Id. at 60a. He also disagreed with the majority that respondents have adequately pleaded “a
causal chain that rises above speculation” between the
President’s alleged acceptance of emoluments and any
harm to respondents’ businesses. Id. at 68a.

7
4. The President petitioned for rehearing en banc.
By an 8-4 vote, the court of appeals denied the petition.
App., infra, 115a-116a.
a. Judge Cabranes dissented from the denial of rehearing en banc. App., infra, 117a-118a. He explained
that “[t]he exceptional importance of the case is beyond
dispute.” Id. at 117a.
b. Judge Menashi, joined by Judges Livingston and
Sullivan, also dissented. App., infra, 119a-157a. Judge
Menashi first contended that respondents lack Article
III standing. He observed that respondents have failed
“to identify some evidence that at least one official has
actually chosen a Trump-located restaurant over one of
[respondents’] restaurants for an emoluments-based
reason,” which rendered any injury “speculative” rather than “concrete.” Id. at 121a-122a. Judge Menashi
also urged that rehearing was warranted “to address
whether and when injunctive relief may be granted directly against the President,” a “disputed antecedent
question” that he asserted the panel had overlooked.
Id. at 131a. Finally, he contended that “the district
court’s zone-of-interests analysis was correct on the
merits.” Id. at 137a.
c. Judge Walker, whose senior status made him ineligible to vote, filed a statement opposing the denial of
rehearing en banc. App., infra, 158a-171a. He reiterated that the panel’s competitor-standing analysis was
“inconsistent with the law in our sister circuits” and
“contradicted binding Supreme Court precedent.” Id.
at 158a-159a. He also urged that “this case warranted
en banc review because of its exceptional national importance,” “involving the President and the separation
of powers.” Id. at 159a-160a (emphasis omitted).

8
d. Judge Leval filed a statement in support of the
denial of rehearing en banc, largely responding to
Judge Menashi’s dissent. App., infra, 172a-204a. He
first contended that injunctive relief was available because, in his view, respondents had challenged private
conduct rather than official presidential actions, despite
having sued the President solely in his official capacity.
Id. at 173a-178a. He also contended that the alleged
harms to respondents and other hospitality competitors
were “substantially likely,” rather than speculative, and
thus could support Article III standing. Id. at 187a.
5. In addition to this case, two other suits have been
brought against the President alleging violations of the
Emoluments Clauses. Each of those is now separately
before this Court.
First, in Blumenthal v. Trump, 949 F.3d 14 (D.C.
Cir. 2020) (per curiam), petition for cert. pending, No.
20-5 (filed July 6, 2020), individual Members of Congress sued to enforce the Foreign Emoluments Clause.
Id. at 16. On interlocutory review under 28 U.S.C.
1292(b), the court of appeals held that the legislators
lack Article III standing. 949 F.3d at 18-20. The legislators have filed a petition for a writ of certiorari, and
the President’s brief in opposition is being filed contemporaneously with this petition.
Second, in In re Trump, 958 F.3d 274 (4th Cir. 2020)
(en banc), the State of Maryland and the District of Columbia sued to enforce both Emoluments Clauses, relying principally on a theory of competitive harm similar
to the one asserted here. After the district court denied
a motion to dismiss and refused to certify its orders under Section 1292(b), a panel of the court of appeals

9
granted the President’s petition for mandamus; directed that the orders be certified for interlocutory appeal;
and, exercising jurisdiction under Section 1292(b), held
that the suit should be dismissed because the plaintiffs
lack Article III standing. In re Trump, 928 F.3d 360
(4th Cir. 2019). In a 9-6 decision, the en banc court of
appeals vacated the panel decision on the ground that
the standard for mandamus relief had not been satisfied, without squarely addressing the Article III question. In re Trump, 958 F.3d at 282-287. The President
is contemporaneously filing a petition for a writ of certiorari in that case.
REASONS FOR GRANTING THE PETITION

The court of appeals erred in permitting this suit to
proceed against the President of the United States, in
his official capacity, based on an expansive theory of
competitor standing that has no place in a suit concerning the Emoluments Clauses. The court concluded that
respondents have alleged an injury-in-fact cognizable
under Article III because their businesses “compet[e]
over the exact same customer base” as businesses which
allegedly “secure an unlawful advantage” under the
Emoluments Clauses because of the President’s financial interest. App., infra, 15a (emphasis omitted). The
court also concluded that respondents’ alleged injury
was fairly traceable to the alleged violations, “notwithstanding other possible, or even likely, causes for the
benefit going to [respondents’] competition.” Id. at 19a.
Among other defects with these conclusions, they both
are fatally speculative: respondents cannot plausibly
establish that, within the narrow slice of restaurant and
hotel customers in New York City and Washington,

10
D.C. who are foreign or domestic governmental officials, there are some who would not patronize businesses affiliated with the President but for his personal
financial interest, and who would otherwise patronize
respondents’ particular businesses instead, let alone
that the loss of any such customers is not outweighed by
the gain of those with the opposite preferences. And
even if they could establish the minimum requirements
for Article III standing, business competitors like respondents do not fall within a zone of interests protected by the Emoluments Clauses, which are structural measures designed to protect the Nation as a
whole by prophylactically preventing the corruption of
official action through undue influence from foreign and
domestic governments.
This case warrants the Court’s review. Even assuming that a competitor-standing theory were appropriate
in this case, the court of appeals’ decision conflicts with
decisions of this Court making clear that competitor
standing is not “boundless,” Already, LLC v. Nike, Inc.,
568 U.S. 85, 99 (2013), and that theories of injury and
causation cannot rest on a “speculative chain of possibilities,” Clapper v. Amnesty Int’l USA, 568 U.S. 398,
414 (2013). The decision also conflicts with decisions of
other courts of appeals, which have required a business
to demonstrate a high likelihood of economic injury
flowing from the government’s conduct with respect to
its competitors. Moreover, because this suit is brought
directly against the President in his official capacity, it
raises serious separation-of-powers concerns that require a more stringent standing analysis. See Raines v.
Byrd, 521 U.S. 811, 819-820 (1997); see also Cheney v.

11
United States Dist. Court, 542 U.S. 367, 385 (2004) (explaining that “the high respect that is owed to the office
of the Chief Executive is a matter that should inform
the conduct of the entire proceeding”) (brackets, citation, and ellipsis omitted). Those separation-of-powers
concerns weigh in favor of this Court’s prompt review.
Finally, the President is contemporaneously filing a
petition for a writ of certiorari in a parallel Emoluments
Clauses case, In re Trump, 958 F.3d 274 (4th Cir. 2020)
(en banc). As explained therein, this Court’s review of
the Fourth Circuit case is critical because, without immediate intervention, the President and Executive
Branch would be subject to further litigation and intrusive discovery without any determination by an appellate court that the extraordinary suit is even judicially
cognizable. See Pet. at 22-25, In re Trump, supra (Sept.
9, 2020). Although that prospect is not yet imminent in
this case, the Court should grant review in both cases to
ensure that it has before it the comprehensive slate of
objections to these fundamentally flawed Emoluments
Clauses suits brought by asserted business competitors
of the President.
A. The Panel’s Decision Is Wrong

The court of appeals erred in permitting respondents, who claim to compete with businesses in which
the President has an ownership interest, to bring an
official-capacity suit against the President to enforce
the Emoluments Clauses. Respondents’ suit suffers
from myriad defects.
At the outset, the court of appeals erred in holding
that respondents’ suit satisfies the minimum requirements of Article III standing. This Court has rejected

12
“a boundless theory of standing” under which “a market
participant is injured for Article III purposes whenever
a competitor benefits from something allegedly unlawful.” Already, 568 U.S. at 99. And any more specific
allegation is inherently speculative: respondents cannot plausibly plead that (1) certain governmental customers patronize the President’s businesses because of
his financial interests (rather than the businesses’ other
qualities, including their general association with the
President); (2) those customers would otherwise patronize the particular venues in which respondents have
a commercial interest (rather than any of countless
other venues); and (3) there is no countervailing effect
that must be considered from other governmental customers who may be inclined to avoid the President’s
business because of his financial interests.
Respondents’ ability to seek redress from Article III
courts fails for additional reasons. Even if there were
an implied cause of action to enforce the Emoluments
Clauses in some circumstances (though there is not), respondents could not raise a cognizable claim. Their asserted economic injuries fall well outside any zone of interests protected by the Clauses, which are structural,
prophylactic provisions designed to protect the Nation
as a whole from official corruption. Moreover, officialcapacity relief against the President is not available at
all, which dooms this suit from the outset.
1. Article III restricts the jurisdiction of federal
courts to “Cases” or “Controversies.” U.S. Const. Art.
III, § 2, Cl. 1. “If a dispute is not a proper case or controversy, the courts have no business deciding it, or expounding the law in the course of doing so.” Daimler Chrysler Corp. v. Cuno, 547 U.S. 332, 341 (2006).

13
And a “ ‘core component’ ” of the case-or-controversy requirement is that the plaintiff must have “standing to
invoke the authority of a federal court,” id. at 342 (citation omitted), which requires establishing (among other
things) an “ ‘actual or imminent’ ” injury-in-fact that is
“ ‘fairly traceable’ ” to the defendant’s challenged conduct, Lujan v. Defenders of Wildlife, 504 U.S. 555, 560
(1992) (brackets, citations, and ellipsis omitted). Those
elements are not met when a plaintiff ’s alleged injury
rests on a “speculative chain of possibilities.” Clapper,
568 U.S. at 414. And that is especially likely to be the
case where the alleged injury “depends on the unfettered choices made by independent actors not before
the courts and whose exercise of broad and legitimate
discretion the courts cannot presume either to control
or to predict.” Lujan, 504 U.S. at 562 (citation omitted).
Respondents cannot establish an injury-in-fact that
is “legally and judicially cognizable,” Raines, 521 U.S.
at 819, flowing from the President’s alleged violation of
the Emoluments Clauses. Those Clauses are prophylactic measures that protect the Nation as a whole
against the exercise or appearance of influence by foreign or domestic governments on actions by covered
federal officers. See, e.g., 3 Jonathan Elliot, The Debates in the Several State Conventions on the Adoption
of the Federal Constitution as Recommended by the
General Convention at Philadelphia in 1787, at 465-466
(2d ed. 1891) (statement of Virginia Governor Randolph
explaining that the Foreign Emoluments Clause is
“provided to prevent corruption”); id. at 486 (similar for
Domestic Emoluments Clause). Respondents, of course,
cannot assert a generalized grievance, shared by all
members of the public, in having the President comply

14
with prophylactic provisions of the Constitution adopted for the benefit of the Nation as a whole. See United
States v. Richardson, 418 U.S. 166, 176-178 (1974);
accord Schlesinger v. Reservists Comm. to Stop the
War, 418 U.S. 208, 217 (1974).
Nor have respondents articulated any concrete and
particularized injury that they have suffered. Even assuming there is an implied cause of action directly under
the Constitution to enforce the Emoluments Clauses in
some circumstances, respondents do not assert any actual corrupted action—let alone that any such action
has injured them. Instead, respondents’ purported injury is an attenuated and speculative economic harm:
that they are disadvantaged in competing for business
from governmental customers who may choose to patronize businesses in which the President has a financial
interest in order to curry favor with him. That effort to
manufacture a suit to enforce the Clauses against the
President cannot be reconciled with this Court’s precedents on Article III standing.
a. The panel majority first erred in adopting a theory of “competitor standing” that vitiated the injury-infact requirement. Not one of respondents even alleges
any particularized instances where governmental customers have chosen or will choose to patronize hotels or
restaurants affiliated with the President instead of their
own (let alone because of the President’s financial interests). See App., infra, 120a-121a, 128a-129a (Menashi,
J., dissenting from the denial of rehearing en banc). To
overcome that deficit, the panel adopted a capacious
theory of competitor standing that recognizes an injuryin-fact whenever a defendant competes “over the exact
same customer base” as the plaintiff, while “secur[ing]

15
an unlawful advantage.” Id. at 15a (emphasis omitted).
Put differently, in the panel’s view, “economic competitors” have standing whenever they can “allege that, because of unlawful conduct, their rivals enjoy a competitive advantage in the marketplace.” Id. at 13a.
The panel majority’s sweeping conception of competitor standing is incompatible with this Court’s precedents. Plaintiffs must allege “a distinct and palpable injury to [themselves],” Warth v. Seldin, 422 U.S. 490, 501
(1975), not merely that a defendant “is violating the
law,” Allen v. Wright, 468 U.S. 737, 755 (1984). A rule
under which one competitor in a diffuse market can
challenge any legal violations by another competitor
would eviscerate the requirement that the plaintiff itself suffer a concrete and particularized injury.
In appropriate circumstances, of course, a business
can establish a sufficiently concrete injury from conduct
concerning its economic competitors. But the so-called
“competitor standing” doctrine “is an application of Article III standing principles, not a relaxation of them.”
In re Trump, 958 F.3d at 325 (Niemeyer, J., dissenting).
In Already, this Court rejected “a boundless theory of
standing” under which “a market participant is injured
for Article III purposes whenever a competitor benefits
from something allegedly unlawful”—a theory that the
Court deemed “remarkable.” 568 U.S. at 99. Instead,
it explained that competitive injury must be “based on
an injury more particularized and more concrete than
the mere assertion that something unlawful benefited
the plaintiff ’s competitor.” Ibid. That is, plaintiffs relying on a competitor-standing theory must plausibly allege not only that they operate in the same market as
the defendant and that the defendant has received an

16
unlawful gain, but also that the defendant’s gain will result in a personal injury to the plaintiffs.
Here, however, respondents challenge the conduct of
a single defendant’s businesses competing with plaintiffs’ particular businesses over a tiny subset of governmental customers in a diffuse hospitality market. In
those circumstances, no identifiable harm to respondents’ specific businesses is “certainly impending.” Clapper, 568 U.S. at 410 (citation omitted); see App., infra,
166a (Walker, J., statement in opposition to the denial
of rehearing en banc) (noting that respondents alleged
only “that a different competitor * * * who is not a
plaintiff in this suit * * * lost identifiable business to
the President’s businesses”).
b. Even if respondents could demonstrate that they
themselves will lose some actual business to businesses
affiliated with the President, the panel majority further
erred in holding that any such injury is fairly traceable
to the President’s alleged violations of the Emoluments
Clauses. This Court has “been reluctant to endorse
standing theories that require guesswork as to how independent decisionmakers will exercise their judgment.” Clapper, 568 U.S. at 413. For example, in Simon v. Eastern Kentucky Welfare Rights Organization, 426 U.S. 26 (1976), the Court concluded that lowincome plaintiffs lacked standing to challenge the government’s grant of favorable tax treatment to nonprofit
hospitals that offered only emergency-room services to
indigent patients. The Court explained that it was
“purely speculative” whether the plaintiffs’ alleged denials of non-emergency hospital services “fairly can be
traced to [the favorable tax treatment] or instead result
from decisions made by the hospitals without regard to

17
the tax implications.” Id. at 42-43. And it was likewise
speculative that “a court-ordered return [to the prior
tax] policy would result in [the plaintiffs’] receiving the
hospital services they desire.” Id. at 42.
The panel majority’s chain of causation between the
President’s alleged acceptance of unlawful emoluments
and respondents’ alleged loss of business is similarly
“speculative,” Simon, 426 U.S. at 42, and requires significant “guesswork,” Clapper, 568 U.S. at 413. Respondents’ alleged loss of business depends on the independent decisions of third-party governmental customers
who may choose the President’s businesses for myriad
reasons besides whether their patronage confers upon
him some financial benefit. Indeed, as the panel dissent
cogently explained, respondents’ theory of harm rests
on multiple levels of speculation. First, respondents
must presume that certain governmental customers
would not patronize the President’s businesses but for
his financial interests, despite the businesses’ myriad
other features—including their general association with
the President and his family, which, on respondents’
own theory, would still make patronizing those businesses a way of currying favor with the President.
Second, respondents must presume that any such customers would otherwise patronize the venues in which
respondents have a commercial interest, even though
there are countless other venues in the New York City
and Washington, D.C. regions that they could choose
instead. And third, respondents must disregard or
discount a countervailing effect—the possibility of other
governmental customers who choose to patronize
respondents’ businesses because they wish to avoid the

18
President’s business in light of his financial interests.
See App., infra, 62a-70a (Walker, J., dissenting).
The speculativeness of this theory of harm is not mitigated by the specific statements invoked by the panel
majority concerning foreign officials’ desire to curry favor with the President. See App., infra, 31a. Those
statements do not indicate that the foreign officials’ decision to patronize Trump hotels and restaurants has
anything to do with the President’s personal financial
interest in those establishments. Rather, “even if the
President’s personal gains * * * were removed from
the calculus,” “[f ]oreign diplomats and state officials
might, quite lawfully, still choose the Trump establishment over plaintiffs’ establishments to attempt to curry
favor with the President.” Id. at 168a (Walker, J., statement in opposition to the denial of rehearing en banc);
accord In re Trump, 928 F.3d 360, 376 (4th Cir. 2019)
(“After all, the [Trump] Hotel would still be publicly associated with the President, would still bear his name,
and would still financially benefit members of his family.”), vacated on other grounds, 958 F.3d 274 (4th Cir.
2020) (en banc). And those statements certainly provide
no basis to suggest that the foreign officials would have
otherwise patronized respondents’ establishments, or
that there are not offsetting gains from foreign or domestic governmental officials who wish to refrain from
any association with businesses in which the President
has a financial interest.
2. In allowing respondents to continue to seek redress from Article III courts for the President’s alleged
violation of the Emoluments Clauses, the court of appeals exacerbated its error by vacating the district
court’s conclusion that respondents fall outside any

19
zone of interests protected by the Clauses. Even assuming that an individualized right to enforce the Emoluments Clauses in federal court could ever be recognized and a cause of action implied under Congress’s
grant of equity jurisdiction—though the government
disagrees with those premises—respondents’ asserted
interests do not “fall within the zone of interests to be
protected or regulated by the * * * constitutional guarantee in question.” Valley Forge Christian Coll. v.
Americans United for Separation of Church & State,
Inc., 454 U.S. 464, 475 (1982) (citation and internal quotation marks omitted).
The “zone-of-interests” requirement limits the plaintiffs who “may invoke [a] cause of action” authorized by
Congress. Lexmark Int’l, Inc. v. Static Control Components, Inc., 572 U.S. 118, 129-130 (2014). It “serve[s]
to limit the role of the courts in resolving public disputes” by asking “whether the constitutional or statutory provision on which the claim rests properly can be
understood as granting persons in the plaintiff ’s position a right to judicial relief.” Warth, 422 U.S. at 500.
And it reflects the common-sense intuition that Congress does not intend to extend a cause of action to
“plaintiffs who might technically be injured in an Article
III sense but whose interests are unrelated” to the legal
provisions they seek to enforce. Thompson v. North
Am. Stainless, LP, 562 U.S. 170, 178 (2011).
Accordingly, this Court has explained that the zoneof-interests test is a “ ‘requirement of general application,’ ” reflecting a “presum[ption]” about Congress’s intent in authorizing causes of action. Lexmark, 572 U.S.
at 129 (brackets and citation omitted). Under this
Court’s interpretation of the express cause of action in

20
the Administrative Procedure Act, 5 U.S.C. 702, a plaintiff ’s asserted interest need only be “arguably within
the zone of interests” of the provision to be enforced;
suit is foreclosed only where the asserted interest is
“marginally related to or inconsistent with the purposes
implicit in the [provision].” Match-E-Be-Nash-SheWish Band of Pottawatomi Indians v. Patchak,
567 U.S. 209, 224, 225 (2012) (citations omitted). But
when courts infer a cause of action under Congress’s
general grant of equity jurisdiction, see Armstrong v.
Exceptional Child Ctr., Inc., 575 U.S. 320, 327-328
(2015), this Court has suggested that a more stringent
test is appropriate, requiring that the provision at issue
be intended for the “especial benefit” of the plaintiff
seeking to enforce it, Clarke v. Securities Indus. Ass’n,
479 U.S. 388, 400 n.16 (1987); see Gonzaga Univ. v. Doe,
536 U.S. 273, 283-285 (2002).
Under any version of the standard, though, respondents cannot satisfy the zone-of-interests requirement.
As the district court observed, the Emoluments Clauses
are prophylactic measures that were designed to “protect[] the new government from corruption and undue
influence” by foreign or state governments. App., infra,
98a; see pp. 13-14, supra. And there is “simply no basis
to conclude” that the Clauses were additionally intended to protect, or even arguably concerned about
protecting, private enterprises from “competitive injur[ies]” suffered in seeking the business of foreign or
state governmental officials. App., infra, 100a; accord
In re Trump, 958 F.3d at 296-297 (Wilkinson, J., dissenting) (explaining that the Emoluments Clauses were
“designed to prevent official corruption,” not to “create

21
a new legal interest for parties to be protected from lawful competition”).
Although the district court incorrectly labeled dismissal on zone-of-interests grounds as a defect in jurisdiction, see App., infra, 77a-79a, the panel majority nevertheless erred in vacating the district court’s decision.
The President filed a single motion to dismiss in the
district court, raising both jurisdictional and nonjurisdictional grounds for dismissal. See D. Ct. Docs.
34, 35. And the district court’s technical labeling error
in no way affected its substantive analysis of the legal
question. See App., infra, 97a-100a; cf. Morrison v. National Australia Bank Ltd., 561 U.S. 247, 254 (2010)
(“Since nothing in the analysis of the courts below
turned on the mistake, a remand would only require
a new Rule 12(b)(6) label for the same Rule 12(b)(1)
conclusion.”). Accordingly, the panel majority should
have affirmed the district court’s dismissal on zone-ofinterests grounds, as both the President and the judges
dissenting from the denial of rehearing en banc urged.
See App., infra, 137a-140a (Menashi, J., dissenting from
the denial of rehearing en banc); cf. United States v.
Williams, 504 U.S. 36, 41 (1992) (explaining that the
Court’s “traditional rule * * * precludes a grant of certiorari only when the question presented was not pressed
or passed upon below”) (emphasis added; citation and
internal quotation marks omitted). Indeed, as this
Court has recognized, the district court could have
properly decided the zone-of-interests question before
any jurisdictional question. See Tenet v. Doe, 544 U.S.
1, 6 n.4 (2005); Steel Co. v. Citizens for a Better Env’t,
523 U.S. 83, 97 n.2 (1998). And this Court itself may
wish to do so, to avoid the need to reach a constitutional

22
standing question. See Bond v. United States, 572 U.S.
844, 855 (2014).
3. The extraordinary nature of this suit underscores
the court of appeals’ errors on the Article III standing
and zone-of-interests questions. The federal courts
have never judicially created a cause of action to enforce
the Emoluments Clauses, let alone in a suit against the
President in his official capacity. As Judge Menashi’s
dissent from the denial of rehearing en banc explained,
the panel’s Article III holding was premised in part on
the mistaken assumption that the district court could
“fashion[]” injunctive relief against the President in this
case “along many different lines.” App., infra, 131a
(quoting 953 F.3d at 199); see id. at 33a.
The panel proposed, for example, that a court might
order the President to “bar the Trump establishments
from selling services to foreign and domestic governments,” “to establish a blind trust or otherwise prevent
him from receiving information about government patronage of his establishments,” or to publicly disclose his
“private business dealings with government officials.”
App., infra, 33a n.12. That proposal is misguided even
on its own terms because such relief would not provide
redress for the alleged violation of the Emoluments
Clauses, which is the President’s alleged acceptance of
prohibited emoluments. And more fundamentally, such
relief is not available against the President.
As this Court has explained, permitting injunctive
relief against the President in his official capacity would
violate the fundamental principle, rooted in the separation of powers, that federal courts have “no jurisdiction
of a bill to enjoin the President in the performance of
his official duties.” Mississippi v. Johnson, 71 U.S.

23
(4 Wall.) 475, 501 (1867); see Franklin v. Massachusetts, 505 U.S. 788, 802-803 (1992) (opinion of O’Connor,
J.); 505 U.S. at 826 (Scalia, J., concurring in part and
concurring in the judgment). The panel majority failed
to “grapple with th[at] separation-of-powers question”
and instead “simply assume[d] that injunctive relief is
available against the President in his official capacity.”
App., infra, 132a (Menashi, J., dissenting from the denial of rehearing en banc). In his statement in support
of the denial of rehearing en banc, Judge Leval contended that relief was available “because this complaint
has nothing to do with the President’s exercise of his
official duties.” Id. at 176a. But that contention disregards both that respondents have sued the President
solely in his official capacity and that “an obligation (i.e.,
a duty) that derives from one’s government position
(i.e., office)” is “an official duty.” In re Trump, 958 F.3d
at 299 (Wilkinson, J., dissenting). At a minimum, the
serious doubts about respondents’ ability to file suit and
obtain ultimate relief against the President further militates in favor of “especially rigorous” scrutiny of
whether respondents adequately pleaded “legally and
judicially cognizable” injuries that justified bringing
suit in the first place. Raines, 521 U.S. at 819-820.
B. The Panel’s Decision Conflicts With Decisions From
Other Courts Of Appeals Involving Standing Of
Economic Competitors.

1. In addition to contravening this Court’s clear admonition that the mere existence of economic competition is not a substitute for a concrete and particularized
injury, see Already, 568 U.S. at 99, the panel’s decision

24
conflicts with other courts of appeals’ application of Article III standing principles in the context of economic
competitors. Although other courts have concluded in
certain circumstances that economic competitors may
suffer a concrete injury when a defendant receives an
unlawful benefit, those courts still require a showing
that the defendant’s gain will predictably harm the particular plaintiff. See App., infra, 125a (Menashi, J., dissenting from the denial of rehearing en banc) (explaining that “no other circuit assumes, as the majority opinion does, that ‘economic logic’ dictates a finding of personal harm whenever a competitor has an advantage”);
id. at 170a (Walker, J., statement in opposition to the
denial of rehearing en banc) (emphasizing “[t]he dissonance between our and other circuits’ treatment of the
competitor standing doctrine”).
As discussed, the panel majority here concluded
that, as a matter of “ ‘economic logic,’ ” it was “sufficient[]” for Article III purposes “that [respondents]
compete directly with Trump establishments and that
the President’s allegedly illegal acts favor [respondents’] competitors.” App., infra, 14a (citation omitted).
By contrast, at least three courts of appeals—the First,
D.C., and Federal Circuits—have required, in considering the standing of competitors, that any “economic
logic” dictate that the specific plaintiff will suffer a concrete injury. See Adams v. Watson, 10 F.3d 915, 923924 (1st Cir. 1993) (requiring economic principles to
demonstrate “a sufficient likelihood” of injury not just
to a class of competitors but to “these individual [plaintiffs]”) (emphasis omitted); El Paso Natural Gas Co. v.
FERC, 50 F.3d 23, 27 (D.C. Cir. 1995) (“The nub of the

25
‘competitive standing’ doctrine is that when a challenged agency action authorizes allegedly illegal transactions that will almost surely cause petitioner to lose
business, there is no need to wait for injury from specific transactions to claim standing.”) (emphasis added);
Canadian Lumber Trade Alliance v. United States,
517 F.3d 1319, 1332 (Fed. Cir.) (explaining that “the
doctrine of ‘competitor standing’ ” depends “on economic logic to conclude that a plaintiff will likely suffer
an injury-in-fact when the government acts in a way
that increases competition or aids the plaintiff ’s competitors”) (emphasis added), cert. denied, 555 U.S. 819
(2008); see also App., infra, 161a (Walker, J., statement
in opposition to the denial of rehearing en banc).
Because those courts require a showing of predictable injury to the specific plaintiff, they have denied the
standing of competitors where the allegedly unlawful
benefit does not dictate such an injury as a matter of
economic logic. In El Paso, for example, the D.C. Circuit rejected the plaintiff ’s argument that the defendant “could enjoy a competitive advantage” if it were subject to state rather than federal regulation, absent evidence that “such a difference in regulatory burdens in
fact exists” as would “demonstrat[e] ‘injury in fact.’ ”
50 F.3d at 28; see, e.g., State Nat’l Bank of Big Spring
v. Lew, 795 F.3d 48, 55 (D.C. Cir. 2015) (opinion of Kavanaugh, J.) (holding that the plaintiff ’s “novel theory”
involving a “reputational benefit” to a competitor was
“simply too attenuated and speculative” to establish
standing); New World Radio, Inc. v. FCC, 294 F.3d 164,
172 (D.C. Cir. 2002) (holding that the plaintiff lacked
standing to challenge agency action that was a “step in
the direction of future competition” because the alleged

26
competitive injury was “too remote” and “depend[ed] on
the independent actions of third parties”). As a result,
even in those circuits that permit plaintiffs to invoke
“economic logic” to demonstrate a concrete and particularized injury, courts would have demanded more than
the minimal allegations about competition in the same
market that the panel deemed sufficient here.
2. Moreover, the panel majority here reached a different result from the only other appellate decision that
has addressed the competitor-standing question in the
context of the Emoluments Clauses. In In re Trump, a
panel of the Fourth Circuit specifically rejected “the
theory that so long as a plaintiff competes in the same
market as a defendant and the defendant enjoys an unlawful advantage, the requirements for Article III
standing are met.” 928 F.3d at 377. The Fourth Circuit
panel likewise rejected the speculative theory that the
President’s assertedly unlawful “competitive advantage” actually “diverts business away from” the properties of competitors in the Washington, D.C. area. Id. at
375.
Although the en banc Fourth Circuit later vacated
the panel’s decision, it did so because it determined that
the appellate court lacked jurisdiction in the particular
circumstances of that case. See In re Trump, 958 F.3d
at 282-285. No judge questioned the correctness of the
panel’s Article III analysis. And in a dissent from the
en banc decision, Judge Niemeyer, joined by four other
judges, criticized the Second Circuit panel here because
its decision “simply reiterated the [Article III] causation standard at a highly general level and stated that
there was ‘a substantial likelihood that [the plaintiffs’]

27
injury [was] the consequence of the challenged conduct.’ ” Id. at 327 (quoting 939 F.3d 131, 145) (second
and third set of brackets in original). He further criticized the panel here for “strain[ing] unsuccessfully
* * * to distinguish Simon” and “fail[ing] to explain
* * * how a President’s direct receipt of income from a
hotel investment—as opposed to, for example, his family members’ receipt of that income—could have skewed
the market in his favor.” Ibid.
C. The Panel’s Decision Warrants Further Review,
Particularly When Paired With The Parallel Fourth
Circuit Decision

The panel decision warrants this Court’s review. As
explained, it contravenes this Court’s Article III precedents, conflicts with decisions of other courts of appeals
about the showing that an economic competitor must
make to establish standing, and also presents an exceptionally important question about whether respondents
are proper parties to assert an implied cause of action
against the President to enforce the Emoluments
Clauses. The separation of powers generally requires
ensuring that only a proper plaintiff may invoke the Judiciary’s power to decide cases and controversies. See
Raines, 521 U.S. at 820. And that is “especially” true
“when reaching the merits of the dispute would force
[the federal courts] to decide whether an action taken
by one of the other two branches of the Federal Government was unconstitutional.” Id. at 819-820.
To be sure, the court of appeals’ remand means that
the district court still has the opportunity to dismiss this
suit because respondents do not have a judicially cognizable claim within any zone of interests protected by

28
the Emoluments Clauses or a viable claim on the merits.
See App., infra, 48a-49a, 79a n. But in these unusual
circumstances, the fact that the courts below may reject
this suit on other grounds does not counsel against this
Court’s review now. Any continuation of this suit creates serious separation-of-powers concerns, because
the defendant is the President of the United States, in
his official capacity, being sued under an implied cause
of action without any authorization from Congress. The
“President occupies a unique position in the constitutional scheme.” Nixon v. Fitzgerald, 457 U.S. 731, 749
(1982). Accordingly, “the high respect that is owed to
the office of the Chief Executive is a matter that should
inform the conduct of the entire proceeding.” Cheney,
542 U.S. at 385 (brackets, citation, and ellipsis omitted);
see Trump v. Mazars USA, LLP, 140 S. Ct. 2019, 2031
(2020) (granting review of a suit concerning the President that was “the first of its kind to reach this Court”).
Such serious separation-of-powers concerns weigh in
favor of this Court’s prompt review at the earliest possible stage. Moreover, if the lower courts were to refuse
to dismiss respondents’ suit on other grounds, that
could expose the President to intrusive discovery before
he would have the opportunity to seek this Court’s review, potentially necessitating a stay or other emergency relief.
In addition, the President is, contemporaneously
with this petition, filing a petition for a writ of certiorari
from the Fourth Circuit’s en banc decision in In re
Trump, 958 F.3d 274. In that case, this Court’s review
is especially critical because the President will otherwise be immediately subject to intrusive discovery into

29
his personal finances and the communications and activities of various Executive Branch agencies, without
any finding by an appellate court that the extraordinary
suit is even judicially cognizable. See Pet. at 22-25,
In re Trump, supra (Sept. 9, 2020). The petition in In
re Trump presents substantially the same Article III
standing question that the panel majority incorrectly
decided here, as well as the cause-of-action questions
that the President pressed below. In that case, however, those questions were presented in a petition for
mandamus in the court of appeals, rather than, as here,
in a direct appeal. So granting this petition could obviate the need to resolve any additional complexities presented by the mandamus standard. Meanwhile, the
panel majority in this case squarely decided only the
Article III competitor-standing question, whereas the
en banc Fourth Circuit also considered the President’s
arguments about the unavailability of an implied cause
of action in equity against the President in his official
capacity. So granting that petition will ensure that this
Court has both the Article III and cause-of-action questions before it.
In sum, this Court should grant both petitions. That
would best ensure the Court has before it the full complement of legal objections to these novel and fundamentally flawed suits against the President. 2

By contrast, the Court should deny the pending petition in
Blumenthal v. Trump, 949 F.3d 14 (D.C. Cir. 2020) (per curiam),
No. 20-5 ( filed July 6, 2020), in which the court of appeals correctly
held that a Foreign Emoluments Clause suit by Members of Congress must be dismissed on legislative-standing grounds inapplicable here. See Br. in Opp. at 7-24, Blumenthal, supra (No. 20-5).
2

30
CONCLUSION

The petition for a writ of certiorari should be granted.
Respectfully submitted.
JEFFREY B. WALL
Acting Solicitor General
JEFFREY BOSSERT CLARK
Acting Assistant Attorney
General
HASHIM M. MOOPPAN
Counselor to the Solicitor
General
MORGAN L. RATNER
BRINTON LUCAS
Assistants to the Solicitor
General
MARK R. FREEMAN
MICHAEL S. RAAB
DANIEL WINIK
Attorneys

SEPTEMBER 2020

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

Docket No. 18-474
August Term, 2018
CITIZENS FOR RESPONSIBILITY AND ETHICS IN
WASHINGTON, RESTAURANT OPPORTUNITIES
CENTERS UNITED, INC., JILL PHANEUF, AND
ERIC GOODE, PLAINTIFFS-APPELLANTS
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY AS
PRESIDENT OF THE UNITED STATES OF AMERICA,
DEFENDANT-APPELLEE
Argued: Oct. 30, 2018
Decided: Sept. 13, 2019
Before:

JOHN M. WALKER, PIERRE N. LEVAL, CHRISTOPHER F. DRONEY, Circuit Judges.

Plaintiffs, who own and operate businesses in the
hospitality industry, appeal from the dismissal of their
lawsuit by the United States District Court for the
Southern District of New York (George B. Daniels, J.).
The district court dismissed Plaintiffs’ suit on the
grounds that Plaintiffs lack Article III standing, they
fall outside the zone of interests of the Emoluments
Clauses, their claims do not present a ripe case or controversy within the meaning of Article III, and the case
presents a non‐justiciable “political question.” VACATED AND REMANDED.
(1a)

2a
LEVAL, Circuit Judge:
Plaintiffs—Eric Goode, a restaurateur and hotelier,
and Restaurant Opportunities Center United (“ROC”),
a non‐partisan, member‐based organization of restaurants and restaurant workers—appeal from the judgment of the United States District Court for the Southern District of New York (Daniels, J.) dismissing their
complaint against Defendant Donald J. Trump, the
President of the United States, for lack of subject matter jurisdiction. The complaint seeks declaratory and
injunctive relief for the President’s alleged violations of
the Domestic and Foreign Emoluments Clauses of the
United States Constitution. The President moved to
dismiss for lack of subject matter jurisdiction pursuant
to Federal Rule of Civil Procedure 12(b)(1), arguing that
Plaintiffs did not have standing to sue. The district
court granted the motion, concluding that Plaintiffs lack
Article III standing, they fall outside the zone of interests of the Emoluments Clauses, their claims do not present a ripe case or controversy within the meaning of
Article III, and their suit is barred by the political question doctrine. For the reasons below, we vacate the
judgment and remand for further proceedings.
A.

BACKGROUND

Plaintiffs are in the hospitality industry.1 Plaintiff
Goode owns high-end hotels, restaurants, and event
In proceedings before the district court, plaintiffs included Jill
Phaneuf, who worked in the hospitality industry, and Citizens for
Responsibility and Ethics in Washington (CREW), a non‐profit government watchdog. In Plaintiffs’ appellate briefing, CREW notified the court it is “no longer appealing the district court’s judgment” that CREW lacks standing. Additionally, Phaneuf left the
job wherein she allegedly competed with Defendant’s businesses for
1

3a
spaces in the New York City area. Plaintiff ROC counts
among its members over 200 establishments, including
high‐end restaurants and event spaces in New York City
and Washington, D.C. The Plaintiff establishments cater to foreign and domestic government clientele, and
allege that they are direct competitors of hospitality
properties owned by the President in Washington D.C.
and New York City.
The complaint alleges that President Trump, operating through corporations, limited‐liability companies,
limited partnerships, and other business structures, is
effectively the sole owner of restaurants, hotels, and
event spaces, which are patronized by foreign and domestic government clientele. The President has announced that, since assuming office, he has turned over
day‐to‐day management of his business empire to his
children and established a trust to hold his business assets. 2 However, he maintains sole ownership, receives
business updates at least quarterly, 3 and has the ability
to obtain distributions from the trust at any time. 4 The
facts alleged by Plaintiffs, together with those acknowledged by the President, support the inference that the
revenues of the Trump establishments are substantially
diplomatic clientele, and Plaintiffs acknowledge that she “no longer
has Article III standing to pursue her claims, which sought only prospective relief.”
2
Donald Trump’s News Conference: Full Transcript and Video,
N.Y. Times (Jan. 11, 2017), http://nyti.ms/2jG86w8.
3
Jennifer Calfas, Eric Trump Says He’ll Give the President
Quarterly Updates on Business Empire, Fortune (March 24, 2017),
http://for.tn/2n2MRXa.
4
Derek Kravitz & Al Shaw, Trump Lawyer Confirms President
Can Pull Money From His Businesses Whenever He Wants, ProPublica (April 4, 2017, 5:53 PM), http://bit.ly/2o1OM1C.

4a
(or are convertible into) personal revenues of the President.
i.

Plaintiffs’ Allegations

Stated generally, Plaintiffs allege that they have
been and will be injured because foreign and domestic
government entities that patronize Washington, D.C.
and New York hotels, restaurants, and event spaces patronize Trump establishments (in preference to Plaintiffs’ establishments) in the hope of enriching the President and earning a reward from him through official
Presidential action favorable to their governments, and
that such enrichment of the President by foreign and domestic government entities violates the Foreign and Domestic Emoluments Clauses. There are three principal categories of allegations.
First, Plaintiffs allege that they directly compete
with the President’s establishments for foreign, state,
and federal government clientele. Second Amended
Complaint (the “Complaint”) ¶¶ 13‐20. Plaintiffs support this allegation with extensive declarations from
hospitality industry experts. 5 Rachel Roginsky, a hos-

Where, as here, a defendant makes a “fact‐based” 12(b)(1) motion to dismiss by “proffering evidence beyond the Pleading,” the
plaintiff may “need to come forward with evidence of [its] own to
controvert that presented by defendant[.]” Carter v. HealthPort
Techs., LLC, 822 F.3d 47, 57 (2d Cir. 2016) (citing Exch. Nat’l Bank
of Chi. v. Touche Ross & Co., 544 F.2d 1126, 1131 (2d Cir. 1976)). The
President’s motion to dismiss challenged not only the facial sufficiency
of the complaint, but also the factual assertion that Plaintiffs’ restaurants directly compete with Trump establishments. Thus, we
5

5a
pitality consultant and professor at the Boston University School of Hospitality Administration, asserts that
certain of Goode’s hotels and one ROC member’s hotel‐
restaurant are “[p]rimary competitors” with Trump
SoHo and Trump International New York because they
“market to and attract customers from essentially the
same pool” given their “similar . . . location, facilities, services, amenities, class, image, and price.”
Roginsky Decl. ¶¶ 14‐17. Dr. Christopher Muller, former Dean of the Boston University School of Hospitality
Administration, identifies numerous of Plaintiffs’ restaurants in the New York and Washington, D.C. areas
that he asserts are “comparable” to various Trump establishments because they are within the same market
“segment” and therefore directly compete with one another. Muller Decl. ¶¶ 24‐29, 50‐56, 67‐75. Collectively, the two declarations identify more than a dozen
of Plaintiffs’ establishments, which, according to Roginsky
and Muller, compete directly with roughly half a dozen
Trump establishments over the same customer base, including foreign and domestic government customers.
Owners of these establishments also submitted declarations attesting that their restaurants and hotels are frequented by foreign, state, and federal officials and that
they compete directly with Trump establishments over
this customer base. Goode Decl. ¶¶ 4, 23‐24, 34, 36, 47‐
50; Colicchio Decl. ¶¶ 13‐14, 20‐21, 28‐29. Plaintiffs’
declarations include evidence of loss of government patronage from Plaintiffs’ establishments after the presidential election. ROC alleges that its restaurant and
restaurant‐employee members have suffered injury due
consider not only the allegations in the complaint but also the expert affidavits submitted in response to Defendant’s fact‐based
motion to dismiss.

6a
to “lost business, wages, and tips.” Complaint ¶ 13.
Specifically, James Mallios, managing partner at ROC
member restaurant Amali, testifies that Amali regularly
hosts dinners and events for government officials, including foreign leaders, Mallios Decl. ¶¶ 9, 20, 24‐27, and
that its tax‐exempt sales declined after November 2016,
reflecting a decline in government business. Id. ¶ 28.
Second, the Complaint cites statements by the President implicitly soliciting the patronage of government
officials and apparently acknowledging that, in making
governmental decisions, he favors governments that
patronize his businesses. See, e.g., Complaint ¶ 96
(“Trump said [of the Saudis, in the context of discussing
trade negotiations], ‘ . . . They spend $40 million,
$50 million. Am I supposed to dislike them? I like
them very much.’ ”); id. ¶ 52 (responding to a question
about the U.S.’s dispute with China over the South
China Sea, “I do deals with [China] all the time.
[China’s largest bank] is a tenant of mine . . . ”).
The Complaint alleges that Trump businesses began investing in attracting foreign government business after
the election, id. ¶¶ 60‐63, and further that these efforts
have succeeded in attracting post‐election patronage
from foreign governments. Id. ¶¶ 64-87.
Third, Plaintiffs allege that foreign governments
have taken note of, and been influenced by, the message
that enriching the President by giving patronage to his
establishments earns his favor. Plaintiffs point to
statements by foreign government officials quoted in
newspaper articles, including one “Middle Eastern diplomat” who said, “Believe me, all the delegations will go
[to Trump establishments].” Id. ¶ 62 (quoting Jonathan O’Connell & Mary Jordan, For foreign diplomats,

7a
Trump hotel is place to be, WASH. POST (Nov. 18, 2016),
http://wapo.st/2oPYggX).
Another diplomat reportedly stated, “Why wouldn’t I stay at his hotel blocks
from the White House[?] . . . Isn’t it rude to come to
his city and say, ‘I am staying at your competitor?’ ”
Id. Plaintiffs also allege that foreign government official patronage of Trump establishments has increased
since the President was elected. Id. ¶¶ 56, 60, 64, 68,
72, 79, 82. In particular, Plaintiffs point to one instance
in which, shortly after the election, a foreign government switched the venue of an event from a competitor
to a Trump establishment. Id. ¶ 74.
The Complaint asserts that the President’s receipt of
the revenues he derives from the patronage of foreign
and domestic government entities violates the Foreign
and Domestic Emoluments Clauses. Id. ¶ 1. The Foreign Emoluments Clause provides: “[N]o Person holding any Office of Profit or Trust under [the United
States], shall, without the Consent of the Congress, accept of any present, Emolument, Office, or Title, of any
kind whatever, from any King, Prince, or foreign State.”
U.S. Const., Art. I, § 9, Cl. 8. Congress has not consented to Defendant’s receipt of the emoluments at issue
here. Complaint ¶ 2. The Domestic Emoluments Clause
provides: “The President shall, at stated Times, receive for his Services, a Compensation, which shall neither be increased nor diminished during the Period for
which he shall have been elected, and he shall not receive within that Period any other Emolument from the
United States, or any of them.” U.S. Const., Art. II,
§ 1, Cl. 7.
The Complaint seeks both declaratory and injunctive
relief. It seeks a declaration, inter alia, that, in these

8a
circumstances, the patronage of foreign and domestic
government entities of the President’s establishments
violates the Foreign and Domestic Emoluments Clauses.
Complaint ¶ 20. As to injunctive relief, the Complaint
asks the court to “enjoin[] Defendant from violating
both Emoluments Clauses” and to “requir[e] Defendant
to release financial records sufficient to confirm that Defendant is not engaging in any further transactions that
would violate either Emoluments Clause.” Id.
ii.

Defendant’s Motion to Dismiss

The President moved to dismiss the Complaint, arguing that Plaintiffs lacked Article III standing and fell
outside the zone of interests of the Emoluments Clauses.
As to standing, the President argued that Plaintiffs’ “allegations of future injuries are premised upon a speculative chain of possibilities, including the decisions of
third parties [i.e., prospective government customers]
not before the Court.” Defendant’s Memorandum of
Law in Support of the Motion to Dismiss, at 18‐19.
With respect to the specific evidence of lost government
patronage, the President argued that the declarations
do not “show that the decline was attributable to” government customers choosing Trump establishments, because the decline could have a different cause. Reply
Memorandum of Law in Support of the Motion to Dismiss, at 6. The President did not contest the substance
of Plaintiffs’ expert testimony that certain of Plaintiffs’
establishments compete directly with Trump establishments. As to the zone of interests, President Trump
argued that because the Clauses were “intended to
guard against the corruption of and foreign influence on
federal officials and to ensure the independence of the
President,” Plaintiffs’ alleged injuries “bear no relation

9a
to the [Clauses’] core concerns,” and thus Plaintiffs’
claims should be dismissed. Defendant’s Memorandum of Law in Support of the Motion to Dismiss, at 25‐
26.
iii. District Court Decision
The district court granted the President’s motion to
dismiss for lack of jurisdiction under Rule 12(b)(1).
While recognizing that Plaintiffs’ allegations, supported
by expert declarations, satisfied the injury prong of the
Article III standing inquiry, the district court found
“Plaintiffs have failed to properly allege that Defendant’s actions caused Plaintiffs competitive injury and
that such an injury is redressable by this Court.”
CREW et al. v. Trump, 276 F. Supp. 3d 174, 185
(S.D.N.Y. 2017) (emphasis in original). The district
court called it “wholly speculative” whether any lost
business was “fairly traceable to Defendant’s ‘incentives’ or instead results from government officials’ independent desire to patronize Defendant’s businesses.”
Id. at 186. Hypothesizing alternative explanations for
Plaintiffs’ injury, the district court opined that “interest
in [Trump] properties” could have “generally increased
since he became President” or Plaintiffs may “face a
tougher competitive market overall.” Id. Given that
Plaintiffs failed to rule out these alternative explanations for their injury at the pleading stage, the district
court concluded the “connection between [] Plaintiffs’ alleged injury and Defendant’s actions is too tenuous to
satisfy Article III’s causation requirement.” Id. For
the same reasons, the district court found the injury was
not likely to be redressed by any relief the district court
could offer. Id.

10a
The district court also found that Plaintiffs lacked
“prudential” standing. Reasoning that standing to sue
under the Emoluments Clauses is limited to those parties the Clauses were meant to protect, the district court
found that Plaintiffs fell outside the “zone of interests”
of the Clauses. Id. at 187-88. The district court reasoned that “[n]othing in the text or the history of the
Emoluments Clauses suggests that the Framers intended these provisions to protect anyone from competition.” Id. at 187. Rather, the district court found,
the Emoluments Clauses are meant to prevent corruption and foreign influence, and ensure the President’s
independence. Id. at 188. Contrasting this suit with
one brought under the “generous review provisions of
the [Administrative Procedure Act],” the district court
stated that the zone of interests test “is more strictly
applied when a plaintiff is proceeding under a constitutional . . . provision.” Id. at 187 (emphasis in original) (quoting Wyoming v. Oklahoma, 502 U.S. 437, 469
(1992) (Scalia, J., dissenting)). 6 Because Plaintiffs are
not vindicating an interest in uncorrupted, independent
government, the district court reasoned, they do not
have standing to sue under the Emoluments Clauses.
The district court also found that the suit must be dismissed on two additional grounds, neither of which was
raised by the Defendant’s motion. These were that the
case presents a non‐justiciable political question and
that it is not ripe for adjudication. Id. at 193-95. Neither of these grounds is defended by the President on
this appeal.
The district court appeared to mistakenly rely on Justice Scalia’s
dissent in Wyoming as if it were a statement by the majority about
the proper application of the zone of interests test. See infra n.13.
6

11a
B.

DISCUSSION

A suit brought in federal court is “properly dismissed
for lack of subject matter jurisdiction under Rule
12(b)(1) when the district court lacks the statutory or
constitutional power to adjudicate it.” Makarova v.
United States, 201 F.3d 110, 113 (2d Cir. 2000). To the
extent that a district court’s dismissal for lack of subject
matter jurisdiction was based on the application of a rule
of law, 7 an appellate court construes the allegations of
the complaint in the light most favorable to Plaintiffs
and reviews the district court’s ruling de novo, meaning
that our inquiry focuses on whether the rules of law
were correctly applied. We conclude that the district
court did not apply the law correctly in finding that it
lacked jurisdiction to decide the case.

In some instances, a district court’s dismissal for lack of subject
matter jurisdiction under Rule 12(b)(1) is based in part on factual
findings. When such a dismissal is appealed, we review the relevant factual findings for clear error. See Rent Stabilization Ass’n
of City of New York v. Dinkins, 5 F.3d 591, 594 (2d Cir. 1993). In
this case, although the parties presented disputed factual issues to
the district court by evidentiary submissions, the court did not purport to resolve disputed issues of fact or make factual findings. Its
rulings were based only on the application of rules of law. Accordingly, our review is de novo. Id. (“If the trial court dismissed on
the basis of the complaint alone or the complaint supplemented by
undisputed facts evidenced in the record, our standard is de novo
review[.]”).
7

12a
i. Article III Standing
Plaintiffs contend that the district court interpreted
the law incorrectly in concluding that they lack standing
to bring this action under Article III of the Constitution.
There are three prongs to the standing inquiry under
Article III. In order to successfully allege standing to
bring a suit in federal court, a complaint must plausibly
allege the following: first, that the plaintiff has suffered an “injury in fact,” which the Supreme Court defines as “an invasion of a legally protected interest which
is (a) concrete and particularized; and (b) actual or imminent, not [merely] conjectural or hypothetical,” Lujan
v. Defenders of Wildlife, 504 U.S. 555, 560 (1992) (internal citations and quotation marks omitted); second, that
there is a “causal connection between the injury and the
conduct complained of,” which requires the injury to be
“fairly traceable to the challenged action of the defendant, and not the result of the independent action of some
third party not before the court;” id. (internal quotation
marks and alterations omitted); and third, that it is
“likely, as opposed to merely speculative, that the injury
will be redressed by a favorable decision.” Id. (internal
quotation marks omitted). These three components of
the Article III “case or controversy” requirement are
designed to ensure that the “plaintiff has alleged such a
personal stake in the outcome of the controversy as to
warrant his invocation of federal court jurisdiction and
to justify [the] exercise of the court’s remedial powers
on his behalf.” Simon v. Eastern Ky. Welfare Rights
Org., 426 U.S. 26, 38 (1974) (internal quotation marks
omitted).
We find that Plaintiffs satisfy all three prongs of Article III standing for the reasons set forth below.

13a
a. Injury
The requirement that Plaintiffs adequately allege an
injury in fact “serves to distinguish a person with a direct stake in the outcome of a litigation—even though
small—from a person with a mere interest in the problem.” United States v. Students Challenging Regulatory Agency Procedures (SCRAP), 412 U.S. 669, 690
n.14 (1973) (citing, inter alia, Kenneth C. Davis, Standing: Taxpayers and Others, 35 U. CHI. L. REV. 601,
613 (1968) (“[A]n identifiable trifle is enough for standing to fight out a question of principle.”)). Because this
appeal arises at the pleading stage, “general factual allegations of injury resulting from the defendant’s conduct may suffice, for on a motion to dismiss we presume
that general allegations embrace those specific facts
that are necessary to support the claim.” Lujan, 504
U.S. at 561 (internal quotation marks omitted).
Plaintiffs’ alleged injury meets the well‐established
Article III threshold for economic competitors who allege that, because of unlawful conduct, their rivals enjoy
a competitive advantage in the marketplace. To make
an adequate allegation of a competitive injury, plaintiffs
must plausibly allege (1) that an illegal act bestows upon
their competitors “some competitive advantage,” Fulani v. League of Women Voters Edu. Fund, 882 F.2d
621, 626 (2d Cir. 1989); and (2) “that [they] personally
compete[] in the same arena” as the unlawfully benefited competitor. In re United States Catholic Conference, 885 F.2d 1020, 1029 (2d Cir. 1989). For standing
purposes, it is not necessary to identify specific customers who switched to Plaintiffs’ competitors; rather, competitor standing “relies on economic logic to conclude
that a plaintiff will likely suffer an injury‐in‐fact when

14a
the [defendant] acts in a way that increases competition
or aids the plaintiff ’s competitors.” Canadian Lumber
Trade Alliance v. United States, 517 F.3d 1319, 1332
(Fed. Cir. 2008); see also Cooper v. Tex. Alcoholic Beverage Comm’n, 820 F.3d 730, 738 (5th Cir. 2016) (“It is a
basic law of economics that increased competition leads
to actual economic injury.’’) (internal quotation marks
omitted); Sherley v. Sebelius, 610 F.3d 69, 72 (D.C. Cir.
2010) (“[I]ncreased competition almost surely injures a
seller in one form or another[.]”); Kerm Inc. v. FCC, 353
F.3d 57, 60 (D.C. Cir. 2004) (“A party seeking to establish standing on this basis must demonstrate that it is a
direct and current competitor whose bottom line may be
adversely affected by the challenged [] action.”) (emphasis added) (internal quotation marks omitted).
The Complaint sufficiently alleges that Plaintiffs compete directly with Trump establishments and that the
President’s allegedly illegal acts favor Plaintiffs’ competitors. Specifically, it alleges that Plaintiffs’ establishments are harmed in their competition with Trump
establishments because, despite being comparable in
other relevant respects, the President’s establishments
offer government patrons something that Plaintiffs cannot: the opportunity, by enriching the President, to
obtain favorable governmental treatment from the
President and the Executive branch. It alleges that
the marketplace is thus skewed in favor of Trump businesses because of his unlawful receipt of payments from
government patrons. The Complaint, supported by expert declarations, alleges that this unlawful market
skew has caused Plaintiffs economic harm in the form of
lost patronage from government entities, and that such
harm will continue in the future.
For competitor
standing, that is sufficient.

15a
The President argues that Plaintiffs rely on a
“boundless theory of standing” that the Supreme Court
has rejected because it would find the Article III injury
prong satisfied “whenever a competitor benefits from
something allegedly unlawful. . . . ” Already, LLC v.
Nike, Inc., 568 U.S. 85, 99 (2013). He argues that Plaintiffs’ theory of injury is over‐broad because it would “apply the presumption [of harm to competitors] whenever
a party acts illegally and thereby distorts competition or
the defendant’s unlawful conduct confers a benefit on a
plaintiff ’s competitor.” Appellee’s Br. at 31 (emphasis
in original) (citing Already, 568 U.S. at 99). The Defendant, however, both mischaracterizes Plaintiffs’ argument and misses the mark in analogizing the theory
of injury in this case to the one the Supreme Court rejected in Already.
Plaintiffs do not argue that they are injured merely
because a competitor benefits; rather, Plaintiffs allege
that in competing over the exact same customer base,
Trump establishments secure an unlawful advantage because giving patronage to Trump establishments offers,
in addition to comparable services, the potential, by enriching the President, of securing his favor in governmental decisions. This unlawful market skew directly
affects Plaintiffs’ revenue and profits: Every dollar of
government patronage drawn to Trump establishments
by the hope of currying favor with the President is a lost
dollar of revenue that might otherwise have gone to
Plaintiffs.
These facts have little in common with Already. In
Already, the Supreme Court considered whether Already, LLC could challenge the validity of Nike’s “Air

16a
Force 1” trademark despite the fact that Nike had issued a covenant that it would refrain from making any
claims against Already based on the Air Force 1 trademark, and despite the fact that Already did not plan to
sell any product that “would arguably infringe Nike’s
trademark yet fall outside the scope of the covenant.”
568 U.S. at 95. The Court clarified that it was insufficient for standing purposes for Already to claim that any
gain to Nike was Already’s loss; rather, Already had to
show “an injury more particularized and more concrete
than the mere assertion that something unlawful benefited [its] competitor.” Id. Because Already did not
face any liability for past conduct arguably infringing
the Air Force 1 trademark, and because Already had not
plausibly alleged any other way in which the trademark’s continued validity injured Already, Already
lacked an Article III injury. Here, by contrast, the nature of the injury from the allegedly unlawful conduct is
clear and concrete: The Complaint plainly asserts that
the Plaintiff establishments are losing, and will continue
to lose, business from government patrons based on the
patrons’ belief that they can obtain official Presidential
favor by spending their money in a manner that enriches
the President.
We conclude that Plaintiffs have satisfied the Article
III requirement of alleging an injury in fact.
b. Causation
Plaintiffs also adequately allege that their injury is
fairly traceable to the challenged conduct of the Defendant. To satisfy the “traceability” or “causation” prong
of the Article III standing test, allegations must provide
more than “unadorned speculation” to “connect their injury to the challenged actions.” Simon, 426 U.S. at 44-

17a
45. This, however, does not require ruling out all possible alternative explanations of a plaintiff ’s injury.
The allegations of fact must plausibly support a “substantial likelihood” that the plaintiff ’s injury was the
consequence of the defendant’s allegedly unlawful actions (and that prospective relief could mitigate the
harm). Id. at 45.
The district court demanded too much at the pleading
stage by requiring allegations that dispel alternative
possible explanations for Plaintiffs’ injury. The district court identified various alternative theories that
could explain a decline in Plaintiffs’ business: a “general[] increase[]” of “interest in [Trump] properties
. . . since he became President,” CREW, 276 F. Supp.
3d at 186; the possibility that Trump establishments
provide better “service, quality, location, price and other
factors related to individual preference,” id.; or “an increase in competition in their respective markets for
business from all types of customers[.]” Id. The district court found Plaintiffs’ pleadings inadequate because they failed to dispel these alternative explanations. In so doing, the district court effectively required plaintiffs to prove, pre‐discovery, the facts necessary to win at trial. This was error. See Lujan, 504
U.S. at 561 (explaining that less is required to support
standing at the pleading stage compared to “successive
stages of the litigation,” when the burden increases).
Under the standard applied by the district court, it
would be virtually impossible to plead a competitive injury, because a defendant would defeat standing merely
by pointing to the possibility that customers’ preference

18a
for defendant’s products or services was attributable to
something other than the defendant’s illegal conduct. 8
Our precedents, and those of the Supreme Court,
make clear that Plaintiffs’ allegations are sufficient to
plausibly assert a substantial likelihood that their injury
is the consequence of the challenged conduct. In Fulani, we upheld the standing of a fringe, third‐party
presidential candidate to challenge the continued grant
of tax exemption by the IRS to the League of Women
Voters on the ground that the League had engaged in
impermissible partisan activities by limiting participation in its televised presidential debates to members of
the Republican and Democratic parties. 882 F.2d at
625. The League’s criteria for inclusion required, in
addition to membership in one of the two major parties,
that a candidate be “significant.” Id. at 625-26.
Fulani alleged that she was a “significant” candidate,
who would have been included if not for the requirement
of membership in either the Republican or Democratic
We also note that there is no logic to the district court’s proposition that, because some government patrons might be drawn to
Trump establishments by curiosity, this means that none of them
patronize his establishments in the hope of currying the President’s
favor by enriching him. In the course of a year, there are thousands of instances in which government representatives patronize
hotels and restaurants in New York and Washington. Undoubtedly
there are many factors that will influence their selections. The likelihood that some choices of government representatives will be influenced by other factors such as general curiosity in no way undermines Plaintiffs’ altogether plausible allegation of a substantial likelihood that, in some significant number of instances, government officials will choose Trump hotels and restaurants in the hope that
spending their dollars at Trump establishments will influence the
President in their favor in governmental decisions.
8

19a
party. Id. at 626. In assessing her Article III standing, this court did not probe her allegation that she was
a significant candidate despite its dubious merit. We
ruled that she had established Article III standing, notwithstanding the obvious improbability that she would
make it into the debates as a “significant” candidate.
Id. (“For purposes of determining Fulani’s standing to
challenge whether the League’s use of [the party membership] requirement was inconsistent with its section
501(c)(3) status, we accept Fulani’s contention that she
was a ‘significant’ candidate in this election. . . . ”).
To satisfy Article III standing, it was sufficient that she
had plausibly alleged that she would have qualified.
See also Schulz v. Williams, 44 F.3d 48, 53 (2d Cir. 1994)
(finding that a would‐be intervenor had Article III
standing to prosecute the appeal, where “[t]he district
court’s decision could have caused [an] injury [to the intervenor], and [the] appeal could have afforded relief
that would have redressed that injury”) (emphasis
added).
The Supreme Court has repeatedly upheld the standing of a plaintiff-competitor who alleges a competitive
injury caused by a defendant’s unlawful conduct that
skewed the market in another competitor’s favor, notwithstanding other possible, or even likely, causes for
the benefit going to the plaintiff ’s competition. The
Supreme Court has explained that when, among competitors, an allegedly illegal “barrier [] makes it more
difficult for members of one group to obtain a benefit
than it is for members of another group, a member of
the former group seeking to challenge the barrier need
not allege that he would have obtained the benefit but
for the barrier in order to establish standing.” Northeastern Fla. Chapter of Associated Gen. Contractors of

20a
Am. v. City of Jacksonville, Fla., 508 U.S. 656, 666
(1993) (emphasis added); see also id. (explaining that an
economic competitor meets the standing requirement
by plausibly alleging “the inability to compete on an
equal footing” without needing to allege the loss of any
identifiable piece of business); Regents of Univ. of Cal.
v. Bakke, 438 U.S. 265, 281 n.14 (1978) (upholding standing, based on loss of chance to compete equally, of white
male applicant to program that reserved 16 of 100 spots
for minority applicants); Schulz, 44 F.3d at 53 (finding
that “under the well‐established concept of competitors’
standing,” “the loss of opportunity to compete equally”
is sufficient to establish standing) (internal citation and
quotation marks omitted).
Plaintiffs satisfied this standard. The complaint adequately pleads a competitive injury of lost patronage
directly traceable to the fact that the President’s allegedly illegal conduct induces government patrons of the
hospitality industry in Washington, D.C. and New York
City to patronize Trump establishments in preference to
Plaintiffs’ establishments.
The district court found, and President Trump argues on appeal, that this case is analogous to Simon v.
Eastern Ky. Welfare Rights Org., 426 U.S. 26, 38 (1974).
See CREW, 276 F. Supp. 3d at 185-86 (“The Court [in
Simon] held that [the] alleged injury lacked traceability
and redressability because of intervening causal factors.
. . . [A]s in Simon, it is wholly speculative whether
the Hospitality Plaintiffs’ loss of business is fairly traceable to Defendant’s ‘incentives[.]’ ”). In Simon, indigent persons and their organizational representatives
challenged an IRS revenue ruling that extended favorable tax treatment to non‐profit hospitals that offered

21a
only emergency room services to indigents, rather than
offering services to indigents to the extent of the hospital’s financial ability, alleging that “by extending tax
benefits to such hospitals despite their refusals fully to
serve the indigent, the defendants were ‘encouraging’
the hospitals to deny services.” Simon, 426 U.S. at 33.
This case is not analogous to Simon.
In Simon, the Court questioned whether the modification of the relevant tax rule actually influenced hospital policymaking regarding the scope of services provided to indigent patients, and therefore held that the
plaintiffs had failed to establish a causal connection between the challenged IRS Ruling and the denials of service. Central to the Court’s analysis was its skepticism
that the previous IRS rule (or its modification) had a material, non‐speculative effect on any given hospital’s decision to offer non‐emergency services to indigents, particularly when the “undetermined financial drain” arising from the costs of supplying such services may have
outweighed the benefits of favorable tax treatment.
Id. at 43. It was therefore “just as plausible that the
hospitals to which respondents may apply for service
would elect to forgo favorable tax treatment to avoid”
the costs of providing those services. Id. In view of
the countervailing cost consideration which potentially
offset the effects of the tax rules, and the plaintiff ’s failure to “establish . . . that [the] hospitals are [categorically] dependent upon [charitable] contributions,”
the Court reasoned that the causal link between the IRS
ruling and the hospitals’ decisions to deny services to
the plaintiffs was little more than “unadorned speculation.” Id. at 43-44. Accordingly, the Court held that
the plaintiffs had failed to establish that reinstatement

22a
of the previous rule would result in the change in hospital policy that would cure the plaintiffs’ injury. Id. at
45-46.
Here, by contrast, the Complaint, supported by expert declarations, alleges that Plaintiffs’ establishments
offer services comparable to those offered at Trump establishments in every relevant respect, save one:
Plaintiffs cannot offer government patrons the opportunity to obtain favorable treatment from the President
and the Executive branch in governmental decisions.
It is eminently plausible that if two establishments provide otherwise comparable services, but one establishment offers an inducement that the other cannot offer,
then the inducement will attract at least some patronage
that might otherwise have gone to the other establishment. The Complaint contains numerous factual allegations sufficient to support the conclusion that the
President’s receipt (and invitation) of allegedly illegal
emoluments actually influences at least some government customers’ purchasing decisions. And unlike in
Simon, there is no reason to believe that the competitive
skew caused by those patrons’ desire to gain influence
by patronizing the Trump establishments is offset or annulled by some countervailing consideration. Simon
thus sheds little light on this case.
c.

Redressability

We likewise find that Plaintiffs have adequately
pleaded the redressability of their alleged injury, an issue that is closely related to the question of causation.
When the injury alleged is caused by the illegal conduct,
in many instances (at least where continuation of the illegal conduct will continue to cause harm), the cessation
of the illegal conduct will be likely to at least diminish

23a
further instance of the injury. Because Plaintiffs have
successfully alleged a plausible likelihood that President
Trump’s conduct caused their injuries, and the injury is
ongoing, it logically follows that relief would redress
their injury—at least to some extent, which is all that
Article III requires. See Larson v. Valente, 456 U.S.
228, 243 n.15 (1982) (“[A plaintiff] need not show that a
favorable decision will relieve his every injury.”) (emphasis in original); see also Massachusetts v. E.P.A., 549
U.S. 497, 526 (2007) (finding redressability is satisfied
where “risk of catastrophic harm” could be “reduced to
some extent if petitioners received the relief they seek”)
(emphasis added).
The Complaint seeks injunctive relief requiring that
the President cease the conduct that allegedly violates
the Foreign and Domestic Emoluments Clauses. Plaintiffs have plausibly pleaded that the President’s ownership of hospitality businesses that compete with them
will induce government patrons of the hospitality industry to favor Trump businesses over those of the Plaintiffs so as to secure favorable governmental action from
the President and Executive branch. This plausibly alleges that his cessation of the violation would eliminate
the inducement to those patrons to favor his businesses,
and would therefore eliminate, or at least diminish, the
competitive injury that Plaintiffs suffer. These plausible allegations are sufficient to satisfy Article III’s requirement of redressability.
d. The Fourth Circuit’s In re Trump Decision and Judge Walker’s Dissent
We recognize that our colleague Judge Walker disagrees, and that a panel of the Fourth Circuit has also
reached the opposite conclusion in a closely analogous

24a
case, In re Donald J. Trump, 928 F.3d 360 (4th Cir.
2019). 9 Judge Walker relies on substantially the same
arguments as the Fourth Circuit panel in In re Trump.
Respectfully, we do not find these arguments persuasive.
As a preliminary note, both opinions seem to be influenced by their perception that these lawsuits are politically motivated. Judge Walker asserts that this case is
“deeply political” and emphasizes that “President Trump
was democratically elected by the American people
. . . with his business holdings and brand prominence
in full view.” See infra. The Fourth Circuit expressed skepticism as to “why [the plaintiffs] came to
the court for relief in the first place,” implying that their
motivation was political and that this cast doubt on the
federal court’s jurisdiction. In re Trump, 928 F.3d at
377; see also infra (quoting In re Trump). While it is
certainly possible that these lawsuits are fueled in part
by political motivations, we do not understand the significance of that fact. It is true that a political motivation for a lawsuit, standing alone, is insufficient to confer
In that case, the District of Columbia and the State of Maryland
brought similar claims against the President, alleging violations of
the Foreign and Domestic Emoluments Clauses based on factual allegations almost identical to the allegations in this case. Compare
In re Trump, 928 F.3d at 365-66 with CREW, 276 F. Supp. 3d at 18283. The plaintiffs there argued that they had Article III standing
based, inter alia, on their “interests in protecting the economic well‐
being of their residents, who, as competitors of the President, are
injured by decreased business, wages, and tips resulting from economic and commercial activity diverted to the President’s businesses,” as well as based on their “interests as proprietors of businesses that compete with the President’s businesses.”
In re
Trump, 928 F.3d at 363 (internal quotation marks omitted).
9

25a
Article III standing. Cf. Flast v. Cohen, 392 U.S. 83,
106 (1968) (noting that the “federal court[s] [cannot be
used] as a forum in which to air [] generalized grievances
about the conduct of government”). But while the existence of a political motivation for a lawsuit does not
supply standing, nor does it defeat standing. “Standing under Article III . . . [depends on] an injury
[that is] concrete, particularized, and actual or imminent; fairly traceable to the challenged action; and redressable by a favorable ruling.” Monsanto Co. v.
Geertson Seed Farms, 561 U.S. 139, 149 (2010) (citing
Horne v. Flores, 557 U.S. 433, 445 (2009)). Whether a
lawsuit has political motivations is irrelevant to these
determinative issues.
1. Injury‐in‐Fact
With respect to the “injury‐in‐fact” requirement,
Judge Walker correctly states that to establish an injury
through the competitor standing doctrine, a plaintiff
must show that she is a “direct competitor” of the defendant and an “actual or imminent increase in competition.” See infra (citations omitted). As we conclude
above, Plaintiffs have clearly met these standards.
Judge Walker relies on the Supreme Court’s decision in
Already, 568 U.S. 85, as demonstrating that “competing
businesses [do not] have standing to challenge [] unlawful action simply by virtue of their status as a direct competitor.” See infra (citing In re Trump, 928 F.3d at
377).
We readily acknowledge that proposition, but we do
not agree that it controls here. In their allegations,
Plaintiffs go further than simply alleging that they directly compete with the Trump establishments; they
plausibly allege precisely how the President’s allegedly

26a
unlawful conduct harms their ability to attract patrons
to their establishments. See, e.g., Complaint ¶ 14 (“As
a competitor of restaurants located in Defendant’s hotels
and other properties . . . ROC United has been injured by these payments due to lost business. . . . ”)
(emphasis added); id. ¶ 199 (“Officials of foreign states
and of the United States and various state and local governments have purchased and will use their government’s funds to purchase food and services from one or
more restaurants owned by Defendant, instead of from
competing restaurants that are members of ROC
United.”). And as we point out above, Already involved very different circumstances; the plaintiffs in
that case were unable to plausibly allege that Nike’s
trademark harmed—or threatened to harm—their business prospects. See 568 U.S. at 99. 10
Judge Walker also “question[s] the expansive scope”
of the competitor standing doctrine, and worries that
our approach would confer standing, for example, on a
restaurant whose competitor illegally obtained a bank
loan or a large tax refund and used its ill‐gotten proceeds to hire a better chef or to lower its prices, thereby
exposing the plaintiff—restaurant to increased competition. See infra. Those hypotheticals are far beyond
the scope of our ruling. A plaintiff who establishes an

The Fourth Circuit also criticized the plaintiffs for “rest[ing] on
the theory that so long as a plaintiff competes in the same market as
a defendant and the defendant enjoys an unlawful advantage, the requirements for Article III standing are met.” In re Trump, 928
F.3d at 377. The Fourth Circuit rejected that “boundless theory of
standing” based on the Supreme Court’s holding in Already. See
id. For the reasons expressed above, we do not believe that Already precludes Plaintiffs’ theory of standing. See supra.
10

27a
injury‐in‐fact by alleging direct competition and an “inability to compete [with the defendant] on an equal footing,” City of Jacksonville, 508 U.S. at 666, must also establish that such injury is “fairly traceable to the defendant’s allegedly unlawful conduct” and “likely to be
redressed by the requested relief.” Allen v. Wright,
468 U.S. 737, 751 (1984). Here the connection between
the alleged violations of law and Plaintiffs’ harm is far
more direct than in Judge Walker’s hypothetical: It is
precisely the President’s receipt of allegedly illegal
emoluments that constitutes Plaintiffs’ competitive injury.
Lastly, Judge Walker seems to draw a rule that the
competitor standing doctrine is limited to “three broad
categories of cases”—agency cases, election cases, and
unfair competition cases—and that this case “fits into
none of [them].” See infra. He cites no authority for
the proposition that the doctrine is limited to these three
categories, and we see no reason why it should be.
Even if it were, we note that Plaintiffs’ theory of competitive injury in this case is structurally identical to the
economic reasoning that often supports standing in the
unfair competition context. Id. (noting that, in unfair
competition cases, standing exists when the parties are
“direct competitors” based on a presumption that
“[s]ales gained by one are thus likely to come at the
other’s expense”) (quoting TrafficSchool.com, Inc. v.
Edriver, Inc., 653 F.3d 820, 825 (9th Cir. 2011)).
2. Traceability
With respect to traceability, we agree with Judge
Walker that “[u]nder the competitor‐standing doctrine,
. . . traceability flows readily from a competitive injury” and that “if the violation would necessarily harm

28a
the plaintiff ’s competitive opportunities, then an unlawful edge to a competitor logically connects to that violation.” See infra (citations omitted). But we do not
understand Judge Walker’s conclusion that traceability
is lacking here because there are “simply too many variables at play . . . to allow the plaintiffs to rest solely
on the bare assertion that the President’s acceptance
of emoluments has caused them competitive injury.”
See infra. The fact that there are ”many different factors [that] influence [government officials’] decision
making” does not foreclose Plaintiffs’ plausible theory—
supported by clear factual allegations—that the President’s prior statements and his receipt of allegedly illegal emoluments unduly influences some government officials to patronize his establishments, thereby causing
a competitive harm to Plaintiffs. Id. Judge Walker’s
suggestion that the existence of alternate explanations
for the Plaintiffs’ competitive injury defeats traceability
would deny Article III standing to plaintiffs alleging antitrust, unfair competition, or trademark infringement
claims who seek to enjoin conduct that unduly influences
buyers in a marketplace. In each of these categories of
cases, there exist “myriad reasons” why a consumer
might favor a defendant’s product, including, for example, “service, quality, location, price and other factors
related to individual preference.” CREW, 276 F. Supp.
3d. at 186. But these bona fide competitive reasons do
not bar a plaintiff from demanding that a court enjoin
illegal conduct that skews the marketplace by inserting
an additional unlawful competitive advantage.
Similarly, the Fourth Circuit panel found that the
In re Trump plaintiffs had failed to establish traceability because their “conclusion that government custom-

29a
ers are patronizing the [Trump International] Hotel because the Hotel distributes profits or dividends to the
President . . . requires speculation into the subjective motives of independent actors who are not before
the court.” 928 F.3d at 375. Such speculation, the
court held, “undermin[es] a finding of causation.” Id. 11
We respectfully disagree. That Plaintiffs’ theory of
harm results from decisions of third parties does not
preclude finding the cognizable link between the challenged action and the alleged harm that Article III requires. Block v. Meese, 793 F.2d 1303, 1309 (D.C. Cir.
1986) (Scalia, J.) (“It is impossible to maintain, of course,
that there is no standing to sue regarding action of a defendant which harms the plaintiff only through the reaction of third parties.”); see also Dep’t of Commerce v.
New York, 139 S. Ct. 2551, 2566 (2019) (holding that
plaintiffs had Article III standing where their “theory
of standing . . . relies [] on the predictable effect of
Government action on the decisions of third parties”)
(citing, inter alia, Block, 793 F.2d at 1309)); Bennett v.
Spear, 520 U.S. 154, 168-69 (1997) (warning against
“wrongly equat[ing] injury ‘fairly traceable’ to the defendant with injury as to which the defendant’s actions
are the very last step in the chain of causation”). Virtually every suit for trademark infringement, unfair
competition, or violation of the antitrust laws involves
harm that results from the decisions of third‐party customers. See TrafficSchool, 653 F.3d at 825 (noting that

The President makes the same argument on appeal in this case.
See Appellee’s Br. at 15-17 (“[P]laintiffs cannot establish traceability
and redressability where the alleged injury‐in‐fact depends on the
decisions of independent third parties whose actions the court can
neither predict nor control.”).
11

30a
“[i]n a false advertising suit, a plaintiff establishes Article III injury if ‘some consumers who bought the defendant[’s] product under [a] mistaken belief ’ fostered by the
defendant ‘would have otherwise bought the plaintiff [’s]
product,” and that such an injury may be proven by the
“probable market behavior” of independent third parties) (quoting Joint Stock Soc’y v. UDV N. Am., Inc., 266
F.3d 164, 177 (3d Cir. 2001); Adams v. Watson, 10 F.3d
915, 923 (1st Cir. 1993)).
When the “injury hinges on the reactions of [] third
parties [to the challenged conduct],” the plaintiff “need
not prove a cause‐and‐effect relationship with absolute
certainty; substantial likelihood of the alleged causality
meets the test.” Nat. Res. Def. Council v. Nat’l Highway Traffic Safety Admin., 894 F.3d 95, 104 (2d Cir.
2018). For example, “common sense and basic economics,” along with admissions from the third parties in
question that the challenged action would “affect [their]
business decisions,” are generally enough to establish
the requisite third‐party causation. Id. at 105 (internal
quotation marks and citations omitted).
Accordingly, to establish traceability, Plaintiffs need
only establish a substantial likelihood that the President’s receipt of emoluments—and his statements and
actions impliedly soliciting such emoluments, see, e.g.,
Complaint ¶¶ 52, 96—has some favorable effect on government officials’ demand for the Trump establishments
(and, by extension, some unfavorable effect on their demand for Plaintiffs’ competing properties). Plaintiffs
need not prove that every government official who
chooses a Trump establishment does so to curry favor
with the President by enriching him, nor need Plaintiffs
prove that a particular government official chose or will

31a
choose a Trump establishment for the sole or even the
primary reason of earning the President’s favor. Dep’t
of Commerce, 139 S. Ct. at 2566 (holding that “traceability is satisfied” when plaintiffs established that the
third‐party action leading to the alleged harm was
“likely attributable at least in part” to the challenged
action, noting that “Article III requires no more than de
facto causality”) (emphasis added) (internal quotation
marks omitted). Plaintiffs need only plausibly allege
that the President’s receipt of emoluments generates an
unlawful competitive advantage for the Trump establishments.
The allegations in the Complaint are sufficient to
meet this burden. Plaintiffs point to statements by foreign diplomats that they and others in their position
have been or will be motivated to choose Trump establishments to earn the President’s favor, or to avoid his
disfavor. See, e.g., Complaint ¶¶ 62, 74. Moreover,
the President’s statements to the effect that he favors
governments that spend money at his establishments increase the likelihood that government patrons will
choose Trump establishments in the hopes of winning
influence. See, e.g., id. ¶ 96 (alleging that the President
publicly stated that he “very much” likes and “get[s]
along great with” foreign officials who do business with
him). Without the benefit of discovery, the Plaintiffs
need not go further to establish causation for the purposes of Article III.
3. Redressability
Both Judge Walker’s dissent and the Fourth Circuit’s In re Trump opinion deny that any injunctive relief can be fashioned that would help Plaintiffs’ predicament. See In re Trump, 928 F.3d at 376; infra (“[T]here

32a
is no allegation that [the requested relief] would cause
diplomatic patrons to book at other establishments.”).
The Fourth Circuit expressed the view that “even if government officials were patronizing [the President’s] Hotel to curry [his] favor, there is no reason to conclude
that they would cease doing so were the President enjoined from receiving income from the Hotel . . .
[given that] the Hotel would still be publicly associated
with the President, would still bear his name, and would
still financially benefit members of his family.” In re
Trump, 928 F.3d at 376. Accordingly, the Fourth Circuit found that “the likelihood that an injunction . . .
would not cause government officials to cease patronizing the Hotel demonstrates a lack of redressability.”
Id.
Again, we disagree. Where customers favor a defendant’s product or service over that of a plaintiff because of that defendant’s violation of law, which is often
the case in trademark infringement, unfair competition,
or antitrust cases, the mere possibility that customers
might continue to favor the defendant’s product or service after a court enjoins the violation does not defeat
Article III standing. If it did, such claims could never
be heard before Article III courts.
Plaintiffs’ requested remedy need only remove from
the equation the improper competitive advantage arising from the possibility that, by patronizing Trump establishments, government officials can earn favor from
the President. “[C]ommon sense and basic economics”
indicate that the elimination of any illegal competitive
advantage that motivated government officials to give
more business to the Trump establishments will cause

33a
at least some to cease to give preference to those businesses, thereby redressing the claimed injury. Nat.
Res. Def. Council, 894 F.3d at 104.
Moreover, the Fourth Circuit’s suggestion that, notwithstanding a court’s grant of the requested relief,
some government officials would likely continue to patronize Trump establishments to curry the President’s
favor is besides the point. In re Trump, 928 F.3d at
376. The Supreme Court made clear in Mass. v. EPA
that a remedy that “will not by itself reverse” the alleged injury would still satisfy the redressability requirement if it “reduced [that injury] to some extent.”
549 U.S. at 525-26 (emphasis omitted); see also Larson,
456 U.S. at 243 n.15 (“[A plaintiff] need not show that a
favorable decision will relieve his every injury.”).
We see no justification for the assertion of Judge
Walker and the Fourth Circuit that no injunction can be
fashioned that would diminish the plaintiffs’ injury.
See In re Trump, 928 F.3d 376-77; infra. Injunctive
relief could be fashioned along many different lines that
would adequately reduce the incentive for government
officials to patronize Trump establishments in the hope
of currying favor with the President. 12

For example, a court could bar the Trump establishments from
selling services to foreign and domestic governments during the President’s tenure in office, which would fully redress Plaintiffs’ injury.
A court could require the President to establish a blind trust or otherwise prevent him from receiving information about government
patronage of his establishments, which could indicate to government
officials that patronizing those establishments is no longer an effective way to earn Presidential favor. A court could require public disclosure of the President’s private business dealings with government
officials through the Trump establishments, which may discourage
12

34a
4. Relevance of the Purpose of the Emoluments Clauses
Judge Walker also concludes that the “Emoluments
Clauses . . . were never designed to, and nor do
they, directly regulate the marketplace or the market
player as it functions in the marketplace,” and draws the
inference that a plaintiff who seeks to enjoin a violation
of the Emoluments Clauses cannot establish standing to
sue if that plaintiff ’s injury is competitive in nature.
See infra.
This appears to confuse the question
whether the Complaint sufficiently states a cause of action with the question of Article III standing. In Lexmark Intern., Inc. v. Static Control Components, Inc.,
572 U.S. 118, 125-28 (2014), Justice Scalia’s majority
opinion clarified that the question “whether [a plaintiff]
has a cause of action” is separate and distinct from the
issue of whether the case “presents a case or controversy that is properly within federal courts’ Article III
jurisdiction.” Neither this court, nor the Supreme
Court (nor any other) has ruled that a competitive
injury‐in‐fact, fairly traceable to the challenged action
and likely redressable by the requested relief, fails to
confer Article III standing unless the claims are based
on a law specifically designed to regulate competition.
Consideration of the purposes of the clauses may be relevant to whether the Complaint states an actionable
claim, or whether a particular plaintiff is within the law’s
“zone of interests,” see infra, but are not relevant to
whether the Plaintiffs have met the three elements that
Presidential action that appears to improperly reward such patronage. Cf. Buckley v. Valeo, 424 U.S. 1, 67 (1976) (noting the tendency
of disclosure requirements to “avoid the appearance of corruption by
exposing [information] to the light of publicity”).

35a
form the “irreducible constitutional minimum of standing.” Lujan, 504 U.S. at 560.
We therefore conclude that Plaintiffs have satisfied
the Article III requirements of traceability and redressability.
ii.

Zone of Interests

The district court also erred in dismissing the Complaint on the theory that Plaintiffs’ injuries fall outside
the “zone of interests” of the Emoluments Clauses.
This is for two reasons. First, the zone of interests test
does not, as the district court believed, implicate the
court’s subject matter jurisdiction. Further, the Supreme Court’s precedents make clear that Plaintiffs’ injuries are not outside the zone of interests of the Emoluments Clauses.
Turning first to the question whether zone of interests is a test of Article III standing, the Supreme Court
has recently clarified that it is not. In Lexmark Int’l
Inc. v. Static Control Components, the Supreme Court,
while acknowledging that past decisions had characterized the zone of interests test as part of a “ ‘prudential’
branch of standing,” reconsidered the question and clarified both that the “prudential” label is a misnomer and
that the test does not implicate Article III standing.
572 U.S. 118, 126-27 (2014). Rather, the Court explained that the test asks whether the plaintiff “has a
cause of action under the [law]” on the basis of the facts
alleged. Id. at 128. The Court emphasized that the
test is not “jurisdictional” because “the absence of a
valid . . . cause of action does not implicate subject‐
matter jurisdiction.” Id. at 128 n.4 (internal quotation
marks omitted). In Bank of America v. City of Miami,

36a
137 S. Ct. 1296 (2017), the Court reaffirmed that the
zone of interests test asks whether the complaint states
an actionable claim under a statute (and not whether the
plaintiff has standing and the court has subject matter
jurisdiction). The City of Miami majority reiterated
that the Article III standing requirements are injury,
causation, and redressability, and reinforced Lexmark’s
essential point that the zone of interests question is
“whether the statute grants the plaintiff the cause of action that he asserts.” Id. at 1302.
Accordingly, while it had previously been appropriate to consider whether plaintiffs fall within the zone of
interests in deciding whether a plaintiff has standing
and the court has subject matter jurisdiction, the Supreme Court has unambiguously rejected that approach. The district court thus misconstrued the nature of the zone of interests doctrine.
The district court’s analysis erred on the merits as
well. Every Supreme Court decision construing the
zone of interests test as it pertains to competitors’ suits
supports the view that Plaintiffs satisfy the zone of interests test. Without exception, the Court has held
that a plaintiff who sues to enforce a law that limits the
activity of a competitor satisfies the zone of interests
test even though the limiting law was not motivated by
an intention to protect entities such as plaintiffs from
competition. See Nat’l Credit Union Admin. v. First
Nat. Bank & Tr. Co., 522 U.S. 479, 495-96 (1998)
(NCUA) (“[Defendants argue] that there is no evidence
that Congress . . . was at all concerned with the
competitive interests of commercial banks [such as
plaintiffs], or indeed at all concerned with competition.
. . . The difficulty with this argument is that similar

37a
arguments were made unsuccessfully in [every case construing the zone of interests of a statute vis‐à‐vis a plaintiff competitor].”). After Lexmark, consistent with the
longstanding view that the test is “not meant to be especially demanding,” Clarke v. Sec. Indus. Ass’n, 479 U.S.
388, 399 (1987), the Court reaffirmed that plaintiffs who
allege secondary economic injuries due to conduct that
violates a limiting law can satisfy the zone of interests
test, notwithstanding that the statute violated was not
intended to protect against the type of injury suffered
by the plaintiffs. City of Miami, 137 S. Ct. at 1304-05
(finding that a municipality fell within the zone of interests of the Fair Housing Act where it alleges an injury
due to discriminatory lending causing an increase in
foreclosures, which allegedly cause decreased tax revenues and increased expenditures to remedy blight).
The line of cases supporting Plaintiffs’ satisfaction of
the zone of interests test stretches back to Ass’n of Data
Processing Orgs., Inc. v. Camp, 397 U.S. 150 (1970)
(Data Processing).
In Data Processing, plaintiffs
were sellers of data‐processing services. Id. at 151.
They sued to set aside a ruling of the Comptroller of the
Currency, which allowed national banks to offer dataprocessing services to other banks and bank customers.
Id. The complaint, alleging a violation of the Administrative Procedure Act, asserted that the Comptroller’s
rule inflicted a competitive injury on the plaintiffs by allowing banks to exceed the “legitimate scope of [bank]
activities,” as dictated by the National Bank Act and § 4
of the Bank Service Corporation Act. Id. at 157; see
also id. at 155 (“No bank service corporation may engage in any activity other than the performance of bank
services for banks.”). The Court did not even consider
whether the purpose of the statutory restriction was to

38a
protect competitors. Despite noting that the statutes
did not “in terms protect a specified group” from competition, the Court found the zone of interests test satisfied because “§ 4 arguably brings a competitor within
the zone of interests protected by it.” Id. at 156-57.
The Court reasoned that the “general policy [of the statute]” of limiting banks’ activities “is apparent” and permitted the claim to proceed because plaintiffs’ “[financial] interests are directly affected by a broad or narrow
interpretation of the Acts.” Id. at 157. The Court
concluded that plaintiffs were within the zone of interests because a party alleging a financial injury is a “reliable private attorney general to litigate the issues of
the public interest. . . . ” Id. at 154; see also Arnold Tours, Inc. v. Camp, 400 U.S. 45, 46 (1971) (clarifying that “Data Processing . . . did not rely on any
legislative history showing that Congress desired to
protect data processors” and finding plaintiff travel
agencies who competed with banks are “arguably . . .
within the zone of interests” of a limiting law despite the
fact that Congress had not contemplated protecting
their competitive interests) (internal quotation marks
omitted).
The Court’s next major zone of interests case, Investment Company Institute v. Camp, 401 U.S. 617 (1971)
(ICI), is especially pertinent because the purpose of the
statute involved there was similar in relevant respects
to that of the Emoluments Clauses. The plaintiffs were
investment companies that sought to enjoin a regulation
promulgated by the Comptroller of the Currency which
permitted banks to operate mutual funds. Id. at 61819. Plaintiffs argued that the ruling violated § 21 of the
Glass‐Steagall Act, which made it unlawful “[f ]or any
person, firm, [or] corporation . . . engaged in the

39a
business of issuing . . . securities, to engage at the
same time to any extent whatever in the business of receiving deposits.” 12 U.S.C. § 378(a). Discussing the
purpose of Glass‐Steagall, the Court concluded that
“Congress [] had in mind . . . [the] hazards that
arise when a commercial bank goes beyond the business
of acting as fiduciary or managing agent and enters the
investment banking business . . . by establishing an
affiliate to hold and sell particular investments.” ICI,
401 U.S. at 630 (emphasis added). The Court found
that Congress’s purpose in enacting § 21 was to prevent
corruption of the banking function and impairment of
the ability of banks to function impartially. Id. at 63034; cf. CREW, 276 F. Supp. 3d at 187 (describing the purpose of the Emoluments Clauses as protecting uncorrupted, impartial, and independent governance). Notwithstanding that the intention of § 21 was to protect
systemic integrity and was not even arguably intended
to benefit competitors, the Court nonetheless found that
the investment company plaintiffs were within its zone
of interests. ICI, 401 U.S. at 621 (“There can be no real
question . . . of the [plaintiff investment companies’] standing in the light of the Data Processing
case.”). The dissent argued that plaintiffs fell outside
the zone of interests because “the Glass-Steagall Act
[did not] evidence any congressional concern for . . .
freedom from competition.” Id. at 640 (Harlan, J., dissenting) (emphasis added). The majority of the Court
rejected that argument without discussion. See also
Clarke, 479 U.S. at 399-400 (1987) (“[T]here need be no
indication of congressional purpose to benefit the
would‐be plaintiff.”) (emphasis added).

40a
NCUA also recognized competitor injury as within
the zone of interests of the law that was allegedly violated, notwithstanding that the law was not intended to
protect the plaintiffs in their competitor role. 522 U.S.
479. The plaintiffs were banks that challenged a revision in the interpretation of § 109 of the Federal Credit
Union Act (“FCUA”) by its administering agency, the
National Credit Union Administration (“NCUA”). Id.
at 483. Section 109 restricted federal credit union membership to “groups” that had a “common bond of occupation or association.” 12 U.S.C. § 1759(b). The revision that the plaintiffs challenged extended membership
eligibility to groups that lacked a single common bond
between all members, if the credit union comprised multiple distinct employer sub‐groups within which all members had a common bond. NCUA, 522 U.S. at 484.
The plaintiffs contended that the NCUA’s revised interpretation was contrary to the requirements of the Act.
Id. at 483. The defendants sought dismissal of the suit
on the ground that the competitive injury alleged by the
plaintiff banks was outside the zone of interests sought
to be protected by Congress in enacting the FCUA.
The Supreme Court rejected defendants’ argument, explaining that “[a]s competitors of federal credit unions,
[the plaintiff banks] certainly have an interest in limiting the markets that federal credit unions can serve, and
the NCUA’s interpretation has affected that interest by
allowing federal credit unions to increase their customer
base.” Id. at 493-94. In response to defendants’ argument that the plaintiffs’ injuries were outside the
FCUA’s zone of interests because “banks were simply
not in the picture” when the relevant statute was
drafted, the Court dismissed it as “irrelevant.” Id. at
496, 499.

41a
As stated above, the Supreme Court recently reaffirmed substantially the same position post‐Lexmark.
In City of Miami, the Court found that a plaintiff alleging an economic injury due to allegedly unlawful conduct
was within the zone of interests of the law that regulated
the conduct in question. 137 S. Ct. at 1304-05. The
City had brought an action against housing lenders, alleging they had violated the Fair Housing Act (“FHA”)
by issuing risky mortgages on unfavorable terms to minority customers. Id. at 1301. The City claimed to
have suffered economic injury from lost tax revenue and
increased municipal expenses due to higher incidence of
mortgage foreclosure and increased demand for services to remedy the resulting urban blight. Id. at 1302.
The district court had dismissed the suit under Rule
12(b)(6) for failure to state a claim on the ground that
“the harms alleged, being economic and not discriminatory, fell outside the zone of interests the FHA protects.” Id. The Supreme Court rejected that position. It ruled that the City’s “financial injuries fall
within the zone of interests that the FHA protects.”
Id. at 1304. The Supreme Court reasoned that, notwithstanding the absence of any indication that the FHA
was intended to protect municipal budgets, it was
“highly relevant” that the lenders’ conduct allegedly “diminish[ed] the City’s property‐tax revenue and increas[ed] demand for municipal services.” Id. Thus,
consistent with the longstanding view that a plaintiff ’s
economic injury usually makes her a “reliable private attorney general to litigate the issues of the public interest,” Data Processing, 397 U.S. at 154, the Supreme
Court found the City’s economic injuries to be within the
zone of interests of the FHA. See also Bennett, 520
U.S. at 161 (finding that plaintiff ranchers who asserted

42a
an economic injury from a new water management plan
adopted by the Secretary of the Interior fell within the
zone of interests of the Endangered Species Act “notwithstanding that the interests they seek to vindicate
are economic rather than environmental”) (emphasis
added); Mova Pharm. Corp. v. Shalala, 140 F.3d 1060,
1075 (D.C. Cir. 1998) (“[The zone of interests] analysis
focuses . . . on those who in practice can be expected
to police the interests that the [law] protects.”) (emphasis added).
While most cases addressing whether the plaintiff ’s
injury is outside the zone of interests of the law alleged
to be violated have concerned the zone of interests of a
statute, and this suit alleges violations of the Constitution, we can see no reason why the reasoning of the precedents reviewed above are not equally applicable here.
The one instance in which the Supreme Court has ruled
on an argument resembling a zone of interests challenge
to a Constitutional provision is consistent with the above
precedents and suggests that our Plaintiffs satisfy the
test. In Wyoming v. Oklahoma, 502 U.S. 437 (1992),
Wyoming brought suit against Oklahoma within the
original jurisdiction of the Supreme Court, alleging that
Oklahoma violated the Dormant Commerce Clause by
passing a statute requiring that 10% of the coal used by
coal‐fired Oklahoma producers of electric power be
mined in Oklahoma. Wyoming did not mine or sell
coal. Id. at 442. The only injury Wyoming claimed as
a result of the Oklahoma statue was a diminution in its
tax revenues because Wyoming coal producers, which
paid taxes to Wyoming, suffered diminution in the volume of coal they sold to Oklahoma producers of electric
power. Id. at 447-48. Oklahoma sought to have the
case dismissed on the ground that the tax loss alleged

43a
by Wyoming was too remote from the Dormant Commerce Clause’s purposes as well as too insignificant.
See id. at 448, 455. The Court rejected Oklahoma’s arguments and granted summary judgment in favor of
Wyoming. Id. at 461.
The Supreme Court ruled that Wyoming’s loss of tax
revenue caused by Oklahoma’s alleged violation of the
Dormant Commerce Clause was a proper basis for Wyoming’s suit, notwithstanding that its loss of tax revenue
was remote from the purposes of the Dormant Commerce Clause. See id. at 448-50. The majority did not
explicitly discuss the zone of interests test, but in upholding Wyoming’s standing, it rejected the argument
in Justice Scalia’s dissent that Wyoming fell outside the
zone of interests. 13 To the extent it considered whether
the alleged injury was too remote from the activity proscribed by the Dormant Commerce Clause, it did so as
part of its analysis of the injury and causation requirements of Article III. Id. at 448-49 (concluding that the
alleged diminution in revenues was “directly linked” to
the allegedly unlawful tax); see also Bond v. United
States, 564 U.S. 211, 218 (2011) (explaining, in holding
that an individual prosecuted under federal law has
Puzzlingly, the district court cited a passage from Justice Scalia’s
dissenting opinion in Wyoming seemingly as though it were the
holding of the case and without recognizing that the Court’s majority opinion implicitly rejected Justice Scalia’s argument. Justice
Scalia wrote in his dissent that the test is “more strictly applied
when a plaintiff is proceeding under a constitutional . . . provision instead of the generous review provisions of the APA.” Wyoming, 502 U.S. at 469 (Scalia, J., dissenting) (emphasis in original). The majority did not explicitly discuss this argument, but in upholding Wyoming’s standing, it evidently rejected Justice Scalia’s
contention.
13

44a
standing to bring a Tenth Amendment claim, that “[i]f
. . . the person alleging injury is remote from the zone
of interests a [law] protects, whether there is a legal injury at all and whether the particular litigant is one who
may assert it can involve similar inquiries”); INS v.
Chadha, 462 U.S. 919, 935-36 (1983) (holding that individual may challenge a “legislative veto” on separation‐
of‐powers grounds).
Thus, while the district court may be correct that
“[n]othing in the text or history of the Emoluments
Clauses suggests that the Framers intended these provisions to protect anyone from competition[,]” CREW,
276 F. Supp. 3d at 187, these precedents make clear that
the zone of interests test does not require the plaintiff
to be an intended beneficiary of the law in question.
Plaintiffs who are injured by the defendant’s alleged violation of a limiting law may sue to enforce the limitation
under the longstanding zone of interests test the Court
has articulated.
iii. “Prudential Considerations”—Political Question
and Ripeness
Plaintiffs also challenge the district court’s dismissal
of their Foreign Emoluments Clause claim on two further grounds: (i) that it presents a non-justiciable political question, and (ii) that the issues it raises are
not ripe for adjudication. The district court described
these as “prudential reasons” for dismissing the claim.
CREW, 276 F. Supp. 3d at 193-95. These grounds were
not argued by the President in his motion to dismiss, and

45a
the Department of Justice, acting as counsel to the President, does not defend them in this appeal. 14 We do not
find the district court’s reasoning persuasive.
For both rulings, the district court relied on the fact
that the Foreign Emoluments Clause bars the receipt of
emoluments “without the Consent of Congress[.]”
U.S. Const, art. I, § 9, cl. 8. For its non‐justiciability
ruling, the court reasoned that, as Congress is “the only
political branch with the power to consent to violations
of the Foreign Emoluments Clause, Congress is the appropriate body to determine whether, and to what extent, [the President’s] conduct unlawfully infringes on
that power.” CREW, 276 F. Supp. 3d at 193. According to the district court’s reasoning, the courts can never
adjudicate whether the Clause has been violated because a suit alleging such a violation will always present
a non‐justiciable political question. We respectfully
disagree and find Plaintiffs’ arguments in rebuttal more
persuasive.
The prohibition stated in the constitutional text renders the President’s receipt of “emoluments” unlawful,
unless Congress consents to it. In the undisputed absence of Congressional consent, the President has violated this provision of the Constitution, if, as charged by
the Complaint, he has accepted what the Constitution
describes as “emoluments.” The federal courts have
the responsibility to resolve “Cases and Controversies”
arising under the Constitution and laws of the United
Notwithstanding that the President neither sought nor defends
these aspects of the district court’s ruling, we discuss them because
of the obligation of federal courts to consider whether they have subject matter jurisdiction to adjudicate a dispute. Thompson v. County
of Franklin, 15 F.3d 245, 248 (2d Cir. 1994).
14

46a
States. That responsibility entails finding the facts
and interpreting the Constitution and laws. It is not
affected by the Constitution’s grant of authority to Congress to authorize the President to receive emoluments
where Congress has not exercised that authority. The
mere possibility that Congress might grant consent
does not render the dispute non‐justiciable. The district court’s reasoning treated the Clause’s authorization to Congress as if it said, “Congress alone shall have
the authority to determine whether the President acts
in violation of this Clause.” It says nothing like that.
Furthermore, while challenges to complaints alleging
the unconstitutionality of conduct that the Constitution
gives Congress the power to authorize are relatively infrequent, they are not unprecedented. When such
challenges have arisen, the federal courts, including the
Supreme Court, have adjudicated them. See, e.g., C&A
Carbone, Inc. v. Town of Clarkstown, N.Y., 511 U.S. 383
(1994) (Dormant Commerce Clause); Cuyler v. Adams,
449 U.S. 433 (1981) (Compact Clause).
The district court also concluded that the dispute was
not ripe for review. It reached that conclusion in reliance on the prospect of future Congressional action and
on the reasoning of Justice Powell’s concurrence in the
Supreme Court’s order of dismissal in Goldwater v.
Carter, 444 U.S. 996 (1979).
Goldwater was a dispute over the Constitution’s
allocation of governmental power between two of the
branches of our federal government. President Carter, in the exercise of his constitutional authority to conduct the foreign relations of the United States, and coincident with his recognition of the People’s Republic of
China as the “sole government of China,” announced an

47a
intention to abrogate a mutual defense treaty made in a
previous administration with the Taiwanese government of the “Republic of China.” Goldwater v. Carter,
617 F.2d 697, 700-01 (D.C. Cir. 1979), vacated by 444
U.S. 996. The Constitution empowers the President to
make treaties and requires Senatorial consent before
the treaties become effective; however, it says nothing
about whether Senatorial consent is required to abrogate a treaty. Individual Members of Congress, who
disagreed with President Carter’s decision to abrogate
the treaty, brought suit for declaratory and injunctive
relief, contending that the President lacked authority to
abrogate the treaty unilaterally without congressional
consent.
Four Justices, through Justice Rehnquist’s concurrence accompanying an order granting certiorari, vacating the judgment below, and remanding, voted to dismiss the suit on the ground that it raised a non‐justiciable
political question. Goldwater, 444 U.S. at 1002 (Rehnquist, J., concurring). Justice Rehnquist explained his
view that the suit was non‐justiciable “because it involves the authority of the President in the conduct of
our country’s foreign relations and the extent to which
the Senate or the Congress is authorized to negate the
action of the President.” Id.
The main thrust of Justice Powell’s concurrence was
to disagree with Justice Rehnquist’s conclusion that
such a dispute over the Constitution’s allocation of governmental power is nonjusticiable. Id. at 996 (Powell,
J., concurring). Justice Powell pointed to the need for
a Supreme Court decision to break an otherwise paralyzing governmental stalemate.
Id. Nonetheless,
Justice Powell agreed with the decision to dismiss the

48a
action—not because it was nonjusticiable, but rather
because it was unripe, as the disputing branches had not
yet reached the “impasse” that would justify their resorting to the courts to interpret the Constitution and
break the stalemate. He emphasized the importance of
not “encourag[ing] small groups or even individual
Members of Congress to seek judicial resolution of issues before the normal political process has the opportunity to resolve the conflict.” Id.
The differences between this case and Goldwater are
such that Goldwater does not provide useful guidance
for resolving this dispute. The Goldwater litigation
arose from a dispute over the allocation of Constitutional powers to two competing branches of government.
The Congressional plaintiffs took the position that, by
unilaterally abrogating a treaty, which had become effective by virtue of the Senate’s exercise of consent, the
President was acting illegally and in so doing, was undermining the Constitutional authority of the Senate.
This interbranch clash in claims of governmental authority seemed to Justice Powell to offer a likelihood of
ripening into either a political resolution or a need for
adjudication to break a governmental impasse. The
circumstances of this case are very different. There is
no interbranch clash in claims of Constitutional authority in this case. 15 The Presidential conduct that is challenged by this suit is the President’s private conduct.
There is no claim on the part of the Congress, or any of
its members, that the President’s private conduct of his
Members of Congress have brought a separate action against
President Trump, alleging violations of the Foreign Emoluments
Clause, which is currently pending. Blumenthal v. Trump, 382
F. Supp. 3d 77 (D.D.C. 2019).
15

49a
business affairs usurps power allocated to Congress by
the Constitution. While the Constitution empowers
Congress to legitimize a President’s otherwise unlawful
conduct, the President’s conduct absent Congressional
authorization does not usurp or challenge a Congressional prerogative. In fact, it is not members of Congress who are complaining. In this circumstance, in
which Congress’s defense of its Constitutional power is
not at issue, there is no reason to expect or await either
the impasse or the political resolution that Justice Powell saw as the justification for waiting in Goldwater. If
the challenged conduct falls within what the Constitution describes as the receipt of “emoluments,” the conduct is prohibited by the Constitution in the absence of
congressional consent—and unlike in Goldwater, it is
likely simply to continue to occur without a court ruling.
This would not be as the result of a “political resolution,”
but simply because of the absence of an adjudicator to
tell the President whether his conduct is, or is not, permitted by the Constitution he serves.
We therefore think the district court misconstrued
Justice Powell’s Goldwater concurrence in believing
that it provided “particularly instructive” guidelines for
the resolution of this case. CREW, 276 F. Supp. 3d at
194. Justice Powell’s reasoning does not justify deferring adjudication to await a ripening that will not happen.
C.

CONCLUSION

For the foregoing reasons, the judgment of the district court is VACATED and the case is REMANDED
for further proceedings consistent with this opinion.

50a
JOHN M. WALKER, JR., Circuit Judge, dissenting:
I would affirm the district court. The remaining
plaintiffs in this case have failed to specify that any actual injury was caused by the President’s alleged violation of the Emoluments Clauses, or how this Court could
redress such an injury. None of this matters, they say,
because the competitor standing doctrine allows us to
ignore these pleading failures and to find standing anyway. I disagree and would hold that the complaint fails
to sufficiently allege Article III standing.
Invoking constitutional provisions never directly litigated in the 230‐year history of our Republic prior to the
Trump presidency, the plaintiffs in this case claim that
the President has inflicted competitive injury on their
businesses by maintaining ownership over the Trump
Organization’s high‐end hotels and restaurants and accepting the business of foreign and state official clientele in contravention of both the Foreign Emoluments
Clause 1 and the Domestic Emoluments Clause. 2 The
plaintiffs, who are owners of other high‐end hotels and
restaurants in New York City and Washington, D.C., 3

“No Title of Nobility shall be granted by the United States:
And no Person holding any Office of Profit or Trust under them,
shall, without the Consent of the Congress, accept of any present,
Emolument, Office, or Title, of any kind whatever, from any King,
Prince, or foreign State.” U.S. Const. art. 1, § 9, cl. 8.
2
“The President shall, at stated Times, receive for his Services, a
Compensation, which shall neither be encreased nor diminished during the Period for which he shall have been elected, and he shall not
receive within that Period any other Emolument from the United
States, or any of them.” U.S. Const. art. II, § 1, cl. 7.
3
Only two plaintiffs remain in the appeal: Eric Goode and ROC
United. Goode is the owner of “several celebrated hotels, restau1

51a
allege that their businesses have suffered because foreign and state government officials want what only the
Trump-owned establishments can offer: “access to, influence on, and the good will of the President of the
United States.” 4
As this case comes to us now, it is about constitutional
standing, not the precise meaning of the Emoluments
Clauses. The meaning of the Clauses may be addressed
elsewhere in due course, but even in their unresolved
state, a few (largely uncontroversial) observations about
the Clauses are in order. First, nothing in the plain
text of either Emoluments Clause addresses competition in the marketplace or the conduct of business competitors generally. And neither can the Clauses be
considered sweeping anti‐corruption provisions. Facially, the Foreign Emoluments Clause concerns only
rants, bars, and event spaces in New York,” which include the Maritime Hotel, the Bowery Hotel, the Ludlow Hotel, the Jane Hotel,
and the Park, Waverly Inn, and Gemma restaurants. Compl. ¶ 228.
ROC United is a nonprofit organization that advocates for wages and
working conditions for restaurant workers; it is made up of restaurant members and restaurant‐employee members. [A66] The complaint alleges that several of ROC United’s restaurant members
compete directly with the Trump International Hotel & Tower in
New York, the Trump International Hotel Washington, D.C., and
the restaurants inside the Trump Tower and Trump World Tower
located in New York City. [A67] A declaration from an industry
expert submitted by the plaintiffs names several restaurants associated with ROC United that compete directly with Trump‐owned
properties. In New York City, these establishments include: The
Modern, Gramercy Tavern, Craft, and Riverpark. [A312-15] In
Washington, D.C., the ROC United competitor restaurants are:
the Riggsby, Minibar, Jaleo, Casolare Ristorante, and Zaytinya.
[A319-22]
4

Compl. ¶ 150.

52a
the receipt of “emoluments” from foreign governments
or their officials by those “holding any Office of Profit or
Trust” on behalf of the United States and the Domestic
Emoluments Clause only prohibits the President from
receiving “emoluments” beyond the salary of the office
from “the United States, or any or them.” Neither
Clause addresses the receipt of benefits (whether or not
they are “emoluments”) by the President from members
of the public, private businesses, or private parties who
seek government favors. 5 Thus neither competition
nor ordinary corruption are targeted by the Clauses or
lie anywhere near the heart of this case.
What is meant by the term “emolument” in the Emoluments Clauses has yet to be determined by any federal
court. Regardless of whether the Emoluments Clauses
encompass, as the plaintiffs have urged, anything of
value, 6 or whether the Clauses capture a narrower range
of exchanges, 7 the text and historical meaning plainly
See U.S. Const. art. I, § 9, cl. 8; art. II, § 1, cl. 7.
See Appellants’ Br. at 6-7; see also Norman L. Eisen, Richard
Painter & Laurence H. Tribe, Brookings, The Emoluments Clause:
Its Text, Meaning, and Application to Donald J. Trump 11 (Dec. 16,
2016),
https://www.brookings.edu/wp-content/uploads/2016/12/gs_
121616_emoluments‐clause1.pdf (arguing that the Emoluments
Clause warrants the “broadest possible construction to the payments
it
encompasses” and thus “unquestionably reaches any situation in
which a federal officeholder receives money, items of value, or services from a foreign state”); Zephyr Teachout, Opinion, Trump’s
Foreign Business Ties May Violate the Constitution, N.Y. Times,
Nov. 17, 2016, https://www.nytimes.com/roomfordebate/2016/11/17/
would‐trumps‐foreign‐business‐ties‐be‐constitutional/trumps‐foreign‐
business‐ties‐may‐violate‐the‐constitution.
7
See Amandeep S. Grewel, The Foreign Emoluments Clause and
the Chief Executive, 102 Minn. L. Rev. 639, 641-42 (2017) (arguing
5
6

53a
do not evidence concern for protecting fair competition
in the marketplace.
Of course, none of these observations foreclose the
possibility (however slim) that parties may pursue a private right of action (should such a right be recognized)
to remedy commercial harms wrought by violations of
the Emoluments Clauses or exclude the prospect that
the Clauses as applied to a particular case could somehow affect market competition. Neither clause on its
face, however, gives any indication that it is concerned
with maintaining competition, or that it protects a right
enforceable in the manner the plaintiffs have chosen to
pursue.
Finally, this case is deeply political and thus finds itself in an area where federal courts ought to tread
lightly. President Trump was democratically elected
by the American people—and he was elected with his
business holdings and brand prominence in full view.
What’s more, it is evident from the text of the Emoluments Clauses that they pertain to questions of separation of powers and, in particular, the relationship between the President and the Congress. Whether the
courts should properly play any role pertaining to that
that the Foreign Emoluments Clause covers only “office‐related
compensation”); see also Robert G. Natelson, The Original Meaning
of “Emoluments” in the Constitution, 52 Ga. L. Rev. 1 (2017) (arguing that “emolument[s] in the Constitution meant compensation
with financial value, received by reason of public office”); Eugene
Kontorovich, Opinion, Did George Washington Take ‘Emoluments’?, Wall St. J., Apr. 17, 2017, http://www.wsj.com/articles/did‐
george‐washington‐take‐emoluments‐1492123033 (arguing that
George’s Washington’s private business dealings while in office cast
doubt on whether President Trump’s business holdings violate the
Foreign Emoluments Clause).

54a
relationship in the context of the Clauses will have to be
determined in the future.
I.
Whatever the resolution of these various background
questions, only one issue is before us now: have the
plaintiffs sufficiently alleged constitutional standing to
challenge the President’s alleged violations of the Emoluments Clauses? The tripartite test for standing under Article III is well known: “an injury must be concrete, particularized, and actual or imminent; fairly
traceable to the challenged action; and redressable by a
favorable ruling.” 8 A plaintiff ’s obligation to meet this
test is an immovable feature of our constitutional structure; constitutional standing is a “bedrock requirement”
and “an irreducible minimum” without which there is no
case or controversy under Article III of the Constitution. 9 And, the standing inquiry is “especially rigorous” when the dispute implicates, as it does here, the
separation of powers. 10
The plaintiffs, as the party invoking federal jurisdiction, bear the burden of establishing constitutional

Clapper v. Amnesty Int’l USA, 568 U.S. 398, 409 (2013) (internal
quotation marks omitted) (citing Lujan v. Defenders of Wildlife, 504
U.S. 555, 560-61 (1992)).
9
Valley Forge Christian Coll. v. Americans United for Separation of Church and State, Inc., 454 U.S. 464, 471, 472 (1982); see also
Summers v. Earth Island Inst., 555 U.S. 488, 492-93 (2009) (articulating that Article III’s “Cases” and “Controversies” requirement is
a “fundamental limitation” and is “founded in concern about the
proper—and properly limited—role of courts in a democratic society” (internal quotation marks and citations omitted)).
10
Clapper, 568 U.S. at 408 (internal quotation marks omitted).
8

55a
standing. 11 At the pleading stage, “the plaintiff must
‘clearly . . . allege facts demonstrating’ each element.” 12 The “reviewing court[] must accept as true all
material allegations of the complaint, and must construe
the complaint in favor of the complaining party.” 13
Here the pleadings do not particularize any direct injury actually caused by violations of the Emoluments
Clauses, much less how such injury might actually be redressed by the courts. Rather, the plaintiffs (and the
majority) rely entirely on a shortcut known as the competitor standing doctrine. This doctrine allows a competitor plaintiff the presumption of injury in fact, traceability, and redressability when the plaintiff is almost
sure to suffer a competitive injury as a matter of “economic logic.” 14
The question of whether the competitor standing doctrine finds any traction in private suits brought under
the Emoluments Clauses was recently addressed in In
re Donald J. Trump by the Fourth Circuit, the first circuit to do so.15 In that case, the District of Columbia
and the State of Maryland sued the President alleging
that he violated the Emoluments Clauses and that,
among other injuries, those violations harmed their proprietary interests as businesses competing with the

Spokeo, Inc. v. Robbins, 136 S. Ct. 1540, 1547 (2016).
Id. (quoting Warth v. Seldin, 422 U.S. 490, 518 (1975)).
13
Warth, 422 U.S. at 501.
14
Canadian Lumber Trade All. v. United States, 517 F.3d 1319,
1332 (Fed. Cir. 2008).
15
In re Donald J. Trump, 928 F.3d 360, 363, 366 (4th Cir. 2019).
11
12

56a
Trump Organization. 16 The Fourth Circuit held, correctly in my view, that the plaintiffs could not invoke the
competitor standing doctrine to achieve Article III
standing. 17
Injury in fact. The competitor standing doctrine
“relies on economic logic to conclude that a plaintiff will
likely suffer an injury-in‐fact when the government acts
in a way that increases competition or aids the plaintiff ’s
competitors.” 18 The doctrine allows plaintiffs to proceed if the economically logical cause and effect between
a government action and increased competition is strong
enough to support an inference of injury in fact to the
competitor, “even though empirical analysis might conceivably have provided a higher level of certainty.” 19
Of course, this doctrinal exception does not excuse the
plaintiff from satisfying all three Article III standing requirements; all it does is exempt the plaintiff from showing an actual or imminent injury when the alleged harm
arises in a market context where the actual injury may
be difficult to demonstrate but is almost sure to occur. 20
It bears repeating that the plaintiffs here rely on the
competitor standing doctrine because they cannot show
(and have not alleged) that they have suffered any particularized injury caused by the violations they allege.

Id. at 363.
Id. at 377.
18
Canadian Lumber, 517 F.3d at 1332 (citing Clinton v. City of
New York, 524 U.S. 417, 433 (1998)).
19
Canadian Lumber, 517 F.3d at 1333.
20
See, e.g., El Paso Nat. Gas Co. v. F.E.R.C, 50 F.3d 23, 27 (D.C.
Cir. 1995); TrafficSchool.com, Inc. v. Edriver Inc., 653 F.3d 820, 82526 (9th Cir. 2011).
16
17

57a
Well‐established precedent gives a competitor standing plaintiff latitude to allege competitive injury, but the
competitive injury pleading exception, based as it is on
economic logic, cannot be universally applied to every
competitor. “[T]o establish an injury as a competitor a
plaintiff must show that he personally competes in the
same arena with the party to whom the government has
bestowed the assertedly illegal benefit.” 21 Other courts
have correctly indicated that the plaintiff must be a “direct competitor[].” 22 The plaintiff must also show “an
actual or imminent increase in competition, which increase [the court] recognize[s] will almost certainly
cause an injury in fact.” 23
Taken in isolation, the phrase from Second Circuit
precedent—injury is shown if the plaintiff “competes in
the same arena” 24—can be read to suggest that a minimal allegation of direct competition is sufficient. In
light of this seemingly low injury‐in‐fact bar, the majority opinion maintains that the plaintiffs have met this
standard. 25 I agree with the majority that our prior

In re U.S. Catholic Conference (USCC), 885 F.2d 1020, 1029 (2d
Cir. 1989); [JON (diss.), ALK, RJC] see also Ctr. for Reproductive Law
& Policy v. Bush, 304 F.3d 183, 197 (2d Cir. 2002). [JMcL, PNL, SS]
22
TrafficSchool, 653 F.3d at 826; see also Adams v. Watson, 10
F.3d 915, 922 (1st Cir. 1993) (noting that the Supreme Court’s competitor standing cases “are all premised on a plaintiff ’s status as a
direct competitor” (emphasis in original)).
23
Sherley v. Sebelius, 610 F.3d 69, 73 (D.C. Cir. 2010); see also Inv.
Co. Inst. v. F.D.I.C., 815 F.2d 1540, 1543 (D.C. Cir. 1987) (competitor
standing satisfied when increased competition “ ‘plainly threatens’
economic injury”).
24
USCC, 885 F.2d at 1029.
25
See Maj. Op. 18.
21

58a
cases are capable of this broad reading, but after the Supreme Court’s decision in Already, LLC v. Nike, Inc., 26
and upon close examination of the kinds of cases that
have applied the competitor standing doctrine, it is more
than evident to me that the doctrine does not, and should
not, reach this case.
In Already, the plaintiff, a shoe company, sought to
challenge one of Nike’s trademarks even after Nike issued a broad covenant promising not to pursue trademark claims against potentially infringing Already products and any future similar products manufactured by
Already. 27 The Court rejected the theory that Already
had standing to challenge the validity of Nike’s trademark simply because it was Nike’s competitor: “Taken
to its logical conclusion, the theory seems to be that a
market participant is injured for Article III purposes
whenever a competitor benefits from something allegedly unlawful—whether a trademark, the awarding of a
contract, a landlord‐tenant arrangement, or so on. We
have never accepted such a boundless theory of standing.” 28
Already’s theory of competitive injury was that the
continued existence of Nike’s allegedly unlawful mark,
notwithstanding Nike’s covenant with Already, deterred
investment in its company, thereby placing Already at a
competitive disadvantage. 29 Already argued that a large
company like Nike used its allegedly invalid trademark
568 U.S. 85 (2013).
Id. at 88-89.
28
Id. at 99.
29
Id. at 97-99; see also Br. for Petitioner, Already, LLC v. Nike,
Inc., 568 U.S. 85 (2013) (No. 11‐982), 2012 WL 3613367 at *33-34.
26
27

59a
to “bully small innovators” and that Nike’s broad covenant not to sue could not “eradicate” the market effect
of a “registered but invalid mark.” 30 Thus Already’s
theory of competitor standing did not turn on whether
Already planned to create a shoe to compete with a particular Nike shoe not covered by the covenant not to
sue, 31 but was instead a broader claim about competitive
injury. Already’s allegations of Nike’s intimidation
tactics, if true, would have had a negative competitive
impact on Already’s business. Nike’s allegedly unlawful conduct, in other words, would have placed Already
on an unlevel playing field.
In rejecting Already’s claim that this type of competitive injury was sufficient to establish Article III standing, the Supreme Court was quite clear that such a
“boundless theory” of competitor standing is unacceptable under Article III.32 Not every competitive injury—
even though a competitor’s allegedly unlawful actions
may in fact skew the competitive field to the plaintiff ’s
disadvantage—gives a competitor standing to challenge
that action.
The plaintiffs’ claim in this case is very much like the
competitor standing claim in Already. Already and
Nike were competitors (albeit mismatched in size) in the
athletic‐shoe market. 33 Already’s theory of competitive standing was that Nike’s allegedly invalid trademark deterred investment in Already and thus improperly chilled competition in that market. In this case,
30
31
32
33

Already, 568 U.S. at 99, 98.
See Maj. Op. 20-21.
Already, 568 U.S. at 99
Id. at 88.

60a
the plaintiffs claim similarly that the President’s alleged
constitutional violations are unlawfully skewing the
competitive environment to his advantage.
The majority distinguishes Already on the basis that
the plaintiffs here compete with the Trump‐owned properties for identical consumers. 34 But that is the wrong
inquiry, and in any case does not distinguish this case
from Already. Already and Nike competed for at least
some identical consumers, “in the same arena”; 35 otherwise, there would have been no competitor issue in the
case. Competitors, by definition, are always seeking to
attract buyers who want the same goods or services. It
is necessary rather to ask whether that competition is
such that the harm will likely occur, as a matter of economic logic, from the violation of law alleged. Here,
there is no logical connection between the President’s
alleged receipt of emoluments and the competitive success of the Trump‐owned businesses. With or without
the President’s receipt of “emoluments,” there are myriad reasons why a non‐Trump establishment would face
the same competition.
Moreover, it cannot be the case that, every time a
competitor achieves some benefit through allegedly unlawful conduct that has no direct relationship to competition, competing businesses have standing to challenge
that unlawful action simply by virtue of their status as a
direct competitor. 36 Any number of potential illegal actions by a business could cause its rivals to face stiffer
Maj. Op. 20-21.
USCC, 885 F.2d at 1029.
36
See In re Donald J. Trump, 928 F.3d at 377 (“At bottom, the
[plaintiffs’] are left to rest on the theory that so long as a plaintiff
34
35

61a
competition without giving rise to Article III standing.
Take the example of an owner of a high‐end restaurant
in a competitive marketplace who fraudulently applies
for and receives a bank loan from an FDIC‐insured
bank, or fraudulently applies for and receives a large tax
refund. The restaurant’s illegally obtained funds might
allow it to achieve a market benefit available to no other
competitor: the restaurant is able to hire a superior
chef and undercut competitors on menu pricing. As a
result, that restaurant’s law‐abiding competitors find
themselves facing increased competition. But do the
restaurant’s competitors have competitor standing to
hold the restaurant liable for its unlawful action simply
because they “compete[] in the same arena”? 37 As the
Supreme Court made clear in Already, the answer is no.
The economic logic necessary for competitor standing is
measured between the violation and the competitive
harm, and in the hiring of the chef that economic logic is
non‐existent. Such is the situation here. The mere
fact of competition is insufficient. Otherwise, courts
would have to entertain every claim by a competitor in
which the defendant received some unlawful benefit—a
benefit unrelated to competition—simply because that
benefit could have an effect on competition.
All of this leads me to question the expansive scope
of our circuit’s earlier precedent. To say that all a competitive injury requires is a showing that the plaintiff
“competes in the same arena” conflicts with Already’s
admonition that a market participant has not suffered
competes in the same market as a defendant and the defendant enjoys an unlawful advantage, the requirements for Article III standing are met.”).
37
USCC, 885 F.2d at 1029.

62a
constitutionally significant injury “whenever a competitor benefits from something allegedly unlawful.” 38 Our
formulation of this standing theory needs to be construed in light of the Supreme Court’s limitations in Already. At any rate, even if our precedents required us
to conclude that plaintiffs sufficiently alleged a competitive injury in fact, I have little doubt that they fail to
satisfy the remaining, indispensable Article III requirements of traceability and redressability.
Traceability. For there to be Article III standing,
the plaintiffs must plausibly allege that their injury is
“fairly traceable to the challenged action of the defendant.” 39 Under the competitor‐standing doctrine, courts
have typically found that traceability flows readily from
a competitive injury. 40 In these cases causation logically follows given the nature of the violation: if the violation would necessarily harm the plaintiff ’s competitive opportunities, then an unlawful edge to a competitor
logically connects to that violation. 41

Already, 568 U.S. at 99.
Lujan, 504 U.S. at 560 (emphasis added) (internal quotation
marks omitted).
40
See Int’l Bhd. of Teamsters v. U.S. Dep’t of Transp., 724 F.3d
206, 212 (D.C. Cir. 2013) (finding that causation and redressability
are “easily satisfied” in a competitor standing case); New World Radio, Inc. v. F.C.C., 294 F.3d 164, 172 (D.C. Cir. 2002) (noting that, in
“garden variety competitor standing cases” the “chain of causation”
is “firmly rooted in the basic law of economics” (internal quotation
marks omitted)).
41
See Sherley, 610 F.3d at 72 (competitive injury caused when
“agencies lift regulatory restriction on [the plaintiff ’s] competitors
or otherwise allow increased competition against them” (internal citation and quotation marks omitted)).
38
39

63a
But, again, this case is no ordinary competitor standing case. The Emoluments Clauses do not regulate
business or market activity as business or market activity, nor would their violation as a general matter be expected to affect competition. 42 Conventional competitor standing cases do not present difficult traceability
questions precisely because the allegedly unlawful action is directed at markets or market behavior, and thus
the connection between a market‐affecting action and a
market effect is tight. The Emoluments Clauses were
never intended to regulate market behavior, and thus
economic logic is absent.
The recognition that traffic increased at Trump‐owned
establishments following President Trump’s election is
not enough to show traceability. The plaintiffs must allege, beyond pure speculation, that the unlawful acceptance of emoluments from foreign and state government officials—not just the popularity of Trump‐owned
establishments for a myriad of reasons—is causing the
plaintiffs’ lost opportunity to compete on equal footing. 43
The plaintiffs have not plausibly alleged that the desire

See infra Part II.
In Schulz v. Williams, we held that traceability was satisfied as
long as the challenged action (a district court injunction, in that case)
“could have caused [the plaintiffs’] injury.” 44 F.3d 48, 53 (2d Cir.
1994). But the bar is not as low, see Maj. Op. at 24, as this isolated
language suggests. In Schulz, there was no speculation that the
district court’s injunction caused the plaintiffs’ alleged electoral injury because there was no other action to which the asserted injury
could have been traced. Schulz does not stand for the proposition
that any action that theoretically “could have” caused the plaintiffs’
injury will suffice. At this stage, the plaintiffs must allege a plausible causal route, not merely a possible one.
42
43

64a
to confer a relatively modest 44 financial benefit on the
President is the driving force behind increased competition. 45 And this must be plausibly alleged because it
stands to reason that diplomats who patronize high‐end
hotels and restaurants do not make their choices solely
based on profit distribution, but as people with wide‐
ranging tastes and varying interests. The plaintiffs’
and the President’s establishments exist in a virtual sea
of luxury hotels and restaurants 46 in which many different factors influence decision making and freely affect
The Trump Organization claims it donated approximately
$150,000 in profit from foreign‐government business to the U.S.
Treasury in 2016 and approximately $191,000 in 2017 to offset financial gains to the President. Rebecca Ballhaus, Trump Organization
Details Level of Profits from Foreign Governments, Wall St. J., Feb.
25, 2019, https://www.wsj.com/articles/trump‐organization‐details‐
level‐of‐profits-from‐foreign‐governments‐11551116974.
This is
an infinitesimal amount in relation to the President’s reported net
worth of $3 billion in 2019. Shahien Nasiripour & Caleb Melby,
Trump’s Net Worth Rises to $3 Billion Despite Business Setbacks,
Bloomberg, June 12, 2019, https://www.bloomberg.com/news/articles/
2019‐06‐12/trump‐s‐net‐worth‐rises‐to‐3‐billion‐despite‐businesssetbacks. Of course, these specific amounts remain untested and
unconfirmed.
45
See In re Donald J. Trump, 928 F.3d at 375 (“To begin, the District and Maryland’s theory of proprietary harm hinges on the conclusion that government customers are patronizing the Hotel because the Hotel distributes profits or dividends to the President, rather than due to any of the Hotel’s other characteristics. Such a
conclusion, however, requires speculation into the subjective motives of independent actors who are not before the court, undermining a finding of causation.” (emphasis in original) (citing Clapper,
568 U.S. at 413)).
46
The plaintiffs’ establishments, it should be noted, represent only
a few of the many upscale restaurants and hotels located in New
York City and Washington, D.C. By a rough count, there are ap44

65a
competition. There are simply too many variables at
play (name recognition, boasting rights, better food,
better service, more comfortable beds, reputation for
quality, location close to the seats of power, to name a
few) 47 to allow the plaintiffs to rest solely on the bare
assertion that the President’s acceptance of emoluments
has caused them competitive injury.
On this point, the majority criticizes the district court
for an error it did not make: requiring the plaintiffs to

proximately 115 five‐star hotels in New York City and 47 in Washington D.C.. See Five Star Alliance, https://www.fivestaralliance.
com. And when this lawsuit was filed in 2017, there were 77 Michelin star restaurants in New York City and 12 in Washington D.C.
See Michelin Guide 2017: New York’s Best Restaurants, Michelin
Travel, https://travelguide.michelin.com/reportage/michelin‐guide‐
2017‐new‐yorks‐bestrestaurants; Michelin Guide Washington 2017:
12 Restaurants Earn Stars, Michelin Travel, https://travelguide.
michelin.com/north‐america/united‐states/district-columbia/washington‐
dc/reportage/michelin‐guide‐washington‐2017.
This count does
not include the numerous high‐end restaurants—like the ROC United
restaurants Craft, Riverpark, Casolare Ristorante, and Zaytinya—
that are not Michelin‐starred. None of these other establishments
have joined in this lawsuit to account for any possible competitive
deprivation.
47
See In re Donald J. Trump, 928 F.3d at 376 (“And, even if government officials were patronizing the [Trump International] Hotel
to curry the President’s favor, there is no reason to conclude that
they would cease doing so were the President enjoined from receiving income from the Hotel. After all, the Hotel would still be publicly associated with the President, would still bear his name, and
would still financially benefit members of his family. In short, the
link between government officials’ patronage of the Hotel and the
Hotel’s payment of profits or dividends to the President himself is
simply too attenuated.”).

66a
“dispel alternative possible explanations” for their asserted injury. 48 Of course, the majority is correct that
a plaintiff need not disprove alternative causal routes,
but the district court required of the plaintiffs no such
thing. The district court instead listed factors that
may influence whether a diplomatic patron will or will
not frequent a Trump‐owned property—“service, quality, location, price, and other factors related to individual preference” 49—to illustrate why the causal chain in
this case is speculative.
That the plaintiffs are not required to disprove alternative causation does not cure that they failed to plausibly allege any causal chain. I agree with the majority
that “allegations of fact must plausibly support a ‘substantial likelihood’ that the plaintiff ’s injury was the
consequence of the defendant’s allegedly unlawful actions.” 50 A review of the complaint, however, reveals
few (if any) specific allegations that diplomatic patrons
are motivated by the desire to confer emoluments on the
President. 51 The most that is plausibly alleged is that
Trump‐owned properties attract diplomatic clientele,
and that the President has publicly sought and encouraged such patronage. 52 But these allegations fall short
Maj. Op. 22-23.
Citizens for Responsibility & Ethics in Washington v. Trump,
276 F. Supp. 3d 174, 185-86 (S.D.N.Y. 2017).
50
Maj. Op. 22 (quoting Simon v. Eastern Ky. Welfare Rights Org.,
426 U.S. 26, 45 (1974)).
51
And, as the Fourth Circuit points out, “there is a distinct possibility . . . that certain government officials might avoid patronizing the [Trump International] Hotel because of the President’s association with it.” In re Donald J. Trump, 2019 928 F.3d at 376.
52
Compl. ¶¶ 56, 58-87, 109, 196-97, 199-203, 206-11, 230-33.
48
49

67a
of plausibly alleging (or permitting a reasonably plausible inference) that increased competition is caused by
the President’s acceptance of emoluments.
The plaintiffs rely on a Washington Post article in
which diplomats are quoted stating that they and their
colleagues will favor Trump‐owned properties. 53 None
of these statements reveal a specific motivation to confer a financial benefit on President Trump. They indicate nothing more than that the primary motivator is
Trump brand loyalty. The plaintiffs’ strongest argument cites a line from that same article: “In interviews
with a dozen diplomats . . . some said spending
money at Trump’s hotel is an easy, friendly gesture to
the new president.” 54 This allegation is too scant to
satisfy plaintiffs’ burden to affirmatively plead that
their competitive injury is traceable to the President’s
acceptance of emoluments. 55
Even if a government official were actually motivated
to “enrich[]” 56 the President by staying at a Trump‐owned
hotel, the plaintiffs must plausibly allege that it is the
acceptance of emoluments that is unlawfully distorting
competition. The plaintiffs must affirmatively allege
that conferring a direct benefit on the President makes
a material difference when placed alongside all of the
Appellants’ Br. 38 (“Believe me, all the delegations will go there.”)
(“Why wouldn’t I stay at his hotel blocks from the White House, so
I can tell the new president, ‘I love your new hotel!’ ”).
54
Appellants’ Reply Br. 12 (quoting Jonathan O’Connell & Mary
Jordan, For foreign diplomats, Trump hotel is place to be, Wash.
Post, Nov. 18, 2016).
55
In my view, this is the case even after we accept the plaintiffs’
(highly debatable) broad definition of emoluments.
56
Maj. Op. 19, 21.
53

68a
other reasons for patronizing Trump properties. Without allegations to that effect, the causal chain remains
too speculative. To be sure, the plaintiffs need not disprove all alternative causal routes, but the plaintiffs still
remain obligated to plead a causal chain that rises above
speculation. 57 This they have not done.
Redressability. Finally, the plaintiffs must show
that it is “likely . . . that the injury will be redressed
by a favorable decision.” 58 Like traceability, redressability frequently follows closely on the heels of a competitive injury in fact, but it is still a distinct component
of Article III standing and must be plausibly alleged.
Wholly absent from the complaint are any plausible,
non-conclusory allegations that the sought‐after remedy
will lessen the plaintiffs’ competitive injury. 59 At the
point in the complaint at which the reader might expect
to be told how the remedy sought would redress the
competitive injury, the reader is left empty‐handed.
The plaintiffs simply request that the court issue a declaratory judgment that broadly defines the Emoluments Clauses as the plaintiffs would like, 60 and ask for
Simon v. E. Ky. Welfare Rights Org., 426 U.S. 26, 44 (1976)
(“[U]nadorned speculation will not suffice to invoke the federal judicial power.”).
58
Lujan, 504 U.S. at 561 (internal quotation marks omitted).
59
Iqbal, 556 U.S. at 678.
60
The plaintiffs request, among other things, that “Emolument
. . . of any kind whatever” under the Foreign Emoluments Clause
be defined to “cover anything of value,” and “any other Emolument”
in the Domestic Emoluments Clause be defined to encompass “monetary and non‐monetary payments or transactions, transactions
granting special treatment, and transactions above marginal cost.
. . . ” They ask the court to declare that the President’s conduct
violates both provisions. See Compl. VI(a).
57

69a
“[i]njunctive relief, enjoining [the President] from violating the Foreign and Domestic Emoluments Clauses,
as construed by this Court, and requiring [the President] to release financial records sufficient to confirm
that [he] is not engaging in any further transactions that
would violate the Emoluments Clauses.” 61 As for how
this relief will remedy the plaintiffs’ competitive injury,
the complaint only asserts in conclusory fashion that
“the declaratory and injunctive relief . . . would
provide a remedy for the many injuries described
above.” 62
It comes as no surprise that the pleadings are insufficient as to redressability because they do not connect
the relief requested to any effect on competition. The
amicus brief by former national‐security officials, relied
upon by the plaintiffs,63 cuts in the opposite direction
from the argument that the plaintiffs use it to support.
The brief highlights the plaintiffs’ redressability problem, pointing out the obvious: “our adversaries and
even our allies seek every advantage that is available on
the international stage.” 64 The various articles and
statements cited by the plaintiffs demonstrate that diplomats choose to patronize Trump‐owned properties for
a variety of reasons—and most likely several reasons at
the same time. None of them single out the conferral
of emoluments. But, more to the point, there is no al-

Compl. VI(b). One suspects that obtaining the President’s financial records may be the true reason for this lawsuit.
62
Compl. ¶¶ 239; 243; see also Compl. ¶ 242.
63
See Appellants’ Reply Br. 12-13 (citing Br. of Former Nat’l Sec.
Officials 21).
64
Br. of Former Nat’l Sec. Officials 21.
61

70a
legation that removing any one of the many possible incentives would cause diplomatic patrons to book at other
establishments. To the contrary, as the former national‐
security officials point out, officials are likely to continue
to seek “every advantage”—and continue to book at
Trump‐owned properties.
It is evident that the complaint fails to adequately
plead redressability because it is virtually impossible to
plausibly connect the purported cause of the plaintiffs’
alleged harm to the remedy they claim to seek (but have
not specified in the complaint)—an improved competitive environment. Even if “the mere possibility that
customers might continue to favor the defendant’s product or service after a court enjoins the violation does not
defeat Article III standing,” 65 plaintiffs here have not
particularized any causal connection between the alleged violation of the Emoluments Clauses and their
market disadvantage. When plaintiffs come before a
court unable to specify how the relief they seek will redress their injury, “one must wonder why they came to
the court for relief in the first place.” 66 In any event,
the fact that the plaintiffs plainly fail to do so in the complaint is telling and is itself sufficient to defeat standing.
II.
As I have already noted, that the application of the
competitor standing doctrine in this case will not satisfy
the requirements of Article III standing is not surprising given the absence of economic logic between the violation alleged (the transgression of the Emoluments

65
66

Maj. Op. 42.
In re Donald J. Trump, 928 F.3d at 377.

71a
Clauses) and harm to the plaintiffs (competitive disadvantage). The nature of the cases in this area merits
further elaboration. Only in certain categories has the
economic logic been tight enough for courts to permit
competitor‐plaintiffs to shortcut the usual requirement
of pleading injury in fact, traceability, and redressability with particularity. These cases fall generally into
three categories: agency cases, election cases, and unfair competition cases. It is only within these three
categories that the cases relied upon by the plaintiffs
(and the majority) to support their competitive standing
theory can be found. In each of these three categories,
the challenged governmental action or non‐action is directed at parties in their capacity as a market player.
This emoluments case, by contrast, fits into none of
these three categories, and it is not analogous to any of
them.
Agency cases. The competitor standing doctrine
originated with agency cases. The first of these cases
before the Supreme Court, Investment Company Institute v. Camp, involved banking regulations that allowed
new institutions to enter certain financial sectors. 67
Following that decision, competitor standing cases
premised on a challenge to agency action have become

See Inv. Co. Inst. v. Camp, 401 U.S. 617, 620 (1970) (investment
companies had standing to challenge the regulation of national
banks); Clarke v. Secs. Indus. Ass’n, 479 U.S. 388, 403 (1987) (competitor brokerage trade association had standing to sue over banking regulations); Nat. Credit Union Admin. v. First Nat. Bank &
Trust Co., 522 U.S. 479, 488 (1998) (banks and bankers association
had standing to sue over credit union regulations).
67

72a
common. 68 In Adams v. Watson, the First Circuit held
that out‐of‐state milk producers had competitive standing to challenge state dairy regulations. 69 In Canadian
Lumber Trade Alliance v. United States, the Federal
Circuit determined that Canadian wheat producers
could employ competitor standing to challenge United
States customs regulations designed to aid American
wheat producers. 70 The D.C. Circuit, in Sherley v.
Sebelius, held that adult stem cell researchers had competitive standing to challenge new regulations authorizing the National Institutes of Health to fund embryonic
stem cell research. 71 I could go on.
In the agency context, where the government regulators are effectively choosing winners and losers in the
marketplaces that they regulate, affording the plaintiff
the presumption of injury, traceability, and redressability makes sense. There is no doubt, for example, that
when the government allows a commercial bank to operate in a sector previously occupied only by investment
firms, 72 the investment firms will suffer negative competitive effects because more actors occupy the field.
In these cases, the challenged government action is directed at a particular marketplace with the aim of regulating one or more of the players in that market in some
Some cases in this category could fall under the broader heading
of “governmental action.” See Clinton v. City of New York, 524
U.S. 417, 432-33 (1998) (farmers’ cooperative had competitor standing to challenge the President’s line item veto of a bill provision that
would have benefitted the cooperative).
69
Adams, 10 F.3d at 920, 925.
70
Canadian Lumber, 517 F.3d at 1332.
71
Sherley, 610 F.3d at 73.
72
See, e.g., Camp, 401 U.S. at 620.
68

73a
way. The government’s decision to act in a way that
gives a boost to some players in that market or allows a
new player to enter it, will, as a matter of economic
logic, be to the detriment of others.
Election cases. Competitor standing cases in the
Second Circuit have arisen in the election context. In
Fulani v. League of Women Voters Education Fund,
the plaintiff, a presidential candidate, alleged that the
League of Women Voters violated its tax‐exempt status
by hosting a primary debate that imposed certain admission requirements on the debate candidates, thereby
causing the plaintiff‐candidate a competitive injury
when she was excluded from the debate.73 We held that
she had competitor standing to challenge the League’s
tax-exempt status. 74 The plaintiff in Fulani alleged that
a law (aimed at preventing political abuse of an organization’s tax‐exempt status in the political marketplace)
caused a competitive injury to her political candidacy
which plainly would be redressed if she were permitted
to debate. Her injury and its causation and redressability were self-evident as a matter of logic.
Likewise, Schulz v. Williams involved an action by
the Libertarian Party to enjoin the operation of a New
York election law that had blocked its candidates from
getting on the state ballot.75 The district judge granted
the Libertarian Party an injunction. The competitor‐
intervenor Conservative Party appealed on the basis
that the district court’s injunction improperly placed
Fulani v. League of Women Voters Educ. Fund, 882 F.2d 621,
624 (2d Cir. 1989). [EVG, RJC, LWP]
74
Id. at 626.
75
Schulz, 44 F.3d at 51-52.
73

74a
Libertarian candidates on the ballot and thereby siphoned votes away from it. 76 We held that the intervenor‐
Conservative Party had standing to challenge the election law ruling that had allegedly caused it an electoral
injury. 77
Finally, in In re U.S. Catholic Conference, pro‐choice
advocates had competitive standing to challenge the tax‐
exempt status of the Catholic Church on the grounds
that the Catholic Church had unlawfully engaged in partisan activities by campaigning for pro‐life causes.78 By
logic parallel to the agency cases, in each election case
the competitor‐plaintiff sought to challenge election‐ related action that allegedly had an obvious and direct
negative impact on the plaintiffs’ own political activities.
Unfair competition cases. The third context in
which the competitor standing doctrine has arisen is in
unfair competition claims. 79 Courts routinely recognize constitutional standing for competitors seeking to
redress antitrust injury. 80 Suits by competitors brought

Id. at 52-53.
Id. at 53.
78
USCC, 885 F.2d at 1022.
79
See TrafficSchool, 653 F.3d at 825-26.
80
See, e.g., NicSand, Inc. v. 3M Co., 507 F.3d 442, 449 (6th Cir.
2007) (en banc) (recognizing Article III standing for a plaintiff allegedly injured by a competitor’s antitrust violations). The plaintiffs
suggest that standing for competitors in these cases supports their
broad proposition that “courts have upheld Article III standing
when the illegal acts of private parties increase or distorted competition against a plaintiff” and evinces the doctrine’s application in
“many other contexts.” Appellants’ Br. 28-29. But the plaintiffs
miss the thread that ties all three categories of cases together: eco76
77

75a
under the Lanham Act are also commonly allowed based
on competitor standing. In TrafficSchool.com, Inc. v.
Edriver, Inc., both parties ran online traffic‐school
courses in the same market. The plaintiff alleged that
the defendant had engaged in false advertising in violation of Lanham Act and state unfair competition laws—
a violation, unlike that here, that directly relates to competition. 81 The Ninth Circuit determined the competitor‐
plaintiff had standing because they were direct competitors and “[s]ales gained by one are thus likely to come
at the other’s expense.” 82 This case exemplifies those
cases in which, as a matter of economic logic, a competitor had standing to challenge a rival’s noncompliance
with laws plainly designed to regulate their competition
in the common marketplace.
* * *
These are the three broad categories of cases in
which courts have extended to plaintiffs a presumption
of competitive injury based on common‐sense market
logic. The cases in each of these three categories deal
with challenged regulations, laws, and actions that were
directed at market players in their role as market players, which is the key determinant that may warrant utilization of the competitor standing exception. These
cases stand for the proposition that competitive injury
in fact, together with causation and redressability, can

nomic logic. The same economic logic that connects agency, election, and unfair competition competitor standing cases is absent in
this case.
81
Id. at 824.
82
Id. at 825.

76a
be presumed when the plaintiff can point to some government action or inaction that directly regulates the
conduct of a market player operating in the same market. In other words, plaintiffs in these cases were afforded competitor standing when they asserted a competitive injury as a result of an unlawful activity that was
itself directly related to, and intended to regulate, the
commercial or political marketplace.
The case before us is markedly different. The competitor standing suit against the President has little in
common with these three categories of cases. Even accepting the plaintiffs’ broad construction of the Emoluments Clauses, the Clauses were never designed to, and
nor do they, directly regulate the marketplace or the
market player as it functions in the marketplace. The
Emoluments Clauses have never been characterized as
market‐oriented, no case has ever stretched the competitor standing exception this far, and, as is evident from
the Supreme Court’s decision in Already, such a stretch
goes further than the competitor‐standing pleading exception can bear.
In sum, because the plaintiffs lack standing to challenge the President’s alleged acceptance of emoluments
under either traditional standing principles or the competitor standing doctrine, I respectfully dissent.

77a
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

Docket No. 18-474
August Term, 2018
CITIZENS FOR RESPONSIBILITY AND ETHICS IN
WASHINGTON, RESTAURANT OPPORTUNITIES
CENTERS UNITED, INC., JILL PHANEUF, AND
ERIC GOODE, PLAINTIFFS-APPELLANTS
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY AS
PRESIDENT OF THE UNITED STATES OF AMERICA,
DEFENDANT-APPELLEE
Argued: Oct. 30, 2018
Decided: Mar. 20, 2020
Before: JOHN M. WALKER, PIERRE N. LEVAL, Circuit
Judges. 1
PER CURIAM:
It is hereby ORDERED that the chapter of the panel
opinion of September 13, 2019 captioned “Zone of Interests” is amended by deleting the passage from its fourth
paragraph (beginning “The district court’s analysis
Judge Christopher F. Droney, who was originally part of the
panel assigned to hear this case, retired from the Court effective
January 1, 2020. The remaining two members of the panel are in
agreement regarding this order. See 28 U.S.C. § 46(d); 2d Cir. IOP
E(b).
1

78a
erred on the merits . . . ”) to the end of the chapter.
The chapter is further amended in the first and second
paragraphs so that they are consistent with the above
deletion, and at the end of the chapter by addition of a
footnote acknowledging and explaining the deletion.
The chapter in amended form shall read as follows:
ii.

Zone of Interests

The district court also erred in its reliance on the
zone of interests test as a basis for finding lack of jurisdiction. The Supreme Court has recently clarified that the zone of interests test is not a test of subject matter jurisdiction. In Lexmark Int’l Inc. v.
Static Control Components, the Supreme Court,
while acknowledging that past decisions had characterized the zone of interests test as part of a “ ‘prudential’ branch of standing,” reconsidered the question and clarified both that the “prudential” label is a
misnomer and that the test does not implicate Article
III standing. 572 U.S. 118, 126-27 (2014). Rather,
the Court explained that the test asks whether the
plaintiff “has a cause of action under the [law]” on the
basis of the facts alleged. Id. at 128. The Court
emphasized that the test is not “jurisdictional” because “the absence of a valid . . . cause of action
does not implicate subject-matter jurisdiction.” Id.
at 128 n.4 (internal quotation marks omitted). In
Bank of America v. City of Miami, 137 S. Ct. 1296
(2017), the Court reaffirmed that the zone of interests test asks whether the complaint states an actionable claim under a statute (and not whether the plaintiff has standing and the court has subject matter jurisdiction). The City of Miami majority reiterated
that the Article III standing requirements are injury,

79a
causation, and redressability, and reinforced Lexmark’s essential point that the zone of interests question is “whether the statute grants the plaintiff the
cause of action that he asserts.” Id. at 1302.
Accordingly, while it had previously been appropriate to consider whether plaintiffs fall within the
zone of interests in deciding whether a plaintiff has
standing and the court has subject matter jurisdiction, the Supreme Court has unambiguously rejected
that approach. The district court thus misconstrued
the nature of the zone of interests doctrine.FN

Footnote—The original published version of this opinion contained,
in this chapter, a discussion of the merits of the zone-of‐interests
question. That discussion is deleted in order that it not serve as a
precedent on the question whether the Complaint states a claim
upon which relief may be granted. Because, under Lexmark, the
merits of the zone‐of‐interests question do not bear on the court’s
subject matter jurisdiction, that discussion had no pertinence to
whether the district court erred in granting the President’s motion
under Rule 12(b)(1).

80a
APPENDIX C
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

17 Civ. 458 (GBD)
CITIZENS FOR RESPONSIBILITY AND ETHICS IN
WASHINGTON, RESTAURANT OPPORTUNITIES
CENTERS UNITED, INC., JILL PHANEUF, AND
ERIC GOODE, PLAINTIFFS
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY AS
PRESIDENT OF THE UNITED STATES OF AMERICA,
DEFENDANT

[Filed: Dec. 2, 2017]
MEMORANDUM DECISION AND ORDER

GEORGE B. DANIELS, United States District Judge:
Plaintiffs Citizens for Responsibility and Ethics in
Washington (“CREW”), Restaurant Opportunities Centers United, Inc. (“ROC United”), Jill Phaneuf, and Eric
Goode (collectively, “Plaintiffs”), bring this suit against
Defendant Donald J. Trump, in his official capacity as
President of the United States. (Second Amended
Complaint (“SAC”), ECF No. 28, at 1.) Plaintiffs principally allege that Defendant’s “vast, complicated, and
secret” business interests are creating conflicts of interest and have resulted in unprecedented government in-

81a
fluence in violation of the Domestic and Foreign Emoluments Clauses of the United States Constitution.
(SAC ¶ 1 (citing U.S. Const. art. I, § 9, cl. 8 & art. II,
§ 1, cl. 7, respectively).) Plaintiffs seek (i) a declaratory judgment declaring that Defendant has violated
and will continue to violate the Domestic and Foreign
Emoluments Clauses; (ii) an injunction enjoining Defendant from violating the Emoluments Clauses; and
(iii) an injunction requiring Defendant to release financial records in order to confirm that he is not engaging
in further transactions that would violate the Emoluments Clauses. (Id. 20.)
Defendant argues that Plaintiffs lack standing to sue
and moves to dismiss this lawsuit for lack of subject matter jurisdiction pursuant to Federal Rule of Civil Procedure Rule 12(b)(1). (Def.’s Mot. to Dismiss, ECF No.
34; Def.’s Mem. of Law in Supp. of Mot. to Dismiss
(“Mot.”), ECF No. 35, at 7.) Defendant also moves to
dismiss this case for failure to state a claim under the
Emoluments Clauses pursuant to Federal Rule of Civil
Procedure Rule 12(b)(6). (See Mot. at 26.)
Defendant’s motion to dismiss for lack of standing
under Rule 12(b)(1) is GRANTED. 1

Because Plaintiffs’ claims are dismissed under Rule 12(b)(1),
this Court does not reach the issue of whether Plaintiffs’ allegations
state a cause of action under either the Domestic or Foreign Emoluments Clauses, pursuant to Rule 12(b)(6). Nor does this Court address whether the payments at issue would constitute an emolument
prohibited by either Clause.
1

82a
I. FACTUAL BACKGROUND
A.

The Parties

Plaintiff CREW is a nonprofit, nonpartisan government ethics watchdog organized under the laws of the
State of Delaware.
(SAC ¶ 21.)
CREW’s selfproclaimed mission is to “protect[] the rights of citizens
to be informed about the activities of government officials, ensur[e] the integrity of government officials, protect[] [the] political system against corruption, and reduc[e] the influence of money in politics.” (Id.) It
seeks to advance that mission through a combination of
research, advocacy, litigation, and education, all aimed
at raising public awareness about the influence of outside special interests on public officials. (Id. ¶ 22.)
For instance, CREW is involved in a project relating to
campaign finance and ethics at the state-level, as well as
researching and filing comments with government agencies related to rulemakings and other regulatory actions, and preparing reports on “money-in-politics issues.” (Id. ¶¶ 166-67, 171.) CREW also analyzes tax
returns of nonprofit groups engaged in political activities and publishes blog posts and reports to educate the
public. (Id. ¶ 173.) In addition, during the last several election cycles, CREW has filed numerous administrative complaints with the Federal Election Commission and the Department of Justice alleging violations of
campaign finance laws. (Id. ¶ 164.)
Plaintiff ROC United is a nonprofit, nonpartisan
member-based organization organized under the laws of
the State of New York. (Id. ¶ 28.) ROC United’s members include nearly 25,000 restaurant employees, over
200 restaurants, and about 3,000 other dining establish-

83a
ments. (Id. ¶ 11.) ROC United provides “job training, placement, leadership development, civic engagement, legal support, and policy advocacy” to help improve working conditions in the food service industry.
(Id.) Through its RAISE project, ROC United works
with restaurant owners to implement sustainable business models that support “high road” employer practices such as paying living wages, providing basic benefits, being environmentally sustainable, and providing
safe and healthy workplaces.
(Id. ¶ 181.)
ROC
United also owns and operates a restaurant in New York
City and another in Detroit, with a forthcoming location
in Washington, D.C. (Id. ¶ 28.)
Plaintiff Jill Phaneuf, a resident of Washington D.C.,
works with a hospitality company to book embassy functions and other events tied to foreign governments, as
well as other events “in the Washington, D.C. market.”
(Id. ¶ 15.) In particular, Phaneuf books events for two
Washington D.C. hotels—the Carlyle Hotel, located just
north of Dupont Circle, and the Glover Park Hotel, located near the area that is colloquially referred to “Embassy Row.” (Id. ¶ 15.) Phaneuf alleges that her compensation consists of a percentage of the gross receipts
of the events she books. (Id.)
Plaintiff Eric Goode is a New York resident and the
owner of several hotels, restaurants, bars, and event
spaces in New York City. (Id. ¶ 18.) He owns the Maritime Hotel located in the Chelsea neighborhood, the
Bowery Hotel and Ludlow Hotel, both of which are located in the Lower East Side, and the Jane Hotel in the
Meatpacking District. (Id.) Goode also owns several
restaurants located in the Bowery Hotel. (Id.) Goode

84a
alleges that his hotels and restaurants have typically attracted business from foreign governments, as well as
from federal and state government officials traveling on
official business. (Id.)
Defendant Donald J. Trump is the President of the
United States of America. Before he was elected President, Defendant amassed ownership and controlling interests in businesses throughout the country and around
the world. Defendant is the sole owner of the Trump
Organization LLC and The Trump Organization, Inc.
(collectively, the “Trump Organization”). (Id. ¶ 42.)
Defendant’s corporations, limited-liability companies,
limited partnerships, and other entities are loosely organized under the Trump Organization. (Id.)
On January 11, 2017, Defendant, then-Presidentelect, announced that he would turn over the “leadership
and management” of the Trump Organization to his
sons, Donald Trump, Jr. and Eric Trump. (Id. ¶ 43.)
Defendant also announced that he would donate all profits from foreign governments’ patronage of his businesses to the U.S. Treasury. (Id.; see also Donald
Trump’s News Conference: Full Transcript and Video,
N.Y. Times (Jan. 11, 2017), http://nyti.ms/2jG86w8.)
Although Defendant had established a trust to hold his
business assets, Plaintiffs allege that Defendant continues to own and is permitted to take distributions from
the trust at any time. (SAC ¶ 44.) Plaintiffs allege
that Defendant continues to be informed of the Trump
Organization’s business activities and that Eric Trump
provides business updates to Defendant on a quarterly
basis. (Id.)

85a
Through his various business entities, Defendant
owns and receives payments from a number of properties and restaurant establishments in the United States.
Of particular relevance here, Defendant owns the
Trump International Hotel in Washington, D.C. and the
BLT Prime, a restaurant located inside the hotel. (Id.
¶¶ 58-59.) He also owns Trump World Tower, a condominium high-rise building in New York City located
near the United Nations. (Id. ¶ 90.) Trump Tower, a
mixed-use skyscraper in New York City, and Trump
Grill, a restaurant located inside the tower, are also
among the properties owned by Defendant. (Id. ¶¶ 4647, 56.)
B.

Defendant’s Alleged Violations of the Domestic and Foreign Emoluments Clauses

Plaintiffs allege that since Defendant’s inauguration
earlier this year, he has violated and continues to violate
the Domestic and Foreign Emoluments Clauses of the
Constitution due to the ownership and controlling interests he continues to hold in the Trump Organization and
other entities, and the monies he receives as a result.
(Id. ¶¶ 7, 42.)
The Domestic Emoluments Clause states that “[t]he
President shall, at stated Times, receive for his Services,
a Compensation, which shall neither be encreased nor
diminished during the Period for which he shall have
been elected, and he shall not receive within that Period
any other Emolument from the United States, or any of
them.” U.S. Const. art. II, § 1, cl. 7. That clause provides that the president’s compensation for his services
as president shall not change during his term in office,
and prohibits him from drawing any additional compensation or salary from the federal or state governments.

86a
The Foreign Emoluments Clause states in pertinent
part that “no Person holding any Office of Profit or
Trust under them, shall, without the Consent of the Congress, accept of any present, Emolument, Office, or Title, of any kind whatever, from any King, Prince, or foreign State.” U.S. Const. art. I, § 9, cl. 8. That clause
provides that certain federal government officials shall
not receive any form of gift or compensation from a foreign government without Congress’s approval. 2
Plaintiffs point to a number of examples of alleged
violations of both the Domestic and Foreign Emoluments Clauses. For example, Plaintiffs allege that after the 2016 election, and under pressure from the
Trump Organization, the Embassy of Kuwait in Washington D.C. moved its National Day celebration from the
Four Seasons Hotel to the Trump International Hotel,
spending an estimated $40,000 to $60,000 for the event.
(SAC ¶¶ 72-74.) Other foreign diplomats and their
agents have publicly expressed a desire to patronize the
Trump International Hotel and other properties owned
by Defendant to curry favor with the President. (Id.
¶¶ 57-89.) One press account quoted a “Middle Eastern diplomat” as saying, “[b]elieve me, all the delegations will go” to the Trump International Hotel. (Id.
¶ 62.) The same account quoted an “Asian diplomat”
who explained, “[w]hy wouldn’t I stay at his hotel blocks
from the White House, so I can tell the new president, ‘I
love your new hotel!’ Isn’t it rude to come to his city and
say, ‘I am staying at your competitor?’ ” (Id.)
For purposes of this motion, Defendant has conceded that he is
subject to the Foreign Emoluments Clause. (See Tr. of Oral Arg.,
ECF No. 99, at 94:11-13; Ltr. to the Ct. from Brett A. Shumate dated
October 25, 2017, ECF No. 98.)
2

87a
Plaintiffs allege that, over the last two decades, the
Kingdom of Saudi Arabia, as well as the Permanent Missions to the United Nations from India, Afghanistan,
and Qatar purchased property at the Trump World
Tower, paying anywhere from $4.5 million up to $8.375
million. (Id. ¶¶ 90-106.) Plaintiffs believe that these
foreign entities continue to pay yearly common charges
for building amenities amounting to tens of thousands of
dollars each year. (Id.) Plaintiffs point out that none
of these countries were included in Defendant’s original
or revised executive orders barring visitors from six
Muslim-majority countries. (Id. ¶ 110.)
Plaintiffs allege that since 2006, Defendant has unsuccessfully sought trademark protection in China for
the use of his name in connection with building construction services. After his application was rejected by
China’s Trademark Office, Defendant appealed to the
Trademark Review and Adjudication Board, the Beijing
Intermediate People’s Court, and the Beijing High People’s Court, to no avail. (Id. ¶ 111.) In December 2016,
shortly after he was elected, Defendant spoke directly
with the President of Taiwan, suggesting that the United
States might abandon the “One China” policy that it had
observed for decades. According to Plaintiffs, Defendant had previously suggested he would end the “One
China” policy unless some benefit were received in exchange. (Id. ¶ 112.) On February 9, 2017, Defendant
spoke with the President of China and pledged to honor
the “One China” policy. Five days later, China reversed
course and granted trademark protection for the
“Trump” name. (Id. ¶¶ 113-14.) Plaintiffs also allege
that the Industrial and Commercial Bank of China, a
Chinese majority-state-owned entity, is one of the largest tenants of Trump Tower. (Id.¶ 49.)

88a
Plaintiffs allege that the Trump International Hotel’s
lease with the General Services Administration (“GSA”)—
an independent agency of the United States, whose administrator is appointed by the president—violates the
Domestic Emoluments Clause. (Id. ¶¶ 130-44.) Prior
to taking office, GSA entered into a 60-year lease for
what eventually became the site for the Trump International Hotel. (Id. ¶¶ 130-31.) Section 37.19 of the
lease agreement provides that “[n]o . . . elected official of the Government of the United States . . .
shall be admitted to any share or part of this Lease, or
to any benefit that may arise therefrom.” (Id. ¶ 132.)
Plaintiffs allege that by virtue of his election, Defendant
has been in breach of the lease since he took office on
January 20, 2017. One week after Defendant released
a proposed federal budget increasing GSA’s funding
while cutting nearly all other non-defense-related spending, GSA issued a letter indicating that, in its view, there
were no compliance issues with respect to the lease. As
of the date the SAC was filed, GSA has not made any
effort to enforce the apparent breach against the Trump
Organization. (Id. ¶¶ 135, 140-41, 145.)
Additionally, Plaintiffs contend that Defendant has
also benefitted and will continue to benefit from payments to his hotels and restaurants by foreign governments and their agents, as well as federal, state, and local government officials. (Id. ¶¶ 200-01.)
Plaintiffs assert that they are injured by Defendant’s
alleged violations of the Emoluments Clauses. Phaneuf and Goode allege that due to Defendant’s ongoing
financial interest in hotels and restaurants receiving
payments from governmental sources, they will suffer
increased competition resulting in “loss of commission-

89a
based income” and “loss of revenue[.]” (See id. ¶¶ 225,
227, 234.) Similarly, ROC United alleges that its restaurant and restaurant-employee members have suffered injury in the form of “lost business, wages, and
tips.” (Id. ¶ 13.) CREW claims it has been harmed by
having to divert and expend its resources to counteract
the alleged violations, impairing its ability to accomplish
its mission. (Id. ¶ 15 3.)
II. LEGAL STANDARD UNDER FEDERAL RULE OF
CIVIL PROCEDURE 12(b)(1)

“Determining the existence of subject matter jurisdiction is a threshold inquiry[,] and a claim is properly
dismissed for lack of subject matter jurisdiction under
Rule 12(b)(1) when the district court lacks the statutory
or constitutional power to adjudicate it.” Morrison v.
Nat’l Austl. Bank Ltd., 547 F.3d 167, 170 (2d Cir. 2008)
(quotation marks omitted), aff ’d, 561U.S.247 (2010).
The party invoking the benefit of federal jurisdiction
bears the burden of establishing the existence of that jurisdiction. Sharkey v. Quarantillo, 541 F.3d 75, 82-83
(2d Cir. 2008) (citation omitted).
In deciding a motion to dismiss “pursuant to Rule
12(b)(1), . . . the Court must accept as true all material factual allegations in the complaint, but should refrain from drawing any inferences in favor of the party
asserting jurisdiction.” People United for Children,
Inc. v. City of New York, 108 F. Supp. 2d 275, 283
(S.D.N.Y. 2000) (citing Atl. Mut. Ins. Co. v. Balfour
Maclaine Int’l Ltd., 968 F.2d 196, 198 (2d Cir. 1992)).
“[U]nder Rule 12(b)(1), [a court is] permitted to rely on
non-conclusory, non-hearsay statements outside the
pleadings.” MES., Inc. v. Snell, 712 F.3d 666, 671 (2d
Cir. 2013).

90a
III. STANDING

Central to the question of whether this Court has
subject-matter jurisdiction over this case is whether
Plaintiffs have legal standing to sue. See Cortlandt St.
Recovery Corp. v. Hellas Telecomms. I, S.a.r.l, 790 F.3d
411, 416-17 (2d Cir. 2015). Indeed, “[n]o principle is
more fundamental to the judiciary’s proper role in our
system of government than the constitutional limitation
of federal-court jurisdiction to actual cases or controversies.” Raines v. Byrd, 521 U.S. 811, 818 (1997). As
the Supreme Court has explained, “[t]he law of Article
III standing, which is built on separation-of-powers
principles, serves to prevent the judicial process from being used to usurp the powers of the political branches[,]”
Clapper v. Amnesty Int’l USA, 568 U.S. 398, 408 (2013),
and “ensure[s] that federal courts do not exceed their
authority as it has been traditionally understood.”
Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 1547 (2016).
Accordingly, the standing inquiry is “especially rigorous” where, as here, “reaching the merits of the dispute
would force [this Court] to decide whether an action
taken by one of the other two branches of the Federal
Government was unconstitutional.” Clapper, 568 U.S.
at 408 (citation and quotation marks omitted).
The “irreducible constitutional minimum of standing” consists of three clements: “(1) ‘an injury in fact’
to ‘a legally protected interest’ that is both ‘(a) concrete
and particularized, and (b) actual or imminent, not conjectural or hypothetical,’ (2) ‘a causal connection between the injury and the conduct complained of,’ and (3)
that it is ‘likely, as opposed to merely speculative, that
the injury will be redressed by a favorable decision.’ ”
Crupar-Weinmann v. Paris Baguette Am., Inc., 861

91a
F.3d 76, 79 (2d Cir. 2017) (quoting Lujan v. Defenders
of Wildlife, 504 U.S. 555, 560-61 (1992)). As the parties
invoking this Court’s jurisdiction, Plaintiffs bear the
burden of establishing standing, and at the pleading
stage, they must do so by “clearly alleg[ing] facts
demonstrating each element.” Spokeo, 136 S. Ct. at
1547 (citation omitted).
A.

ROC United, Phaneuf, and Goode Lack Article III
Standing

Defendant contends that Plaintiffs ROC United,
Phaneuf, and Goode (the “Hospitality Plaintiffs”) lack
standing to bring their claims and that their alleged injuries do not fall within the zone of interests of the
Emoluments Clauses. (Mot. at 8-26.)
1. The Hospitality Plaintiffs’ Competitor Standing Argument Fails
The Hospitality Plaintiffs attempt to rely on the competitor standing doctrine to establish injury in fact.
Defendant argues that these Plaintiffs lack competitor
standing because they fail to establish that the challenged governmental activity has caused “an actual or
imminent increase in competition, which increase . . .
will almost certainly cause an injury in fact.” (Mot. at
20-21 (citing Sherley v. Sebelius, 610 F.3d 69, 73 (D.C.
Cir. 2010)).)
“The Supreme Court has found cognizable injuries to
economic competitors.” In re US. Catholic Conference, 885 F.2d 1020, 1029 (2d Cir. 1989) (citation omitted); see Clarke v. Sec. Indus. Ass’n, 479 U.S. 388, 403
(1987); Ass’n of Data Processing Serv. Orgs., Inc. v.
Camp, 397 U.S. 150, 152 (1970)). The doctrine of competitor standing recognizes that economic actors “suffer

92a
[an] injury in fact when agencies lift regulatory restrictions on their competitors or otherwise allow increased competition against them.” Sherley, 610 F.3d
at 72 (citation and quotation marks omitted).
The doctrine traces its origin to a time when financial
institutions started diversifying their service offerings
and began competing with firms that had traditionally
provided those services. For instance, in Data Processing, an association of data processing service providers challenged a ruling by the Comptroller of the
Currency of the United States allowing banks to provide
such services and compete in the same market. 397
U.S. at 151. The Court held that the association had
standing to bring its claim because it properly alleged
that the rule caused plaintiffs “injury in fact” in the form
of future and actual loss of profits. Id. at 152; see also
Clarke, 479 U.S. at 403 (granting standing to trade association composed of securities brokers, dealers, and
underwriters to challenge governmental ruling that
banks could act as discount brokers); Inv. Co. Inst. v.
Camp, 401 U.S. 617, 620-21 (1971) (granting standing to
association of open-end investment companies to challenge ruling that allowed bank entry into the field of collective investment funds); Arnold Tours, Inc. v. Camp,
400 U.S. 45, 46 (1970) (holding travel agents had standing to challenge ruling to permit banks to offer travel
services).
The Hospitality Plaintiffs argue that the competitor
standing doctrine only requires a plaintiff to “ ‘show that
he personally competes in the same arena’ with the
party to whom the defendant has unlawfully bestowed a
benefit.” (Pls.’ Mem. of Law in Opp’n to Mot. (“Opp’n”),
ECF No. 57, at 11.) They allege that they compete for

93a
government business in the Washington D.C. and New
York City restaurant and hotel markets and that they
have and will be harmed “due to foreign states, the
United States, or state or local governments patronizing
establishments with financial connections to Defendant
rather than” Plaintiffs. (See SAC ¶¶ 13, 17, 19, 194,
198, 227, 234.) Defendant argues that the Hospitality
Plaintiffs’ allegations are far too speculative to give rise
to competitor standing and that they have failed to sufficiently allege that they “personally compete[]” with
Defendant’s hotels and restaurants. (Mot. at 21 (citing
U.S. Catholic Conference, 885 F.2d at 1029).) In response, the Hospitality Plaintiffs cite declarations from,
among others, Goode, ROC United’s restaurant members, and industry experts explaining how and in which
ways they compete with Defendant’s businesses. (See,
e.g., Opp’n at 17-18.)
Plaintiffs have failed to properly allege that Defendant’s actions caused Plaintiffs competitive injury and
that such an injury is redressable by this Court. As
noted, Article III “requires that a federal court act only
to redress injury that fairly can be traced to the challenged action of the defendant,” and for which “prospective relief will remove the harm.” Simon v. E. Ky. Welfare Rights Org., 426 U.S. 26, 41-42, 45 (1976); see also
Liberty Glob. Logistics LLC v. U.S. Mar. Admin., No.
13-CV-0399 (ENV), 2014 WL 4388587, at *5-6 (E.D.N.Y.
Sept. 5, 2014) (finding plaintiff had established an injury
in fact due to the “well-established concept of competitors’
standing” but nonetheless dismissing certain claims for
lack of causation) (citation omitted).
In Simon, the plaintiffs were indigent individuals and
organizations representing indigents who challenged an

94a
IRS rule allowing favorable tax treatment to a nonprofit
hospital that only offered emergency-room services to
indigents. 426 U.S. at 28. The plaintiffs argued that
the IRS rule caused them injury because it “encouraged” hospitals to deny other services to indigents. Id.
at 42. The Court held that this alleged injury lacked
traceability and redressability because of intervening
causal factors. The Court found it “purely speculative
whether . . . denials of service . . . [could] fairly
. . . be traced to petitioners’ ‘encouragement’ or instead result[ed] from decisions made by the hospitals
without regard to the tax implications.” Id at 42-43.
The Court found it “equally speculative” to conclude
that “victory in this suit would result in [plaintiffs] receiving the hospital treatment they desire.” Id. at 43,
45-46. Rather than increasing access for indigent patients, hospitals could simply discontinue such programs
altogether and become profit-funded institutions, thereby exacerbating plaintiffs’ injury. Id. at 45-46.
Here, the Hospitality Plaintiffs argue that Defendant
has adopted “policies and practices that powerfully incentivize government officials to patronize his properties in hopes of winning his affection.” (Opp ‘n at 16
(emphasis added).) Yet, as in Simon, it is wholly speculative whether the Hospitality Plaintiffs’ loss of business is fairly traceable to Defendant’s “incentives” or instead results from government officials’ independent
desire to patronize Defendant’s businesses. Even before Defendant took office, he had amassed wealth and
fame and was competing against the Hospitality Plaintiffs in the restaurant and hotel business. It is only
natural that interest in his properties has generally increased since he became President. As such, despite

95a
any alleged violation on Defendant’s part, the Hospitality Plaintiffs may face a tougher competitive market
overall. Aside from Defendant’s public profile, there
are a number of reasons why patrons may choose to visit
Defendant’s hotels and restaurants including service,
quality, location, price and other factors related to individual preference. Therefore, the connection between
the Hospitality Plaintiffs’ alleged injury and Defendant’s actions is too tenuous to satisfy Article Ill’s causation requirement. Bennett v. Spear, 520 U.S. 154, 167
(1997) (to establish standing, “the injury must be fairly
traceable to the challenged action of the defendant, and
not the result of the independent action of some third
party not before the court”) (citing Lujan, 504 U.S. at
560-61); Clapper, 568 U.S. at 413 (“[W]e have been reluctant to endorse standing theories that require guesswork as to how independent decisionmakers will exercise their judgment.”)
Moreover, the Hospitality Plaintiffs cannot establish
“that it [is] likely, as opposed to merely speculative, that
the injury will be redressed by a favorable decision.”
Bennett, 520 U.S. at 167 (citation omitted). Plaintiffs
seek an injunction preventing Defendant from violating
the Emoluments Clauses. (SAC ¶ 120.) They argue
that such injunction would “stop[] the source of intensified competition [and] provide redress.” (Opp’n at 26.)
Even if it were determined that the Defendant personally accepting any income from the Trump Organization’s business with foreign and domestic governments
was a violation of the Emoluments Clauses, it is entirely
“speculative,” Bennett, 520 U.S. at 167, what effect, if

96a
any, an injunction would have on the competition Plaintiffs claim they face. 3
Plaintiffs are likely facing an increase in competition
in their respective markets for business from all types
of customers—government and non-government customers alike—and there is no remedy this Court can
fashion to level the playing field for Plaintiffs as it relates to overall competition. Were Defendant not to
personally accept any income from government business, this Court would have no power to lessen the competition inherent in any patron’s choice of hotel or restaurant. As explained more fully below, the Emoluments Clauses prohibit Defendant from receiving gifts
and emoluments. They do not prohibit Defendant’s
businesses from competing directly with the Hospitality
Plaintiffs. Furthermore, notwithstanding an injunction from this Court, Congress could still consent and
allow Defendant to continue to accept payments from
foreign governments in competition with Plaintiffs.
Thus, while a court order enjoining Defendant may
stop his alleged constitutional violations, it would not ultimately redress the Hospitality Plaintiffs’ alleged competitive injuries. 4

For example, even if Defendant honored his pledge to establish
a trust and donate all profits from foreign governments’ business to
the U.S. Treasury, (Mot. at 5; see also SAC ¶¶ 43-44), foreign government officials may still patronize Defendant’s restaurants and
hotels.
4
ROC United contends that it has associational standing to bring
this lawsuit because it has alleged that its members have been “injured by the [D]efendant’s distortion of competition.” (Opp’n at 2425.) To have associational standing, a plaintiff organization must
3

97a
2. The Hospitality Plaintiffs’ Competitive Injuries Do Not Fall Within the Zone of Interests
of the Emoluments Clauses
The zone of interests doctrine demonstrates that the
Hospitality Plaintiffs are not the right parties to bring a
claim under the Emoluments Clauses. Beyond the Article III requirements, “the federal judiciary has also
adhered to a set of prudential principles that bear on the
question of standing.” Valley Forge Christian Coll. v.
Ams. United for Separation of Church and State, Inc.,
454 U.S. 464, 474 (1982). “One of these is the requirement that the plaintiff establish that the injury he complains of (his aggrievement, or the adverse effect upon
him) falls within the zone of interests sought to be protected by the statut[e] [or constitutional guarantee]
whose violation forms the legal basis for his complaint.”
Wyoming v. Oklahoma, 502 U.S. 437, 468-69 (1992) (emphases in original) (citation and quotation marks omitted). While it is true that the “zone of interests” test
first appeared in cases brought under the Administrative Procedure Act, 5 U.S.C. § 702, see Data Processing,
397 U.S. at 153, the Supreme Court has “made clear that
the same test similarly applies to claims under the Constitution in general[.]” Wyoming, 502 U.S. at 469. In
meet the following requirements: “(a) its members would otherwise have standing to sue in their own right; (b) the interests it seeks
to protect are germane to the organization’s purpose; and ( c) neither
the claim asserted nor the relief requested requires the participation
of individual members in the lawsuit.” Hunt v. Wash. State Apple
Advert. Comm’n, 432 U.S. 333, 343 (1977). ROC United lacks associational standing because none of its members—neither the restaurants nor restaurant workers—allege an injury in fact caused by Defendant’s alleged Emoluments Clause violations that will likely be
redressed by a favorable decision.

98a
fact, the Supreme Court has “indicated that it is more
strictly applied when a plaintiff is proceeding under a
constitutional . . . provision instead of the generous
review provisions of the APA.” Id. (emphasis in original) (citation and quotation marks omitted).
Nothing in the text or the history of the Emoluments
Clauses suggests that the Framers intended these provisions to protect anyone from competition. The prohibitions contained in these Clauses arose from the Framers’ concern with protecting the new government from
corruption and undue influence. Indeed, at the time of
the Founding, the new republic was conscious of the European custom of bestowing gifts and money on foreign
officials. The Framers, who fought a war to gain their
independence from British rule, wanted government officials to avoid future undue influence. As Edmund J.
Randolph explained at the Virginia Ratifying Convention,
The [Foreign Emoluments Clause] restrains any person in office from accepting of any present or emolument, title or office, from any foreign prince or state.
. . . This restriction is provided to prevent corruption.
Jonathan Elliot, The Debates in the Several State Conventions on the Adoption of the Federal Constitution,
465-66 (2d ed. 1891); (see also Br. of Former Gov’t Ethics Officers as Amici Curiae Supporting Pls., ECF No.
71-1, at 1 (stating that the Clauses “are an important
check on corruption, and a beacon for good governance.”).)
The Framers were not only concerned with foreign
corruption, but they were also wary of undue influence

99a
from within. To ensure the president’s independence
from the states and additional financial incentives from
the federal government, the Framers included in the
Constitution the Domestic Emoluments Clause. That
clause was meant to ensure that the president has “no
pecuniary inducement to renounce or desert the independence intended for him by the Constitution.” The
Federalist No. 73 (Alexander Hamilton). Evidently,
the Framers were concerned that
[T]he legislature, with a discretionary power over the
salary and emoluments of the [president], could render him as obsequious to their will as they might
think proper to make him. They might, in most
cases, either reduce him by famine, or tempt him by
largesses, to surrender at discretion his judgment to
their inclinations.
Id. The Clause also helps to ensure presidential impartiality among the states given that”[n]either the Union, nor any of its members, will be at liberty to give, nor
will he be at liberty to receive, any other emolument
than that which may have been determined by the first
act.” Id.
Given this history, there can be no doubt that the intended purpose of the Foreign Emoluments Clause was
to prevent official corruption and foreign influence,
while the Domestic Emoluments Clause was meant to
ensure presidential independence.
Therefore, the
Hospitality Plaintiffs’ theory that the Clauses protect
them from increased competition in the market for government business must be rejected, especially when (1)
the Clauses offer no protection from increased competition in the market for non-government business and (2)

100a
with Congressional consent, the Constitution allows federal officials to accept foreign gifts and emoluments, regardless of its effect on competition. With Congress’s
consent, the Hospitality Plaintiffs could still face increased competition in the market for foreign government business but would have no cognizable claim to redress in court. There is simply no basis to conclude
that the Hospitality Plaintiffs’ alleged competitive injury falls within the zone of interests that the Emoluments Clauses sought to protect.
The Hospitality Plaintiffs therefore lack Article III
standing.
B.

CREW Fails to Adequately Allege an Injury In Fact

Defendant contends that Plaintiff CREW’s claims
should be dismissed because it has failed to adequately
allege an injury in fact and thus also lacks standing to
sue. (Mot. at 8.) An organization like CREW can have
standing in one of two ways. As noted, an organization
may have associational standing to sue on behalf of its
members if some particular member of the organization
would have had standing to bring the suit individually.
N.Y. Civil Liberties Union v. N.Y.C. Transit Auth., 684
F.3d 286, 294 (2d Cir. 2012). Alternatively, an organization “may have standing in its own right to seek judicial relief from injury to itself and to vindicate whatever
rights and immunities the association itself may enjoy.”
Warth v. Seldin, 422 U.S. 490, 511 (1975). “Under this
theory of ‘organizational’ standing, the organization is
just another person—albeit a legal person—seeking to
vindicate a right.” N.Y. Civil Liberties Union, 684
F.3d at 294. In either case, “the organization must
‘meet the same standing test that applies to individuals
by showing [an] actual or threatened injury in fact that

101a
is fairly traceable to the alleged illegal action and likely
to be redressed by a favorable court decision.’ ” Irish
Lesbian & Gay Org. v. Guiliani, 143 F.3d 638, 649 (2d
Cir. 1998) (quoting Spann v. Colonial Vill., Inc., 899
F.2d 24, 27 (D.C. Cir. 1990)). In other words, “[a]n organization’s abstract concern with a subject that could
be affected by an adjudication does not substitute for
the concrete injury required by Art. III.” Simon, 426
U.S. at 40.
CREW does not allege that it has any members
whose interests it seeks to represent here, nor does it
otherwise purport to have associational standing. Rather, it asserts it has standing to bring this action because it suffers an injury in its own right, namely a “diversion[] of CREW’s communications, legal, and research resources . . . and [the] impairment of its
programmatic functions.”
(Opp’n at 27.)
CREW
claims that by accepting payments to his businesses that
are “rarely public,” Defendant has deprived it of information concerning the financial support he receives
from various governmental sources, “necessitating time
consuming, more expensive, and less effective research
to maintain its work.” (Id.) CREW also asserts that
it has had to devote significant resources to identify and
counteract Defendant’s alleged violations of the Emoluments Clauses, including through the use of “every
member of CREW’s research team on a near-daily basis” and “the hiring of two additional senior attorneys,”
as well as its efforts to explain the alleged violations to
stakeholders, including the press, and assist and counsel
others in counteracting Defendant’s alleged violations.
(Id. at 28.) CREW claims that these expenditures have
all come “at the detriment of CREW’s efforts to perform

102a
mission-critical work that it would otherwise perform.”
(Id.)
Defendant argues that CREW lacks standing because it fails to allege sufficient injury in fact resulting
from Defendant’s alleged violations of the Emoluments
Clauses. (Mot. at 8.) In particular, Defendant claims
that CREW’s voluntary diversion of resources, and the
type of injury it claims to have suffered as a result, is
“self-inflicted” and too abstract to confer standing.
(Id. at 8-9.)
CREW’s organizational standing argument relies
principally on the Supreme Court’s decision in Havens
Realty Corp. v. Coleman, 455 U.S. 363 (1982), and its
progeny. In Havens, Housing Opportunities Made
Equal (“HOME”), a nonprofit corporation, brought suit
alleging that the defendants tried to steer members of
racial and ethnic groups to buildings occupied primarily
by members of the same groups and away from buildings and neighborhoods inhabited primarily by members of other races or groups in violation of the Fair
Housing Act of 1968. Id. at 366-67 & n.1. The organization’s mission was to increase equal opportunity in
housing through, among other ways, operating a housing counseling service and investigating and referring
complaints concerning housing discrimination. HOME
argued that it had standing because these activities
were frustrated by the defendants’ conduct. Id. at 36869. The Court held that HOME would suffer an injury
in fact if the defendants’ racial steering practices “perceptibly impaired” its ability to provide counseling and
referring services to its members: “[s]uch concrete
and demonstrable injury to the organization’s activities
—with the consequent drain on the organization’s

103a
resources—constitutes far more than simply a setback
to the organization’s abstract social interests[.]” Id. at
379.
Following Havens, the Second Circuit has held that
an organization has standing where the defendant’s conduct or policy interferes with or burdens an organization’s ability to carry out its usual activities. See, e.g.,
Centro de la Comunidad Hispana de Locust Valley v.
Town of Oyster Bay, 868 F.3d 104, 110 (2d Cir. 2017)
(“[I]f the Ordinance achieves one of its principal
objectives-disbursement of day laborers—[the organization] will inevitably face increased difficulty in meeting
with and organizing those laborers.”); NY Civil Liberties Union, 684 F.3d at 295 (the organization’s ability to
represent its clients in administrative hearings was “impeded” by the defendant’s policy barring public access
to such hearings). These decisions found organizational standing under Havens appropriate where there
was a clear, articulable nexus between the challenged
conduct or policy and its effects on the organization’s
ability to carry out specific functions within its purview.
Other Second Circuit decisions have extended Havens beyond the circumstance where an organization’s
activities are impaired per se. Those cases establish
that an organization has standing where it is forced to
expend resources to prevent some adverse or harmful
consequence on a well-defined and particularized class
of individuals. See, e.g., Centro, 868 F.3d at 110 (a local
ordinance regulating the ability of day laborers to solicit
employment will “force” the organization to expend
greater resources since “if the laborers are dispersed, it
will be more costly to reach them”); Olsen v. Stark

104a
Homes, Inc., 759 F.3d 140, 158 (2d Cir. 2014) (the plaintiff, a nonprofit corporation devoted to fair-housing advocacy and counseling, expended resources to investigate its clients’ housing discrimination claims and advocate on their behalf); Mental Disability Law Clinic,
Touro Law Ctr. v. Hogan, 519 F. App’x 714, 716-17 (2d
Cir. 2013) (the plaintiff organization expended resources
to challenge the state mental health agency’s policy of
asserting counterclaims for outstanding treatment
charges against patients who sued the agency and
thereby discouraged patients from bringing such suits).
Though the plaintiff organizations in these cases each
pressed somewhat different claims, the common thread
is clear: an organization was compelled to act, “with a
consequent drain on [its] resources[,]” Havens, 455 U.S.
at 379, to remedy and counter the adverse consequences
flowing from the defendant’s conduct or policy. Put
differently, the organization’s expenditure of resources
is prompted by a desire to prevent or limit some harm
to a “legally protected interest.” Lujan, 504 U.S. at
560.
Here, CREW fails to allege either that Defendant’s
actions have impeded its ability to perform a particular
mission-related activity, or that it was forced to expend
resources to counteract and remedy the adverse consequences or harmful effects of Defendant’s conduct. As
noted, the plaintiff organizations in the cases cited by
CREW were all driven to expend resources they would
not have otherwise spent to avert or remedy some harm
to a definable class of protected interests—for example,
the right of individuals to pursue housing free from discrimination, or of day laborers to solicit employmentcaused by the defendant’s actions or policies. CREW,
by contrast, may have diverted some of its resources to

105a
address conduct it may consider unconstitutional, but
which has caused no legally cognizable adverse consequences, tangible or otherwise, necessitating the expenditure of organizational resources. 5 See New York
v. U.S. Army Corps of Eng’rs, 896 F. Supp. 2d 180, 195
(E.D.N.Y. 2012) (rejecting argument that organization
was injured by having to divert resources where “no
one’s concrete interests [were] invaded, [and thus] there
[was] no initial injury to counter”). CREW has therefore failed to allege that it has been “perceptibly impaired” by Defendant’s actions. Havens, 455 U.S. at
379. Divorced from any concrete and legally cognizable impact caused by Defendant’s conduct, CREW’ s allegations of injury amount to no more than an “abstract
concern with a subject that could be affected by an adjudication.” Simon, 426 U.S. at 40. As the Supreme
Court has made clear, “a mere ‘interest in a problem,’ no
matter how longstanding the interest and no matter how
qualified the organization is in evaluating the problem,
is not sufficient” to confer standing on an organization.
Sierra Club v. Morton, 405 U.S. 727, 739 (1972).
To be sure, CREW alleges that the time, money, and
attention it has diverted to this litigation from other projects have placed a significant drain on its limited resources. But such an allegation, by itself, is insufficient

Although CREW’s co-plaintiffs allege personal harm in the form
of increased competition, as explained above, those injuries are not
legally cognizable since they are neither fairly traceable to Defendant’s conduct, nor are they capable of being redressed by a favorable
decision on the merits. Moreover, as explained above, the harm
they allege falls outside the Emoluments Clauses’ zone of interests
since increased competition is not an interest that those Clauses
were designed to protect. See Part III.A.2.
5

106a
to establish an injury in fact. CREW’s decision to investigate and challenge Defendant’s actions under the
Domestic and Foreign Emoluments Clauses at the expense of its other initiatives reflects a choice about
where and how to allocate its resources—one that almost all organizations with finite resources have to
make. 6 (See SAC ¶ 175 (“[I]t is essential that CREW
prioritize Defendant’s violations of the Emoluments
Clauses and conflicts of interest over those of lower level
officials”) (emphasis added).) If CREW could satisfy
the standing requirement on this basis alone, it is difficult to see how any organization that claims it has directed resources to one project rather than another
would not automatically have standing to sue. Under
CREW’s unbounded definition of standing, for example,
a news organization could sue the President by alleging
that one or more of his statements forced it to divert resources away from a different story it might have pursued. Surely something more is required to satisfy Article III standing, particularly where, as here, the plaintiff organization purports to be acting on behalf of the
public as a whole. (See id. ¶ 154.)
Moreover, CREW’s entire reason for being is to investigate and combat corruption and reduce the influence of money in politics through, among other things,
education, advocacy, and litigation. (Id. ¶¶ 21-22.)
CREW is thus not wasting resources by educating the
Similarly unavailing are CREW’s allegations that it has had to
expend resources responding to press inquiries. Again, those allegations concerning where and how CREW allocates its resources are
insufficient to constitute a legally cognizable injury in fact insofar as
they are entirely self-inflicted and not borne out of CREW’s need to
remedy any particular adverse consequence or harmful effect of Defendant’s conduct.
6

107a
public and issuing statements concerning the effects of
Defendant’s alleged constitutional violations or even by
filing suit; this is exactly how an organization like
CREW spends its resources in the ordinary course. It
therefore stands to reason that spending resources to
investigate and challenge Defendant’s alleged violations
of the Domestic and Foreign Emoluments Clauses does
not itself impose on CREW a concrete or particularized
injury. See Doe v. Vill. of Mamaroneck, 462 F. Supp.
2d 520, 542 (S.D.N.Y. 2006); Small v. Gen. Nutrition
Cos., Inc., 388 F. Supp. 2d 83, 95 (E.D.N.Y. 2005).
The Second Circuit’s decision in Ragin v. Harry
Macklowe Real Estate Co., 6 F.3d 898 (2d Cir. 1993),
which CREW relies on, (Opp’n at 28-29), does not suggest a contrary result. In Ragin, the plaintiff organization brought suit under the Fair Housing Act challenging the defendant’s racially discriminatory advertising practices. 6 F.3d at 901. The court found that the
organization had standing because it “was forced” to
spend time investigating and remedying the advertisements, including through filing an administrative complaint and a lawsuit in federal court, which prevented it
from devoting more time and energy to its “regular
tasks” of providing counseling and referral services.
Id. at 905. In addition, the court noted, “[t]hat some of
the [organization’s] time was spent exclusively on litigating this action [did] not deprive [it] of standing.”
Id. (emphasis added). Here, CREW alleges that it was
injured by having to divert resources to investigate and
counteract Defendant’s constitutional violations. But
nearly all of the resources it expended were either in
anticipation or direct furtherance of this litigation.
Ragin is thus distinguishable.

108a
Nnebe v. Daus, 644 F.3d 147 (2d Cir. 2011), is similarly distinguishable. There, the plaintiff organization
brought suit under 42 U.S.C. § 1983 and the First and
Fourteenth Amendments challenging an administrative
rule pursuant to which taxi drivers’ licenses were automatically suspended upon arrest for certain enumerated
criminal charges. 644 F.3d at 149. The court recognized a circuit split on the issue of whether “litigation
expenses alone [can] constitute damage sufficient to
support standing” but reaffirmed Ragin as “good law”
and observed that contrary decisions were “largely concerned with the capacity of organizations to ‘manufacture’ standing by bringing a suit.” Id. (citations omitted). One such case, for example, involved a claim by
an organization that it “suffered palpable injury when it
was forced to divert resources to investigat[e] . . .
classified advertisements placed in the defendant newspapers . . . for evidence of discrimination.” Id.
(quoting Fair Hous. Council of Suburban Phila. v. Montgomery Newspapers, 141 F.3d 71, 78 (3d Cir. 1998)). In
Nnebe, the court noted that the plaintiff organization
was not “trolling for grounds to litigate” but rather “allocated resources to assist drivers only when another
party—the City—ha[d] initiated proceedings against
one of its members.” 644 F.3d at 157-58.
Unlike the plaintiff organization in Nnebe, CREW
did not expend resources in response to an “unbidden
injury.” Centro, 868 F.3d at 122 (Jacobs, J., dissenting). Rather, it sought out and voluntarily undertook
efforts to investigate, research, and ultimately bring
suit over Defendant’s allegedly unlawful conduct, raising the prospect of manufactured standing, about which
courts are justifiably concerned. See Steel Co. v. Citi-

109a
zens for a Better Env’t, 523 U.S. 83, 107 (1998) (“Obviously, . . . a plaintiff cannot achieve standing to litigate a substantive issue for the cost of bringing suit.”);
Spann, 899 F.2d at 27 (“An organization cannot, of course,
manufacture the injury necessary to maintain a suit
from its expenditure of resources on that very suit.
Were the rule otherwise, any litigant could create injury
in fact by bringing a case, and Article III would present
no real limitation.”) (Ginsburg, J.).
Since Plaintiff CREW has failed to adequately plead
a cognizable injury in fact, it lacks standing to sue under
Article III.
IV. PRUDENTIAL CONSIDERATIONS

In addition to the other grounds upon which he seeks
dismissal, Defendant argues that Plaintiffs’ claims under the Foreign Emoluments Clause should be dismissed
for certain prudential reasons. First, Defendant argues
that Plaintiffs’ claims are better left resolved through the
“political process,” rather than the courts, because Congress is “far better equipped” to address whether Defendant’s particular activities violate the Foreign Emoluments Clause. (Opp’n at 50.) Defendant points out
that Congress has more tools at its disposal, including
the ability to legislate and consent to Foreign Emoluments Clause violations. (Id.)
Defendant seems to argue, without explicitly stating
so, that the “political question” doctrine bars Plaintiffs’
claims. The doctrine would suggest that Plaintiffs’ suit
presents a political issue that should be resolved between Congress and the President, without any preemptive interference from the Judiciary.

110a
Plaintiffs’ Foreign Emoluments Clause claims do implicate political question concerns. The political question doctrine has its roots in the separation of powers
and is ultimately a doctrine of justiciability. It bars
courts from deciding cases that are inappropriate for judicial resolution based on a lack of judicial authority or
competence, or other prudential considerations. As
originally articulated by the Supreme Court in Baker v.
Carr, a case may be dismissed on the basis of the political question doctrine if there exists: “[1] a textually demonstrable constitutional commitment of the issue [at
hand] to a coordinate political department; [2] a lack of
judicially discoverable and manageable standards for
resolving it; [3] the impossibility of deciding without an
initial policy determination of a kind clearly for nonjudicial discretion; [4] the impossibility of a court’s undertaking independent resolution without expressing lack
of the respect due coordinate branches of government;
[5] an unusual need for unquestioning adherence to a political decision already made; or [6] the potentiality of
embarrassment from multifarious pronouncements by
various departments on one question.” 369 U.S. 186,
217 (1962).
Each of these factors may serve as an independent
ground for dismissal. See Vieth v. Jubelirer, 541 U.S.
267, 277-78 (2004). The first factor addresses a court’s
legal authority to resolve the particular issue presented,
the second and third focus on the Judiciary’s competence to do so, and the final three concern prudential
considerations that may counsel against a court’s resolution of the issue. The Baker factors are generally
viewed as being listed in descending order of importance.
Vieth, 541 U.S. at 278. In fact, cases applying Baker
have placed a disproportionate emphasis on the first two

111a
factors. See Alperin v. Vatican Bank, 410 F.3d 532,
545 (9th Cir. 2005) (collecting cases).
Here, the issue presented under the Foreign Emoluments Clause is whether Defendant can continue to receive income from his business with foreign governments without the consent of Congress. As the explicit
language of the Foreign Emoluments Clause makes
clear, this is an issue committed exclusively to Congress.
As the only political branch with the power to consent to
violations of the Foreign Emoluments Clause, Congress
is the appropriate body to determine whether, and to
what extent, Defendant’s conduct unlawfully infringes
on that power. If Congress determines that an infringement has occurred, it is up to Congress to decide whether to challenge or acquiesce to Defendant’s conduct.
As such, this case presents a non-justiciable political
question.
Defendant also suggests that Plaintiffs’ case should
be dismissed because Congress has yet to take any action with respect to Defendant’s alleged violations of the
Foreign Emoluments Clause. Defendant notes that if
Congress wanted to do something about Defendant’s
conduct, it could. (Opp’n at 50.) Congress could, for example, enact legislation codifying its views by statute or
expand the Constitution’s conflict-of-interest protections. (Id.) But, because Congress has yet to take
any action with respect to Defendant’s alleged violations, Defendant contends that Plaintiffs’ Foreign Emoluments Clause claims are premature. (See id.)
Plaintiffs’ Foreign Emoluments Clause claims are indeed not ripe for judicial review. Ripeness is a different justiciability doctrine designed to prevent courts
from prematurely adjudicating cases. See Abbot Labs.

112a
v. Gardner, 387 U.S. 136, 148-49 (1976). In Goldwater
v. Carter, 444 U.S. 996 (1979), Justice Powell articulated
a test to be used in cases involving a confrontation between the legislative and executive branches to determine whether the issue presented was ripe for review,
which is particularly instructive here. In that case,
members of Congress brought suit against President
Carter after he announced his intention to unilaterally
terminate a mutual defense treaty between the United
States and Taiwan. Goldwater v. Carter, 617 F.2d 697,
700-01 (D.C. Cir. 1979), vacated, 444 U.S. 996 (1979).
The plaintiffs there claimed that such action, without
ratification from the Senate, infringed upon Congress’s
treaty power. Id. The D.C. Circuit reversed the
lower court’s ruling and held that the President did not
exceed his constitutional authority in terminating the
treaty. Id. at 709.
In remanding the case with instructions to dismiss
the complaint, Justice Powell stated that “a dispute between Congress and the President is not ready for judicial review unless and until each branch has taken action
asserting its constitutional authority.” Goldwater, 444
U.S. at 996. He noted further that “[t]he Judicial Branch
should not decide issues affecting the allocation of power
between the President and Congress until the political
branches reach a constitutional impasse.” Id. In the
Goldwater case, Justice Powell explained that no such
impasse had been reached because Congress had yet to
take any action either denouncing or approving the
President’s actions. 7 Id. at 998.
Subsequent cases have followed Justice Powell’s reasoning in
Goldwater in dismissing a case on ripeness grounds. See, e.g.,
Sanchez-Espinoza v. Reagan, 770 F.2d 202, 210 (D.C. Cir. 1985)
7

113a
Here, Plaintiffs’ suit implicates a similar concern regarding a conflict between two coequal branches of government that has yet to mature. As indicated earlier,
the Foreign Emoluments Clause makes clear that Congress, and Congress alone, has the authority to consent
to violations of that clause. Plaintiffs’ principal allegation is that Defendant has completely ignored this balance of power by continuing to accept emoluments without Congressional approval. (SAC ¶¶ 39-42.) As
such, this case involves a conflict between Congress and
the President in which this Court should not interfere
unless and until Congress has asserted its authority and
taken some sort of action with respect to Defendant’s
alleged constitutional violations of its consent power. 8
At this stage, it would be “both premature and presumptuous for [a court] to render a decision on the issue
of [whether Congress’s consent] is required at this time
or in the near future when . . . Congress itself has
provided no indication whether it deems such [consent]
either necessary, on the one hand, or imprudent, on the
other.” Dellums v. Bush, 752 F. Supp. 1141, 1149-50
(D.D.C. 1990). If Congress wishes to confront Defendant over a perceived violation of the Foreign Emoluments Clause, it can take action. However, if it chooses
not to, “it is not [this Court’s] task to do so.” Goldwater, 444 U.S. at 998. This Court will not tell Congress
(Ginsburg, J., concurring); Dellums v. Bush, 752 F. Supp. 1141, 114951 (D.D.C.1990); Lowry v. Reagan, 676 F. Supp. 333, 339 (D.D.C.
1987).
8
Congress is not a potted plant. It is a co-equal branch of the
federal government with the power to act as a body in response to
Defendant’s alleged Foreign Emoluments Clause violations, if it
chooses to do so.

114a
how it should or should not assert its power in responding to Defendant’s alleged violations of the Foreign
Emoluments Clause. In short, unless and until Congress speaks on this issue, Plaintiffs’ Foreign Emoluments Clause claims are not ripe for adjudication.
V. CONCLUSION

Defendant’s motion to dismiss is GRANTED. Accordingly, Plaintiffs’ claims and this case are DISMISSED.
Dated: New York, New York
Dec. 21, 2017
SO ORDERED
/s/ GEORGE B. DANIELS
GEORGE B. DANIELS
United States District Judge

115a
APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

No. 18-474-cv
CITIZENS FOR RESPONSIBILITY AND ETHICS IN
WASHINGTON, RESTAURANT OPPORTUNITIES
CENTERS UNITED, INC., JILL PHANEUF,
ERIC GOODE, PLAINTIFFS-APPELLANTS
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY AS
PRESIDENT OF THE UNITED STATES OF AMERICA,
DEFENDANT-APPELLEE
Filed: Aug. 17, 2020
Present: ROBERT A. KATZMANN, Chief Judge, JOSÉ
A. CABRANES, ROSEMARY S. POOLER, PETER W. HALL,
DEBRA ANN LIVINGSTON, DENNY CHIN, RAYMOND J.
LOHIER, JR., SUSAN L. CARNEY, RICHARD J. SULLIVAN,
JOSEPH F. BIANCO, WILLIAM J. NARDINI , STEVEN J.
MENASHI, Circuit Judges.
Following disposition of this appeal on September 13,
2019, a judge of the Court requested a poll on whether
to rehear the case en banc. A poll having been conducted and there being no majority favoring en banc review, rehearing en banc is hereby DENIED.
JOSÉ A. CABRANES, Circuit Judge, dissents by opinion from the denial of rehearing en banc.

116a
STEVEN J. MENASHI, Circuit Judge, joined by Debra
Ann Livingston and Richard J. Sullivan, Circuit Judges,
dissents by opinion from the denial of rehearing en banc.
JOHN M. WALKER, JR., Circuit Judge, filed a statement with respect to the denial of rehearing en banc.
PIERRE N. LEVAL, Circuit Judge, filed a statement
with respect to the denial of rehearing en banc.
MICHAEL H. PARK, Circuit Judge, took no part in the
consideration or decision of this petition.
FOR THE COURT:
CATHERINE O’HAGAN WOLFE, CLERK

117a
JOSÉ A. CABRANES, Circuit Judge, dissenting from the
order denying rehearing en banc:
I respectfully dissent from the order denying rehearing of this case en banc. 1
We have missed an opportunity to address en banc a
“question of exceptional importance,” Fed. R. App. P.
35(a)(2), regarding the limits of the judicial power under
Article III of the Constitution in addressing a constitutional claim against a President. The exceptional importance of the case is beyond dispute and its portentousness, which made rehearing en banc appropriate, is
effectively captured in Judge Walker’s “Statement” in
response to the order denying rehearing en banc and
Judge Menashi’s comprehensive discussion of the principles of Article III standing.
As Justice Robert H. Jackson aptly reminded us, “because our own jurisdiction is cast in terms of ‘case or
controversy,’ we cannot accept as the basis for review,
nor as the basis for conclusive disposition of an issue of
federal law without review, any procedure which does
not constitute [a true case or controversy].” Doremus
v. Bd. of Ed. of Borough of Hawthorne, 342 U.S. 429, 434
(1952); see also Arizona Christian Sch. Tuition Org. v.
Winn, 563 U.S. 125, 135 (2011) (noting that Justice Jackson’s opinion in Doremus “reiterated the foundational
role that Article III standing plays in our separation of
powers”). We are not authorized to review a constitutional violation unless there is an adequate showing that
the party bringing the lawsuit is in fact sustaining or “is
immediately in danger of sustaining some direct injury,”
such as a “direct dollars-and-cents injury,” as a result of
1

I have not solicited concurrences for my opinion.

118a
the challenged unconstitutional conduct by the President. Doremus, 342 U.S. at 434 (internal quotation
marks omitted) (quoting Commonwealth of Massachusetts v. Mellon, 262 U.S. 447, 486 (1923)).
It is worth underscoring that only the threshold
question of plaintiffs’ constitutional standing at the
pleading stage has been resolved by our Court. We are
far from the finish line—the resolution of the merits of
the plaintiffs’ claims lies before us. On remand, the
District Court will need to determine whether the operative complaint in this case states a claim upon which
relief can be granted. In conducting this inquiry, the
District Court likely will need to address various issues
that have yet to be resolved by the Court of Appeals,
including whether: (1) the Foreign and Domestic Emoluments Clauses in the Constitution create a privately
enforceable right of action against the President; and (2)
the plaintiffs’ asserted interests fall within the zone of
interests protected by the Emoluments Clauses. In
carefully addressing these threshold issues on remand,
at the motion-to-dismiss stage, the District Court will be
able to determine in the first instance whether the case
should be dismissed on the merits pursuant to Federal
Rule of Civil Procedure 12(b)(6).

119a
MENASHI, Circuit Judge, joined by LIVINGSTON and
SULLIVAN, Circuit Judges, dissenting from the denial of
rehearing en banc:
The owner of several New York-based hotels and restaurants, along with an association of restaurants and
restaurant workers, sued the President of the United
States alleging violations of the Emoluments Clauses of
the Constitution. These restauranteurs seek a judicial
declaration that the President is acting unconstitutionally and an injunction restraining him from doing so.
To invoke the judicial power against any defendant, a
plaintiff must establish standing to sue—meaning that
there is a concrete case or controversy between the
plaintiff and the defendant. “[N]o principle is more
fundamental to the judiciary’s proper role in our system
of government than the constitutional limitation of
federal-court jurisdiction to actual cases or controversies.” DaimlerChrysler Corp. v. Cuno, 547 U.S. 332,
341 (2006). The standing requirement “serves to prevent the judicial process from being used to usurp the
powers of the political branches.” Clapper v. Amnesty
Int’l USA, 568 U.S. 398, 408 (2013). For that reason,
when a plaintiff asks a court “to decide whether an action taken by one of the other two branches of the Federal Government was unconstitutional,” the standing inquiry must be “especially rigorous.” Id. Yet the majority opinion not only relaxes the ordinary rules of
standing; it abandons those rules altogether. Accordingly, I dissent from the denial of rehearing en banc.
To establish standing, a plaintiff must show that he
or she suffered an injury traceable to the defendant’s
conduct that the court could redress. Here, the restauranteurs argue that the President’s continued interest

120a
in the Trump Organization gives Trump-affiliated businesses an advantage in attracting customers who work
for foreign or state governments—because those customers think that eating at a Trump-affiliated restaurant or staying at a Trump-affiliated hotel will enrich
the President and thereby curry favor with him.
Are there plausible allegations of this? The majority opinion believes so; it cites a press report about foreign diplomats planning to patronize the Trump International Hotel in Washington D.C. 1 The majority also
relies on the allegation, based on another press report,
that the Embassy of Kuwait moved an event to the
Trump International from the Four Seasons after the
President was elected. 2 But the Four Seasons Hotel is
not suing the President. In fact, no owner of any hotel
in Washington D.C. is a plaintiff in this case, and the
plaintiffs here cannot sue on behalf of parties not before
the court. “Injured parties ‘usually will be the best
proponents of their own rights,’ ” and if “ ‘the holders of
those rights do not wish to assert them,’ third parties
are not normally entitled to step into their shoes.”
Domino’s Pizza, Inc. v. McDonald, 546 U.S. 470, 479
(2006) (internal citation and alteration omitted).
So why does the majority opinion discuss injuries to
Washington-based hotels that are not plaintiffs in this
case? Because the actual plaintiffs have no evidence of
their own injury. They have only a theory of injury,
which goes like this: Officials from foreign and state
Citizens for Responsibility & Ethics in Wash. v. Trump, 953
F.3d 178, 186 (2d Cir. 2019), as amended (Mar. 20, 2020) (citing
Jonathan O’Connell & Mary Jordan, For Foreign Diplomats,
Trump Hotel Is Place To Be, WASH. POST (Nov. 18, 2016)).
2
Id. at 187 (citing Second Am. Compl. (“Compl.”) ¶ 74).
1

121a
governments would normally eat at (for example) Amali,
a Mediterranean restaurant on the Upper East Side of
Manhattan that is affiliated with one of the plaintiffs.
But because those officials want to curry favor with the
President by enriching him with emoluments, they instead eat at (for example) Jean-Georges, a French restaurant located at the Trump International Hotel on the
Upper West Side. 3 Does President Trump even own
Jean-Georges? The complaint does not allege that he
does. No matter. The complaint alleges that the business from foreign and state government officials dining
at restaurants on Trump properties is so extensive that
it “affects the amount of rent that [the President] is able
to charge,” thereby enriching the President. 4
Is it really the case that foreign and state government officials are abandoning the plaintiffs’ establishments in favor of restaurants located at Trump properties in the hopes of enhancing the President’s rental income? It’s possible, though one might justifiably be
skeptical. But if the jurisdiction of the court hinges on
the answer to that question, one might think the court
would require the plaintiffs to identify some evidence
that at least one official has actually chosen a Trumplocated restaurant over one of the plaintiffs’ restaurants
for an emoluments-based reason. But the plaintiffs
have no such evidence, and the majority opinion does not
think it is necessary. Instead, the majority opinion
Compl. ¶ 196 (“Trump International Hotel & Tower New York
includes restaurants Jean-George[s] and Nougatine.”); Mallios Decl.
¶ 4 (declaration of owner of Amali that his restaurant competes with
Jean-Georges, among other restaurants); see also CREW, 953 F.3d
at 186 (relying on the Mallios Declaration).
4
Compl. ¶ 109.
3

122a
finds the plaintiffs’ theory of injury so clearly compelling as a matter of “economic logic” that the court can
dispense with the normal requirement that standing be
based on a concrete injury rather than a speculative one.
No precept of logic or economics holds that foreign
and state government officials will necessarily alter
their dining preferences at high-end Manhattan restaurants out of a single-minded desire to give the President
additional leverage in lease negotiations with restaurants he does not own. It’s possible, perhaps, that this
has happened or will happen. But to establish standing, a plaintiff must demonstrate an injury that is “actual or imminent, not conjectural or hypothetical.”
Lujan v. Defs. of Wildlife, 504 U.S. 555, 560 (1992) (internal quotation marks omitted). If the injury is not
certain or “certainly impending” but merely “possible,”
the requirements of Article III are not met. Clapper,
568 U.S. at 409 (emphasis omitted). The “[r]elaxation
of standing requirements is directly related to the expansion of judicial power” beyond review of cases and
controversies toward evaluating government actions
that the plaintiffs happen to oppose. United States v.
Richardson, 418 U.S. 166, 188 (1974) (Powell, J., concurring). Because that expansion of judicial power is inconsistent with Article III—and for other reasons discussed below—I dissent from the denial of rehearing en
banc.
A.

Competitor Standing

Rehearing is needed, first and foremost, to “secure
or maintain uniformity of the court’s decisions” on the
competitor-standing doctrine. Fed. R. App. P. 35(a)(1).
This court has spoken inconsistently about the showing
a competitor must make to establish that its injury is

123a
“actual or imminent” and “fairly traceable” to the defendant’s conduct rather than conjectural or hypothetical. Clapper, 568 U.S. at 409. This court has said, for
example, that “in order to establish an injury as a competitor a plaintiff must show that he personally competes in the same arena with the party to whom the government has bestowed the assertedly illegal benefit” but
at the same time the court was concerned that by merely
“asserting that an advantage to one competitor adversely handicaps the others, plaintiffs have not pleaded
that they were personally” harmed. In re U.S. Catholic Conference, 885 F.2d 1020, 1029-30 (2d Cir. 1989)
(worrying that “a competitor advocate theory of standing” would “lack a limiting principle, and would effectively give standing to any spectator who supported a
given side in public political debate”). 5 In subsequent
cases on competitor standing, this court adopted the
first part of the Catholic Conference formulation without expressing the same concern that a plaintiff ought
to show personal harm beyond mere advantage to a competitor. “In order to ‘satisfy the rule that he was personally disadvantaged,’ ” the court said, “a plaintiff must
In Catholic Conference, the court concluded that the plaintiffs
were not electioneering competitors with the Catholic Church, 885
F.2d at 1029, but also concluded that they lacked standing as competitors in public advocacy because of a lack of a concrete injury,
see id. at 1030 (“It may be argued that to qualify as competitor advocates plaintiffs need not go so far as to run for office or lobby;
rather, they may simply advocate the pro-choice cause and stop
short of supporting candidates. But that argument fails to answer the nagging question of why these individuals and organizations are then the appropriate parties to call a halt to the alleged
wrongdoing. It is obvious that plaintiffs express their pro-choice
views strongly and articulately. Yet such strongly held beliefs are
not a substitute for injury in fact.”).
5

124a
‘show that he personally competes in the same arena
with the party to whom the government has bestowed
the assertedly illegal benefit.’ ” Ctr. for Reprod. Law
& Policy v. Bush, 304 F.3d 183, 197 (2d Cir. 2002) (concluding that it was enough to establish standing that “an
advocacy organization . . . competes with . . .
groups engaged in advocacy around the very same issues” and the government “bestowed a benefit on plaintiffs’ competitive adversaries”).
The majority opinion in this case repeats the relaxed
standard without the concern for establishing personal
harm: “To make an adequate allegation of a competitive injury, plaintiffs must plausibly allege (1) that an illegal act bestows upon their competitors ‘some competitive advantage,’ and (2) ‘that they personally compete
in the same arena’ as the unlawfully benefited competitor.” CREW, 953 F.3d at 190 (internal citation omitted). This idea—that a plaintiff may establish standing
by showing an advantage to a competitor without needing to show any personal harm to oneself—finds some
support in previous Second Circuit case law. But it is
irreconcilable with the Supreme Court’s instruction that
an injury must be “concrete,” “particularized,” and “certainly impending.” Clapper, 568 U.S. at 409. 6
This court already took a questionable turn when it applied case
law applicable to economic competitors to the political arena with
“a theory that this Court has dubbed ‘competitive advocate standing.’ ” Bush, 304 F.3d at 197 (“We have acknowledged the possibility that a plaintiff may have standing to bring an equal protection claim where the government’s allocation of a particular benefit
‘creates an uneven playing field’ for organizations advocating their
views in the public arena.”); Catholic Conference, 885 F.2d at 1030
(“Although the foregoing cases conferred standing to economic
competitors, political competitors arguably should fare as well.”).
6

125a
Perhaps recognizing that Supreme Court precedent
requires a more concrete showing, the majority opinion
cites cases from other circuits to support its assertion
that personal harm exists here as a matter of “economic
logic.” 953 F.3d at 190 (citing cases from the Fifth,
D.C., and Federal Circuits). But no other circuit assumes, as the majority opinion does, that “economic
logic” dictates a finding of personal harm whenever a
competitor has an advantage. Even the cases on which
the majority opinion relies demonstrate that other
courts require a greater showing than the relaxed standard. In KERM, Inc. v. FCC, 353 F.3d 57 (D.C. Cir.
2004), the court said that “[w]hile a party that is ‘likely
to be financially injured’ by a Commission decision may
have competitor standing to challenge Commission actions under the Act, that party must make a concrete
showing that it is in fact likely to suffer financial injury
as a result of the challenged action.” Id. at 60-61 (internal citations omitted and emphasis added). The
D.C. Circuit specifically said it was not enough for a
plaintiff to rely only on allegations that government action had provided a competitor with a competitive advantage:
KERM might have satisfied the requirements of
competitor standing if it had introduced evidence
that KAYH’s broadcast of the disputed announcements resulted in lost advertising revenues for
The majority opinion now applies this watered-down theory of
standing from the political context back to economic competitors.
But as the Supreme Court has recently explained, standing must
be “based on an injury more particularized and more concrete than
the mere assertion that something unlawful benefited the plaintiff ’s competitor.” Already, LLC v. Nike, Inc., 568 U.S. 85, 99
(2013).

126a
KERM or otherwise adversely affected KERM’s financial interests. KERM offered no such evidence.
Rather, KERM vaguely asserts only that it competes
with KAYH and that its own radio stations serve
much of the same audience as KAYH. Such “[b]are
allegations are insufficient . . . to establish a petitioner’s standing to seek judicial review of administrative action.”
Id. at 61 (relied on in CREW, 953 F.3d at 190).
KERM followed prior D.C. Circuit precedent that declined to apply the competitor-standing doctrine where
the plaintiffs’ causal chain “depends on the independent
actions of third parties,” as “distinguish[ed] . . . from
the garden variety competitor standing cases which require a court to simply acknowledge a chain of causation
firmly rooted in the basic law of economics.” New
World Radio v. FCC, 294 F.3d 164, 172 (D.C. Cir. 2002)
(internal quotation marks omitted).
The majority opinion also relies on Canadian Lumber Trade Alliance v. United States, 517 F.3d 1319 (Fed.
Cir. 2008). In that case, the Federal Circuit explained
that a plaintiff could properly “invoke the doctrine of
‘competitor standing,’ which relies on economic logic to
conclude that a plaintiff will likely suffer an injury-infact when the government acts in a way that increases
competition or aids the plaintiff ’s competitors,” only after the court below had “conducted a two-day evidentiary hearing devoted to the question of injury-in-fact”
that involved “expert testimony . . . concerning the
types of economic injury that were likely to result from
government subsidization of a competitor.”
Id. at
1332-33 (relied on in CREW, 953 F.3d at 190).

127a
These cases do not say that a plaintiff is personally
harmed as a matter of economic logic whenever that
plaintiff ’s competitor in the same market receives a benefit. Rather, the cases say that when a competitor receives a benefit, the plaintiff may be able to show that
personal harm follows as a matter of economic logic.
But the plaintiff must make that showing. The court
should not simply assume that economic logic compels a
finding of personal harm every time a plaintiff and defendant are competitors in the same market.
Thus, the majority opinion relies on Second Circuit
precedent to hold that a plaintiff need only meet the relaxed standard to establish competitor standing, and
then it relies on non-circuit precedent to hold that once
competitor standing has been established, a concrete injury traceable to the defendant has necessarily been
demonstrated as a matter of economic logic. But these
two lines of cases are incompatible. The “economic
logic” cases require the plaintiff to demonstrate that it
will “likely” or “almost surely” 7 suffer personal harm as
a result of the challenged actions, while the relaxed
standard takes personal harm for granted.
The majority opinion in this case did not require a
showing that the competition “almost surely” caused the
alleged injury. Rather, the majority thought it was
enough for the alleged competitive injury to consist of
See El Paso Nat. Gas Co. v. FERC, 50 F.3d 23, 27-28 (D.C. Cir.
1995) (“The nub of the ‘competitive standing’ doctrine is that when a
challenged agency action authorizes allegedly illegal transactions
that will almost surely cause petitioner to lose business, there is no
need to wait for injury from specific transactions to claim standing.
. . . [In the absence of such certainty, a plaintiff is] required to allege facts demonstrating ‘injury in fact.’ ”) (emphasis added).
7

128a
“revenue that might otherwise have gone to Plaintiffs”
and may be one among several “other possible, or even
likely, causes for the benefit going to the plaintiff ’s competition.” CREW, 953 F.3d at 191, 192 (emphasis added).
There is simply no way to reconcile the standard the majority applied here with the Supreme Court’s holding
that an injury must be “certainly impending” rather
than merely “possible.” Clapper, 568 U.S. at 409. 8
As noted, standing must be “based on an injury more
particularized and more concrete than the mere assertion that something unlawful benefited the plaintiff ’s
competitor.” Already, 568 U.S. at 99; see also In re
Trump, 958 F.3d at 294 (Wilkinson, J., dissenting) (“Generally speaking, freestanding ‘competitive injuries’ do not
constitute legal wrongs traditionally redressable by the
courts.”). But that is precisely the showing the majority opinion held to be sufficient in this case. And the
facts of this case show why such a theoretical “injury” is
insufficient—because it is not at all clear that foreign
and state government officials are choosing to eat at
Jean-Georges rather than Amali, or to stay at the
Trump SoHo New York rather than the Maritime Hotel
See also In re Trump, 958 F.3d 274, 327 (4th Cir. 2020) (en banc)
(Niemeyer, J., dissenting) (criticizing the majority opinion in CREW
because “rather than analyzing how the New York properties’ distribution of income to the President gives those properties a competitive advantage over their competitors, the Second Circuit simply
reiterated the causation standard at a highly general level and
stated that there was ‘a substantial likelihood that [the plaintiffs’]
injury [was] the consequence of the challenged conduct’ ” and because it “failed to explain . . . how a President’s direct receipt
of income from a hotel investment—as opposed to, for example, his
family members’ receipt of that income—could have skewed the
market in his favor”).
8

129a
in Chelsea, 9 because these officials want to enrich the
President. 10 The plaintiffs have not identified even a
single instance of that occurring. As the district court
sensibly noted, “it is wholly speculative whether the
Hospitality Plaintiffs’ loss of business is fairly traceable
to Defendant’s ‘incentives’ [i.e. ‘patroniz[ing] his properties in hopes of winning his affection’] or instead results from government officials’ independent desire to
patronize Defendant’s businesses.” Citizens for Responsibility & Ethics in Wash. v. Trump, 276 F. Supp.
3d 174, 186 (S.D.N.Y. 2017). 11
Markets vary in terms of whether increased competition will yield harm. In a single-transaction market
with 1000 buyers and two sellers, we might expect an
unfairly advantaged seller to take some business from
its competitor. But in a market with one buyer and
Compl. ¶ 228.
See In re Trump, 958 F.3d at 326 (Niemeyer, J., dissenting) (noting that the “theory of proprietary harm hinges on the conclusion
that government customers are patronizing the Hotel because the
Hotel distributes profits or dividends to the President, rather than
due to a more general interest in currying favor with the President
or because of the Hotel’s branding or other characteristics. Such a
conclusion, however, is not only economically illogical, but it also requires speculation into the subjective motives of independent actors
who are not before the court, thus precluding a finding of causation”).
11
“Standing . . . is not an ingenious academic exercise in the
conceivable but requires a factual showing of perceptible harm.”
Summers v. Earth Island Inst., 555 U.S. 488, 499 (2009) (internal
quotation marks and alterations omitted). In the context of associational standing, the Supreme Court has rejected “probabilistic
standing” and “required plaintiffs . . . to identify members
who have suffered the requisite harm,” even when it was accepted
that such a person “likely” exists. Id.
9

10

130a
1000 sellers, we know for sure that even if a seller has
been unfairly advantaged, at least 998 of the other
sellers have not suffered an injury because the buyer
was not choosing them anyway. Is the market for serving meals to foreign and state government officials more
like the first example or the second? The majority
opinion is not even interested in the question because it
simply assumes that whenever businesses compete over
the “same customer base,” an advantage for one is an
injury to all the others. CREW, 953 F.3d at 190. That
is indefensible. 12 “[F]or a federal court to have authority under the Constitution to settle a dispute, the party
before it must seek a remedy for a personal and tangible
harm.” Hollingsworth v. Perry, 570 U.S. 693, 704
(2013).

In his statement respecting the denial of rehearing en banc,
Judge Leval asserts that this dissent “posits” that the market for
high-end restaurants and hotels is one with many sellers and few
buyers. As you can see, this dissent posits no such thing. Rather,
it points out that the majority opinion did not even consider the question, impermissibly assuming—regardless of any concrete showing
about market features—that a benefit to one competitor injures all
the others. Judge Leval now insists that “there are nearly 200 nations in the world (and 50 states), many of which send delegates to
Washington or New York.” But the majority opinion cited no evidence that representatives of any government—let alone “many of ”
those 200 countries and 50 states—have patronized the plaintiffs’
restaurants and have shifted their business in order to enrich the
President. Judge Leval’s statement supplies speculation about the
potential buyers in the marketplace to take the place of the “concrete
injury” that Article III requires. Lujan, 504 U.S. at 572. But “allegations of possible future injury are not sufficient.” Clapper, 568
U.S. at 409 (internal quotation marks and alteration omitted).
12

131a
I would grant the petition for rehearing en banc and
hold that standing requires a showing of personal harm
rather than mere advantage to a competitor.
B.

Injunctive Relief Against the President

Rehearing is warranted also to address whether and
when injunctive relief may be granted directly against
the President. The majority opinion concludes that the
plaintiffs’ claims are redressable because the district
court could fashion various types of injunctive relief
against the President, see CREW, 953 F.3d at 199 n.12,
but the opinion never even acknowledges the disputed
antecedent question of the extent to which a court may
issue injunctive relief against the President. This is “a
question of exceptional importance” that deserves express consideration. Fed. R. App. P. 35(a)(2).
The majority opinion holds that the plaintiffs have established redressability because “[i]njunctive relief could
be fashioned along many different lines that would adequately reduce the incentive for government officials to
patronize Trump establishments in the hope of currying
favor with the President.” CREW, 953 F.3d at 199.
The opinion then suggests in a footnote that the district
court could (1)”bar the Trump establishments from selling services to foreign and domestic governments during the President’s tenure in office”; (2)”require the
President to establish a blind trust or otherwise prevent
him from receiving information about government patronage of his establishments”; or (3) “require public disclosure of the President’s private business dealings with
government officials through the Trump establishments.” Id. at 199 n.12.

132a
As the case is currently structured, each of these
forms of injunctive relief would run directly against the
President because the President, in his official capacity,
is the sole defendant. So we are talking about the district court ordering the President to direct his businesses to refuse to host diplomatic guests, to sell his assets and to place the proceeds into a blind trust, not to
discuss with foreign officials where they have lodged or
eaten, or to direct his hotels to announce to the public
whenever a foreign or state official stays there. The
majority opinion’s suggestion that a district court might
award such relief is so radical that the plaintiffs suing
the President over emoluments in a separate case have
disavowed it. 13
Other courts have concluded that such relief is not
available. For example, in a case challenging religious
displays at presidential inaugurations, the D.C. Circuit
concluded the plaintiffs lacked standing because any relief that could redress the alleged injury would need to
take the form of an injunction against the President and
“[w]ith regard to the President, courts do not have jurisdiction to enjoin him, and have never submitted the
President to declaratory relief.” Newdow v. Roberts,
603 F.3d 1002, 1013 (D.C. Cir. 2010) (internal citation
omitted). In this case, by contrast, the majority opinion does not grapple with the separation-of-powers question but simply assumes that injunctive relief is available against the President in his official capacity. To be

See Oral Argument Audio Recording at 1:14:13 to 1:14:16, In re
Trump, No. 18-2486 (4th Cir. Dec. 12, 2019) (counsel for plaintiffs
stating “I’m not advancing what the Second Circuit had in its footnote”).
13

133a
sure, the government argued to this court that such relief is not available, Brief for Appellee 42-43, but the majority opinion did not even pause to consider the government’s arguments.
The Supreme Court has long held that courts have
“no jurisdiction of a bill to enjoin the President in the
performance of his official duties” that are discretionary. Mississippi v. Johnson, 71 U.S. 475, 501 (1866).
That case, as well as the plurality opinion in Franklin v.
Massachusetts, 505 U.S. 788, 802-03 (1992), left open the
question whether courts have jurisdiction to enjoin the
President for duties that are “ministerial.” Several lower
courts, however, have held or suggested that courts lack
jurisdiction to order injunctive relief directly against the
President even for so-called ministerial acts. See, e.g.,
Swan v. Clinton, 100 F.3d 973, 977-78 (D.C. Cir. 1996);
Lovitky v. Trump, No. 19-1454, 2019 WL 3068344, at *10
(D.D.C. July 12, 2019) (“Notwithstanding some lingering uncertainty, the Court takes Supreme Court and recent Circuit decisions as supplying enough direction:
This Court should not grant mandamus, injunctive, or
declaratory relief against a sitting President to require
performance of a ministerial duty.”), aff ’d in part, vacated in part on other grounds, 949 F.3d 753 (D.C. Cir.
2020). 14
Justice Scalia suggested that the proper inquiry
should not be whether the duty is discretionary or min-

See also In re Trump, 958 F.3d at 299 (Wilkinson, J., dissenting)
(arguing that “compliance with the Emoluments Clauses is not a
‘ministerial duty’ ” and noting that, regardless, “the federal courts
have never sustained an injunction” that required the President to
perform a ministerial duty).
14

134a
isterial but whether a court would be ordering the President “to exercise the ‘executive Power’ in a judicially
prescribed fashion.” Franklin, 505 U.S. at 826 (Scalia,
J., concurring); see also Swan, 100 F.3d at 989-90 (Silberman, J., concurring). In Justice Scalia’s view, telling the President how to exercise the executive power
would be tantamount to telling a member of Congress to
vote to pass or repeal a particular law. Franklin, 505
U.S. at 826 (Scalia, J., concurring). 15
It is not immediately obvious whether the injunctions
the majority opinion hypothesizes would direct the exercise of the executive power. On the one hand, owning
a business is a private function; on the other hand, ordering affairs to avoid emoluments is a duty that applies
to the President only because he is the President, U.S.
Const. art. II, § 7, or because he may be a “Person holding an[] Office of Profit or Trust under” the United
States, id. art. I, § 9. 16 That the plaintiffs have sued the
President only in his official capacity at least suggests
that the sought-after relief relates to his official powers.
But even if one were confident that the injunction related to the President’s personal conduct, an “interbranch conflict . . . does not vanish simply because”
Justice Scalia’s view was not limited to injunctive relief. He
noted that “[f]or similar reasons, I think we cannot issue a declaratory judgment against the President. It is incompatible with his
constitutional position that he be compelled personally to defend his
executive actions before a court.” Franklin, 505 U.S. at 827 (Scalia,
J., concurring).
16
That is, assuming the Foreign Emoluments Clause applies to
the President. Compare Amici Br. of Former National Security
Officials at 13-17 (arguing the clause applies to the President), with
Amici Br. of Seth Barrett Tillman & the Judicial Education Project
at 16-25 (arguing it does not).
15

135a
legal process relates to “personal” matters “or because
the President [was] sued in his personal capacity. The
President is the only person who alone composes a
branch of government,” and therefore “ ‘[t]he interest of
the man’ is often ‘connected with the constitutional
rights of the place.’ ” Trump v. Mazars USA, LLP, 140
S. Ct. 2019, 2034 (2020) (quoting The Federalist No. 51).
The court’s authority to issue injunctive relief in this
case presents a difficult and important question regarding the separation of powers. The majority opinion
should have addressed that question instead of assuming it away. 17
Even if injunctive relief were not available, that does
not “in any way suggest[] that Presidential action is unreviewable. Review of the legality of Presidential action can ordinarily be obtained in a suit seeking to enjoin
the officers who attempt to enforce the President’s directive.” Franklin, 505 U.S. at 828 (Scalia, J., concurring). For example, in Youngstown Sheet & Tube Co.
v. Sawyer, 343 U.S. 579 (1952), the Supreme Court found
presidential action unconstitutional but then approved
The Fourth Circuit’s en banc majority opinion concluded that
such relief could be issued against the President because the Emoluments Clauses impose a restraint on his behavior rather than an
affirmative duty to execute the law and because complying with the
Clauses is a ministerial function. In re Trump, 958 F.3d at 288.
There is some reason to doubt those conclusions. See id. at 299300 (Wilkinson, J., dissenting); id. at 324 (Niemeyer, J., dissenting); see also Swan, 100 F.3d at 990 (Silberman, J., concurring)
(noting that “whether such an order is phrased as an injunction—
ordering the President not to take an allegedly illegal act—or
positively—to perform a legally obliged duty—it trenches on the
President’s ‘executive and political’ duties”). But at least the
Fourth Circuit, unlike this court, put forward a rationale for its decision.
17

136a
injunctive relief only against the Secretary of Commerce. Id. at 584, 587-89. 18 By analogy in this case, a
plaintiff who loses a government contract due to favoritism that results from illegal emoluments might be able
to sue the agency or inferior executive officer who is responsible for awarding the contract in order to redress
the Emoluments Clause violation. Doing so would
avoid the need to consider injunctive relief against the
President. This more conventional approach might
also indicate who the proper plaintiff would be in a case
such as this.
The question of whether and when a court can issue
injunctive relief against the President is squarely raised
in this case and is undoubtedly an issue of “exceptional
importance.” Fed. R. App. P. 35(a)(2). The majority
opinion resolved it without analysis. It deserves more
consideration than that.
C.

Zone of Interests

On rehearing, the panel has commendably removed
the portion of its opinion addressing the zone-of-interests
test on the merits. See CREW, 953 F.3d at 200 n.13.
In doing so, the panel recognized that it was mistaken to
opine on the merits of the zone-of-interests test when its
only point was that the test goes not to subject matter
jurisdiction but to the availability of a cause of action.
The panel emphasizes that it deleted that discussion so
as not to create “a precedent on the question whether
See also Knight First Amendment Inst. v. Trump, 302 F. Supp.
3d 541, 579 (S.D.N.Y. 2018) (declining to “resolve the question of
whether injunctive relief may be awarded against the President”
and recognizing that “courts should normally direct legal process
to a lower Executive official”), aff ’d, 928 F.3d 226 (2d Cir. 2019).
18

137a
the Complaint states a claim upon which relief may be
granted.” Id. In other words, the court holds only
that the district court erred in treating the zone-ofinterests analysis as a reason for dismissal under Rule
12(b)(1), and the district court remains free to re-instate
its zone-of-interests analysis when considering dismissal under Rule 12(b)(6).
That is a welcome change because the district court’s
zone-of-interests analysis was correct on the merits.
The district court rightly concluded that the zone-ofinterests inquiry is narrower where, as here, the suit is
based on an implied cause of action under the Constitution rather than under the generous review provisions
provided by the Administrative Procedure Act. CREW,
276 F. Supp. 3d at 187. 19 The prior majority opinion
unfairly criticized that conclusion and faulted the district court for relying on Justice Scalia’s dissent in Wyoming v. Oklahoma, 502 U.S. 437 (1992). 20 But that
passage from Justice Scalia’s dissent simply described

19
See also In re Trump, 958 F.3d at 296-97 (Wilkinson, J., dissenting) (“[T]he government action complained of here is not
‘agency’ action subject to the ‘generous’ review provisions of the
APA.”).
20
See Citizens for Responsibility & Ethics in Wash. v. Trump,
939 F.3d 131, 157 n.13 (2d Cir. 2019) (“Puzzlingly, the district court
cited a passage from Justice Scalia’s dissenting opinion in Wyoming seemingly as though it were the holding of the case.”). A
vestige of this unfair criticism remains in the revised opinion, see
CREW, 953 F.3d at 188 n.6 (“The district court appeared to mistakenly rely on Justice Scalia’s dissent in Wyoming as if it were a
statement by the majority about the proper application of the zone
of interests test.”), though this passage in the revised opinion
cross-references a portion of the opinion that has now been deleted.

138a
what the Supreme Court had stated in Clarke v. Securities Industry Ass’n, 479 U.S. 388 (1987)—that “the invocation of the ‘zone of interest’ test” in a constitutional
case “should not be taken to mean that the standing inquiry under whatever constitutional or statutory provision a plaintiff asserts is the same as it would be if the
‘generous review provisions’ of the APA apply.” Id. at
400 n.16. The Clarke Court went on to explain that the
“difference made by the APA can be readily seen by
comparing the ‘zone of interest’ decisions” in APA cases
“with cases in which a private right of action under a
statute is asserted in conditions that make the APA inapplicable.” Id. In non-APA cases, the Court “was
requiring more from the would-be plaintiffs
. . .
than a showing that their interests were arguably within
the zone protected or regulated” by the statute. Id.
The Supreme Court has since reaffirmed that proposition from Clarke. See Bennett v. Spear, 520 U.S. 154,
163 (1997) (“We have made clear . . . that the breadth
of the zone of interests varies according to the provisions of law at issue, so that what comes within the zone
of interests of a statute for purposes of obtaining judicial
review of administrative action under the ‘generous review provisions’ of the APA may not do so for other purposes.”) (quoting Clarke, 479 U.S. at 400 n.16).
The original panel opinion erroneously concluded
that the Supreme Court has rejected the distinction that
Justice Scalia described. 21 As a result, the opinion treated
zone-of-interests cases under the APA as applicable

CREW, 939 F.3d at 157 n.13 (concluding that, even though “[t]he
majority [in Wyoming] did not explicitly discuss this argument,” it
must have “rejected Justice Scalia’s contention”).
21

139a
precedents in a case arising under the Constitution.22
For example, it described the Supreme Court’s holding
in Lexmark International, Inc. v. Static Control Components, 572 U.S. 118 (2014), as extending “the longstanding view that the [zone-of-interests] test is ‘not
meant to be especially demanding.’ ” CREW, 939 F.3d
at 154 (quoting Clarke, 479 U.S. at 399). But the Court
has been careful to qualify this statement: “We have
said, in the APA context, that the test is not ‘especially
demanding.’ ” Lexmark, 572 U.S. at 130 (emphasis
added). The original panel opinion described Bank of
America Corp. v. City of Miami, 137 S. Ct. 1296, 1304
(2017), as “consistent with the longstanding view that a
plaintiff ’s economic injury usually makes her a ‘reliable
private attorney general to litigate the issues of the public interest.’ ” CREW, 939 F.3d at 156 (quoting Ass’n of
Data Processing Serv. Orgs. v. Camp, 397 U.S. 150, 154
(1970)). The Bank of America case does not mention a
“private attorney general,” but it does emphasize that
the Court was there considering a statutory cause of action under a scheme that “showed ‘a congressional intention to define standing as broadly as is permitted by
Article III of the Constitution.’ ” Bank of Am. Corp.,
137 S. Ct. at 1298. We do not have such a statutory
scheme in this case. Instead, we have parties relying
on an implied constitutional cause of action and a grievance against the President. But see Richardson, 418

Id. at 157 (“While most cases addressing whether the plaintiff ’s
injury is outside the zone of interests of the law alleged to be violated have concerned the zone of interests of a statute, and this suit
alleges violations of the Constitution, we can see no reason why the
reasoning of the precedents reviewed above are not equally applicable here.”).
22

140a
U.S. at 175 (noting that a party may not “employ a federal court as a forum in which to air his generalized
grievances about the conduct of government”).
On remand, the district court is free to reconsider the
zone of interests in the context of whether the plaintiffs
state a claim for relief under Rule 12(b)(6). The district court correctly followed the Supreme Court’s instruction that the zone-of-interests inquiry requires a
court to consider whether the plaintiffs are within “the
class for whose especial benefit” the provision was
adopted. Clarke, 479 U.S. at 400 n.16. 23
D.

Judge Leval’s Statement Respecting the Denial of
Rehearing

By relaxing the constitutional limits on judicial authority, the standards adopted in the majority opinion
would “convert the Judiciary into an open forum for the
resolution of political or ideological disputes.” Richardson, 418 U.S. at 192 (Powell, J., concurring). The
opinion “opens the door to litigation as a tool of harassment of a coordinate branch with notions of competitor
standing so wide and injury-in-fact so loose that litigants
can virtually haul the Presidency into court at their
pleasure.” In re Trump, 958 F.3d at 291 (Wilkinson, J.,
dissenting). If there were any remaining doubts about
this result, one need only review the statement that

See also In re Trump, 958 F.3d at 297 (Wilkinson, J., dissenting) (noting that the Emoluments Clauses are “structural provisions of the Constitution designed to prevent official corruption”);
id. at 322 (Niemeyer, J., dissenting) (noting that the Clauses “are
structural provisions concerned with public corruption and undue
influence”).
23

141a
Judge Leval has filed in support of the majority opinion
(hereinafter “statement”).
1. Official Acts
The statement insists that this dissent relies on a conclusion that the President’s interest in hotels and restaurants is an official act. That is incorrect. This dissent argues that the majority opinion fails to apply even
those standing requirements applicable to litigation between private parties, and this dissent does not reach
any conclusion about whether compliance with the Emoluments Clauses is an official act. It expressly declines to take a position on this difficult question, instead
identifying it as an issue the majority opinion failed to
address despite summarily concluding that injunctive
relief was available against the President. As Part B
explains, “It is not immediately obvious whether the injunctions the majority opinion hypothesizes would direct the exercise of the executive power. On the one
hand, owning a business is a private function; on the
other hand, ordering affairs to avoid emoluments is a
duty that applies to the President only because he is the
President or because he may be a ‘Person holding an[]
Office of Profit or Trust under’ the United States” (internal citations omitted). The majority opinion should
have addressed this issue and considered the propriety
of injunctive relief—even if that relief affected only
the President’s “personal” affairs. Mazars USA, 140
S. Ct. at 2034.
Judge Leval now seems convinced that the majority’s
hypothesized remedial injunctions would run against
the President only in his private capacity. Or, rather,
his statement takes the position that, when it comes to
the Emoluments Clauses, the President is engaging in

142a
“private conduct” while in his “official capacity.” The
statement’s new theory says “[t]here is no inconsistency
in recognizing that a President’s personal receipt of
moneys is private conduct, notwithstanding a complaint’s naming the President in his official capacity because his office is what renders that private conduct unlawful.” This state of affairs is so obvious, says the
statement, that it would actually be “illogical[] [to]
view[] the naming of the President ‘in his official capacity’ as necessarily meaning that the conduct complained
of was official conduct.”
This theory is intended to justify, retroactively, the
unsupported conclusions in the majority opinion. Yet
it only strengthens the case for rehearing. The Supreme Court has explained that “an official-capacity suit
is, in all respects other than name, to be treated as a suit
against the entity. It is not a suit against the official
personally, for the real party in interest is the entity.”
Kentucky v. Graham, 473 U.S. 159, 166 (1985) (internal
citation omitted). But it turns out that the majority
opinion, without expressly saying so, authorized an
official-capacity suit that seeks remedies against the
President personally. If this is what the majority was
thinking, then it should have provided at least a little
analysis to justify this striking departure from established practice and precedent.
It would have been unprecedented enough for the
majority to claim authority—for the first time—to issue
injunctive relief against the President. But now we
learn that it has done so in a lawsuit the form of which
has never been seen before: the official-capacity-butprivate-conduct suit. The statement insists it knows of
no precedent that would preclude such relief. But in

143a
the absence of any prior case in which this or any other
“federal appellate court has allowed a claim premised on
this mode of relief to move forward,” the majority might
have paused to explain the source of this new authority.
In re Trump, 958 F.3d at 297 (Wilkinson, J., dissenting).
“[H]istory is especially instructive when one branch of
government claims a novel power against another—such
as the judiciary asserting the authority to enjoin the
chief executive—but cannot point to a single instance of
having used it.” Id. at 298. 24
The Supreme Court has said that a “grant of injunctive relief against the President himself is extraordinary, and should have raised judicial eyebrows.” Franklin, 505 U.S. at 802. But the majority opinion did not
even blink before authorizing such relief. As it stands,
the majority opinion provides no reasoning at all for its
dramatic holding that a court could order the President
to sell all his assets. There are substantial reasons for
believing the statement is wrong that compliance with
the Emoluments Clauses has “nothing to do with the
President’s exercise of his official duties.” 25 But the
Even suits involving a President’s’ purely private conduct—that
is, his engaging in private conduct in a private capacity—require
special consideration. See Mazars, 140 S. Ct. at 2035 (“No one can
say that the controversy here is less significant to the relationship
between the branches simply because it involves personal [matters].”); Clinton v. Jones, 520 U.S. 681, 702 (1997) (noting that “in
the more than 200-year history of the Republic, only three sitting
Presidents have been subjected to suits for their private actions” and
that such suits must be “properly managed by the District Court” to
avoid “occupy[ing] any substantial amount of [the President’s]
time”).
25
See In re Trump, 958 F.3d at 299 (Wilkinson, J., dissenting) (arguing that “[c]ompliance with the Emoluments Clauses is an official
24

144a
majority opinion’s neglect of this issue—the lack of any
rationale at all, let alone one with which the dissenters
might agree—is what justifies en banc rehearing in this
case. 26
It would have been especially helpful for the majority
to include some analysis on this point in its opinion because Judge Leval’s newfound theory contradicts the allegations in the complaint. The plaintiffs insist no
fewer than three times that they are suing the President
only “in his official capacity as President of the United
States.” 27 The complaint alleges that President Trump
is “ ‘an officer . . . of the United States . . . acting in his official capacity or under color of legal authority.’ ” 28 And it further alleges—three more times—
that the President “has used his official position as President to generate business to his hotel properties and
their restaurants from officials of foreign states, the
United States, and/or state and local governments.” 29
duty of the presidency—it is a legal requirement that applies to the
President by virtue of the very fact he is President, binding on him
only for the duration of his time in office,” and “because ‘the President is the executive department,’ to control him, in any official capacity, is to control the executive branch itself ”) (quoting Johnson,
71 U.S. at 500).
26
The intense debate on this issue between the nine-judge majority and six-judge dissent in the Fourth Circuit’s recent en banc decision makes it all the more surprising that the majority here decided not to provide any analysis on the question of judicial authority
to issue injunctive relief against the President. See In re Trump,
958 F.3d at 288-89 (nine-judge majority); id. at 297-302 (Wilkinson,
J., dissenting, joined by five other judges).
27
Compl. coversheet; id. at 1; id. ¶ 31.
28
Id. ¶ 33 (emphasis added).
29
Id. ¶¶ 202, 211, 219.

145a
It was obviously important to the plaintiffs that they
were challenging acts taken in an official capacity and
that relief be sought against the President in his official
capacity. That is the consistent approach among plaintiffs in every suit alleging violations of the Emoluments
Clauses against the President, and the courts that have
found standing in those cases have done so for claims
against the President specifically in his official capacity. 30 But now we learn from the statement that the
See District of Columbia v. Trump, 291 F. Supp. 3d 725, 747 (D.
Md. 2018) (“The Court is satisfied that Plaintiffs may properly bring
this action against the President in his official capacity.”), aff ’d sub
nom. In re Trump, 958 F.3d at 280 & n.1, 288-89; Blumenthal v.
Trump, 373 F. Supp. 3d 191, 193 (D.D.C. 2019) (“[T]he Court held
that plaintiffs . . . had standing to sue defendant Donald J.
Trump in his official capacity as President of the United States.”),
vacated as moot, 949 F.3d 14 (D.C. Cir. 2020).
The statement relies on the Maryland case for the proposition
that the claims under the Emoluments Clauses run against the President in his private rather than official capacity. But that reliance
is misplaced. After sustaining the claims against the President in
his official capacity, the district court suggested that the claims
against the President in his private capacity be dismissed, and the
plaintiffs voluntarily dismissed those claims. See District of Columbia v. Trump, 930 F.3d 209, 212 (4th Cir. 2019) (recounting this
procedural history). So the plaintiffs in that case, like the plaintiffs
in this one and in the D.D.C. case, have specifically decided to pursue
claims against the President only in his official capacity. The
Fourth Circuit’s en banc majority concluded that the case could proceed against the President solely in his official capacity and dismissed an appeal brought by the President in his private capacity.
See In re Trump, 958 F.3d at 280 n.1; District of Columbia v. Trump,
959 F.3d 126, 129 (4th Cir. 2020) (en banc).
The statement also asserts that the President “conceded” in the
Maryland case that the claims had nothing to do with his official duties. The President there disputed the plaintiffs’ definition of
“emolument,” arguing that it should not reach income received from
30

146a
majority opinion implicitly rejected the plaintiffs’ allegations in their complaint and departed from every
other court to consider such claims by concluding—
without providing any reasoning at all—that the President violates the Emoluments Clauses only when acting
privately (though, perhaps, somehow still in his official
capacity). The statement assumes that the dissenters
must disagree. But the argument for rehearing en
banc is not that this previously unstated argument about
the Emoluments Clauses is necessarily incorrect; it’s
that the court should resolve the issue openly and directly rather than covertly and implicitly. The authority to issue injunctive relief against the President is a
matter of exceptional importance to which the majority
opinion devoted scant attention, despite it having been
raised by the parties—and despite the parties and other
courts reaching a different conclusion than what we
have now been told underlies the majority opinion. 31
businesses that had nothing to do with his official duties. Memorandum in Support of Defendant’s Motion to Dismiss at 30-50, District of Columbia v. Trump, 315 F. Supp. 3d 875 (D. Md. 2018), ECF
No. 21-1. Nowhere did the United States or the President concede
that compliance with the Emoluments Clauses is private conduct.
In fact, the United States argued that “Plaintiffs can state no
individual-capacity claim because the Emoluments Clauses do not
even apply to the President in his individual capacity.” Statement
of Interest of the United States at 4, Trump, 315 F. Supp. 3d 875,
ECF No. 100. The President said that “the Court’s suggestion that
this dispute has ‘nothing’ to do with the Defendant’s ‘performance of
his duties as president’ was mistaken.” Memorandum in Support
of Motion to Dismiss on Behalf of Defendant in His Individual Capacity at 14-15, Trump, 315 F. Supp. 3d 875, ECF No. 112-1.
31
The statement says that this dissent construes the complaint in
the manner least favorable to the plaintiffs, but it construes the complaint only in the most natural way, based on its repeated references

147a
The new discoveries do not end there. The statement at first appears to disagree with those precedents
limiting the court’s authority to enjoin the President in
his official capacity. But then, a mere two paragraphs
later, the statement recognizes the authority of precisely those precedents limiting, as the statement itself
puts it, “the power of the courts to direct a President’s
conduct of the business of the United States.” The
statement does not dispute those precedents but argues
the precedents do not apply because the President is
acting quasi-privately here. So there turns out not to
be any actual disagreement that the courts have limited
authority to enjoin the President’s official acts. The
only disagreement is over the statement’s new discovery
to actions taken in an official capacity, rather than applying an unstated and novel distinction between official capacity and official conduct, as the statement does.
The statement also inaccurately claims that this dissent argues
the plaintiffs should not be allowed to amend their complaint to add
claims against the President in his private capacity. If the plaintiffs
can support their claim under the statement’s new theory of the law,
then by all means they should seek leave to amend. But how would
they know to do that? The statement, issued more than three years
after the operative complaint was filed, is the first time that anyone
in this case has suggested that the President should have been sued
in his private capacity. As the statement now reveals, the majority
opinion treated the complaint as having been amended—without
stating that it was doing so and without even requiring an actual
amendment. But the President is not represented in this case in
his private capacity, so this detail would seem to have large implications by requiring the appearance of new counsel and additional dispositive motions practice in the district court. It should not go unaddressed; a “statement” by a single judge respecting the order
denying en banc rehearing is not an adequate substitute for consideration by the court. The en banc court should have decided to clarify this hopelessly confused issue on rehearing.

148a
of an official-but-still-private capacity in which the President might act.
Taken on its own terms, the statement’s legal analysis is not compelling. It argues that even though a
court normally will redress an injury arising from unlawful presidential action “by issuing relief against an
inferior executive officer,” this case is unique because
“there are no inferior executive officers against whom
the plaintiffs could seek declaratory or injunctive relief
that would redress their injuries.” But that ignores
Part B of this dissent, which explains that “a plaintiff
who loses a government contract due to favoritism that
results from illegal emoluments might be able to sue the
agency or inferior executive officer who is responsible
for awarding the contract in order to redress the Emoluments Clause violation.” It’s true that such relief
would not redress the injuries alleged by the plaintiffs
in this case, but that only highlights an additional flaw
in the plaintiffs’ case: they have not alleged an injury,
such as harm from corrupt favoritism, that the Emoluments Clauses are designed to prevent. Rather than
seeking redress for official corruption or undue influence in government, these plaintiffs effectively seek to
vindicate an alleged constitutional right to fairness in
the restaurant industry.
By remaining so intent on entertaining this particular lawsuit by these particular plaintiffs, the statement
misses the obvious: a different set of plaintiffs alleging
a more concrete injury might appropriately bring suit.
Instead, the statement implies that if the plaintiffs in
this case do not have standing, then it must be that re-

149a
dress is unavailable. That’s a false choice, and it is inconsistent with applicable precedents on standing. 32 “The
assumption that if respondents have no standing to sue,
no one would have standing, is not a reason to find standing.” Schlesinger v. Reservists Comm. to Stop the
War, 418 U.S. 208, 227 (1974).
2.

Competitor Standing

It is not until the twelfth page that the statement gets
to the central issue—competitor standing—and its discussion is revealing. The statement doubles down on
the majority opinion’s reliance on a Washington Post article about the Trump International Hotel in Washington D.C.—even though no plaintiff in this case owns or
is otherwise associated with a hotel in Washington
D.C. 33 The statement then conspicuously moves from
The Supreme Court has been “unwilling to assume that injured
parties are nonexistent simply because they have not joined respondents in their suit.” Valley Forge Christian Coll. v. Americans
United for Separation of Church & State, 454 U.S. 464, 489 (1982).
33
The statement claims that its references to the Washington hotel
serve to demonstrate the injury that New York hotels might suffer.
But we cannot assume injury to New York hotels just because there
may be injury to a hotel in Washington. “[S]tanding is not dispensed in gross” but must be established for each claim and for each
plaintiff. Town of Chester v. Laroe Estates, 137 S. Ct. 1645, 1650
(2017). The district court in the Maryland case recognized an injury to competitors of the Trump International Hotel but dismissed
claims based on “Trump Organization operations outside the District of Columbia” because “[t]here appears to be no ‘actual or imminent’ injury to either Plaintiff ” from such activity. District of Columbia, 291 F. Supp. 3d at 742. Whether that court was right or
wrong, at least it fulfilled its obligation to identify an injury for all
claims and plaintiffs. The majority opinion, by contrast, extrapolates from one non-plaintiff in Washington to find standing for all
participants in a different marketplace in New York.
32

150a
concrete facts about non-plaintiffs to abstract truisms in
order to justify standing for the actual plaintiffs: “the
opportunity to procure the President’s favor or avoid his
disfavor is a highly significant motivator for a foreign
diplomat or a state representative.” Well, of course it
is. But that general proposition does not establish that
diplomatic officials in New York are lunching on foie
gras at Jean-Georges when they really would rather
have falafel at Amali. 34
According to the statement, it doesn’t matter. The
statement hypothesizes that surely there must be an injury somewhere because “there are nearly 200 nations
in the world (and 50 states), many of which send delegates to Washington or New York, where they become
buyers whose business” might be directed to high-end
Manhattan restaurants associated with the President as
long as he is allegedly receiving emoluments but might
go to different restaurants if the President were to
transfer his interests in those properties to his children
or to someone else. Perhaps some diplomats might behave this way, as the statement speculates. It is possible, however unlikely. But the majority opinion cites
nothing that would give anyone a reason to believe that,
say, Norway or Nevada have dispatched or will dispatch
delegations to New York City to eat at Jean-Georges in
the hope of enriching the President. The majority
simply assumes that because there are lots of possible
The statement admits that standing would not exist if “the advantage derived by the defendant from illegal conduct was small,
and the likelihood was low that potential customers would be aware
of it, much less motivated by that advantage to prefer the defendant over a plaintiff.” Individual dining choices by foreign and
state officials among Manhattan restaurants would seem to fall into
this category.
34

151a
diplomats, at least some of them must be thinking about
their dinner choices the way it hypothesizes. Yet
“[t]he law of averages is not a substitute for standing.”
Valley Forge Christian Coll., 454 U.S. at 489. 35 Pointing to a large number of theoretical lost customers is not
enough for Article III injury; “allegations of possible future injury are not sufficient.” Clapper, 568 U.S. at 409
(internal quotation marks and alteration omitted). 36
The statement’s resort to such speculation is inconsistent with the requirement that the “plaintiff [s] must
‘clearly allege facts demonstrating’ each element” of Article III standing. Spokeo, Inc. v. Robins, 136 S. Ct.
1540, 1547 (2016). The statement suggests these posthoc rationalizations are fine because surely the dissenters did not seek en banc rehearing to “express[] a wish
for a new opinion supporting the same conclusion with
better reasons.” But because the majority opinion now
serves as a precedent for future cases, its lack of good
reasons is a serious problem. An opinion of the court
ought to justify its conclusion with reasons grounded in
See also United States v. Students Challenging Regulatory
Agency Procedures (SCRAP), 412 U.S. 669, 688-89 (1973) (“[P]leadings must be something more than an ingenious academic exercise
in the conceivable. A plaintiff must allege that he has been or will
in fact be perceptibly harmed by the challenged agency action, not
that he can imagine circumstances in which he could be affected by
the agency’s action.”).
36
One of the plaintiffs is an association of restaurants. “In part
because of the difficulty of verifying the facts upon which such
probabilistic standing depends, the Court has required plaintiffs
claiming an organizational standing to identify members who have
suffered the requisite harm—surely not a difficult task here, when
so many [customers] are alleged to have been [lost].” Summers,
555 U.S. at 499. And yet the majority opinion does not ask that
plaintiff to identify a single lost customer.
35

152a
precedent. It certainly is the dissenters’ position that
the majority opinion’s departure from precedent requiring would-be plaintiffs to establish a concrete rather
than a speculative injury justifies en banc rehearing—
regardless of the opinion’s ultimate conclusion. If, as
the statement implies, there exists a more compelling
justification for the same conclusion that the majority
failed to articulate, then the court should consider that
justification on rehearing.
The statement, instead, repeats the majority opinion’s reliance on cases such as Block v. Meese, 793 F.2d
1303 (D.C. Cir. 1986), and Department of Commerce v.
New York, 139 S. Ct. 2551 (2019), for the proposition
that the plaintiffs’ “theory of standing relies on the predictable effect of Government action on the decisions of
third parties.” CREW, 953 F.3d at 197 (alterations
omitted). That reliance conflicts with the statement’s
new insistence that the challenged conduct has “nothing
to do” with government action. And neither case involves competitor standing, which one would have
thought was the “theory of standing” on which the majority opinion and the plaintiffs rely. 37
The statement—like the majority opinion—
continually looks outside the competitor-standing context for support because, within that context, we learn
that plaintiffs may not invoke the competitor-standing

Even so, “[t]he President’s personal receipt of income from [some
businesses] surely does not have a predictable effect on the decisions
of third parties as to whether to patronize [those businesses] nor a
predictable effect of skewing the market in which the plaintiffs allegedly compete.” In re Trump, 958 F.3d at 327 (Niemeyer, J., dissenting).
37

153a
doctrine with a “ ‘chain of events’ argument” that “depends on the independent actions of third parties” because such an argument distinguishes this case “from
the ‘garden variety competitor standing cases’ which require a court to simply acknowledge a chain of causation
‘firmly rooted in the basic law of economics.’ ” New
World Radio, 294 F.3d at 172. The plaintiffs’ theory in
this case, dependent on a speculative chain of causation
about diplomats’ dining choices in New York City, bears
no resemblance to a normal competitor-standing case.
Rather than rely on speculation about Norwegian
lobbyists eating out at fancy Manhattan restaurants—
and on inapposite cases that do not involve competitor
standing—I would follow cases that address competitor
standing, which must be “based on an injury more particularized and more concrete than the mere assertion
that something unlawful benefited the plaintiff ’s competitor.” Already, 568 U.S. at 99. The statement struggles mightily to sidestep these precedents. “Puzzlingly, the [statement] cite[s] a passage from Justice
[Breyer’s] dissenting opinion in [Clapper] seemingly as
though it were the holding of the case,” CREW, 939 F.3d
at 158 n.13, 38 and then argues that the Court’s majority
did not mean what it said in its opinion because, in a footnote, the Court acknowledged that it had used different
language in other opinions.
But in that very footnote the Supreme Court explained that “plaintiffs bear the burden of pleading and
proving concrete facts showing that the defendant’s actual action has caused the substantial risk of harm.

38

See the statement’s footnote 19.

154a
Plaintiffs cannot rely on speculation about ‘the unfettered choices made by independent actors not before the
court.’ ” Clapper, 568 U.S. at 414 n.5 (quoting Lujan,
504 U.S. at 562). It was on precisely this basis that the
district court concluded that “it is wholly speculative
whether the Hospitality Plaintiffs’ loss of business is
fairly traceable to Defendant’s ‘incentives’ or instead
results from government officials’ independent desire
to patronize Defendant’s businesses.”
CREW, 276
F. Supp. 3d at 186. 39 Whether you call it a “substantial
risk” of harm or a “certainly impending” harm, the
plaintiffs have not demonstrated an injury sufficient to
confer standing. The district court properly applied
standing precedents while the majority opinion looks to
inapposite cases to support its novel holding on competitor standing.
The statement also invokes antitrust and trademark
precedents, but those cases provide no support for the
majority opinion’s new theory of competitor standing
because—as the statement acknowledges—the requisite injuries in such cases are defined by statute while in
this case the plaintiffs pursue an implied constitutional
cause of action to redress the President’s alleged non-

See also In re Trump, 958 F.3d at 326 (Niemeyer, J., dissenting) (“[T]he District and Maryland’s theory of proprietary harm
hinges on the conclusion that government customers are patronizing the Hotel because the Hotel distributes profits or dividends to
the President, rather than due to a more general interest in currying favor with the President or because of the Hotel’s branding or
other characteristics. Such a conclusion, however, is not only economically illogical, but it also requires speculation into the subjective motives of independent actors who are not before the court,
thus precluding a finding of causation.”).
39

155a
compliance with law. It is well established that “Congress has the power to define injuries and articulate
chains of causation that will give rise to a case or controversy where none existed before.” Spokeo, 136 S. Ct.
at 1549; Nash v. Califano, 613 F.2d 10, 14 (2d Cir. 1980)
(“Congress may enact statutes creating legal rights, the
invasion of which creates standing, even though no injury would exist without the statute.”). 40 In this case—
unlike cases premised on antitrust, trademark, and
unfair-trade-practices statutes—the plaintiffs can point
to no statutory or other legal right the violation of which
might serve as an injury to them. Thus, not only do the
plaintiffs fail to allege facts establishing an actual rather
than hypothetical injury, see Lujan, 504 U.S. at 560,
they also cannot identify any “statutes creating legal
rights, the invasion of which creates standing” in this
case, id. at 578 (noting that “injury to a company’s interest in marketing its product free from competition,” for
example, was “inadequate in law” to confer standing until Congress made it “legally cognizable” by statute).
Of course, the mere alleged violation of the Emoluments Clauses cannot itself serve as an Article III injury. “[A]n injury amounting only to the alleged violation of a right to have the Government act in accordance
with law [is] not judicially cognizable,” id. at 575, and
Congress may not “convert the undifferentiated public
interest in executive officers’ compliance with the law
into an ‘individual right’ vindicable in the courts,” id. at
577. Nor do the Emoluments Clauses confer on the
plaintiffs a particularized interest the violation of which
See also Huff v. TeleCheck Servs., 923 F.3d 458, 469 (6th Cir.
2019) (“Whatever is true of Congress’s power to create standing by
statute would seem to hold for state legislatures as well.”).
40

156a
might create standing in the absence of an otherwise
cognizable concrete injury. Id. at 578. It is undisputed that the Emoluments Clauses do not give the
plaintiffs a right to be free from the competition they
allege causes them harm, and indeed they allege no unlawful conduct on the part of the businesses with which
they compete. The Emoluments Clauses allegedly
oblige the President, as President, to avoid receiving
certain forms of income. The interest of the plaintiffs
in the President’s compliance with the Emoluments
Clauses is therefore “common to all members of the public” and would be an “impermissible ‘generalized grievance’ ” if it were claimed to be the basis of the plaintiffs’
standing. Id. at 575.
The statement obscures this point by questioning the
role of Congress in defining injuries and suggesting
there is confusion between standing and whether an injury is within a statute’s zone of interests. No doubt,
there are some tensions within the doctrine. 41 But this
case is not difficult. We know that “the Court has recognized Congress’s authority to create new rights that
allow individuals to be free from competitive injury” and
that in such contexts “the violation of a private statutory
right constitutes an injury-in-fact” for standing purposes. Jeffries v. Volume Servs. Am., 928 F.3d 1059,
1069 (D.C. Cir. 2019) (Rogers, J., concurring in part and
concurring in the judgment). Unlike the statutory contexts the statement identifies, the plaintiffs here identify no such right conferred by the legislature and must
rely on their factual allegations about lost business. As
discussed throughout this dissent and in the separate
See generally William Baude, Standing in the Shadow of Congress, 2016 Sup. Ct. Rev. 197 (2016).
41

157a
dissent of Judge Cabranes and statement of Judge
Walker, those allegations are insufficient.
* * *
For these reasons, I dissent from the denial of rehearing en banc.

158a
JOHN M. WALKER, JR., Senior Circuit Judge
Statement in Opposition to the Denial of En Banc Rehearing 1

The Second Circuit should have voted to rehear this case
en banc.
The panel majority decided that plaintiffs, a co-owner of
restaurants and hotels in New York and an organization
that includes establishments in New York and Washington, D.C., have standing to assert an implied private
right of action against the President in his official capacity for violating the Foreign2 and Domestic 3 Emoluments
Clauses of the Constitution. That decision misinterpreted the doctrine of competitor standing and impermissibly extended it to a wholly novel context. In doing so, the panel failed to address the tension in our circuit law (which is inconsistent with the law in our sister

Although, as a senior judge, I have no vote on whether to rehear
a case en banc, Fed R. App. P. 35(a), and thus cannot dissent, this
court is currently reviewing whether, as a matter of court practice,
a senior judge that was on the panel may file a statement on the
denial of en banc rehearing. In the meantime, a ruling by the
chief judge, with the concurrence of the court’s active judges, has
permitted such a statement pending the outcome of the review.
2
“No Title of Nobility shall be granted by the United States: And
no Person holding any Office of Profit or Trust under them, shall,
without the Consent of the Congress, accept of any present, Emolument, Office, or Title, of any kind whatever, from any King,
Prince, or foreign State.” U.S. Const. art. 1, § 9, cl. 8.
3
“The President shall, at stated Times, receive for his Services,
a Compensation, which shall neither be encreased nor diminished
during the Period for which he shall have been elected, and he shall
not receive within that Period any other Emolument from the
United States, or any of them.” U.S. Const. art. II, § 1, cl. 7.
1

159a
circuits) and contradicted binding Supreme Court precedent requiring a plaintiff to demonstrate more than a
mere unlawful advantage to a competitor in order to invoke the competitor standing doctrine.
If that were not enough, this case warranted en banc review because of its exceptional national importance.
The interpretation and application of the Emoluments
Clauses, including the threshold question of whether
private actors have Article III standing to enforce the
Clauses, raise constitutional questions of first impression in this circuit and in the federal courts nationwide.
This case, along with the ongoing Fourth Circuit case
with parallel theories of injury, 4 will determine whether
Trump business competitors have Article III standing
to sue despite no showing of actual or imminent injury
traceable to the President’s receipt of emoluments, or
how the cessation of emoluments would redress any

In the Fourth Circuit case, the District of Columbia and the
State of Maryland sued the President in his official capacity on the
same theory of injury advanced in this lawsuit. After holding that
plaintiffs had standing to sue with respect to the Trump International Hotel in Washington, D.C., District of Columbia v. Trump,
291 F. Supp. 3d 725, 732 (D. Md. 2018), the district court declined
to certify that question for interlocutory appeal, District of Columbia v. Trump, 344 F. Supp. 3d 828, 844 (D. Md. 2018). The Fourth
Circuit (en banc) denied the President’s mandamus petition to direct the district court either to certify the interlocutory appeal or
to dismiss the complaint. In re Trump, No. 18-2486, 2020 WL
2479139 (4th Cir. May 14, 2020).
4

160a
such injury. 5 A novel question of such profound national importance, involving the President and the separation of powers, warranted en banc review.
I.
The panel majority misconceived the competitor standing doctrine and, in doing so, violated the fundamental
tenets of Article III standing. The majority held that
plaintiffs have shown traceable competitive injury by
adequately alleging that (i) they “personally compete[]
in the same arena” as the Trump establishments 6 and
that (ii) an illegal act—here, an alleged violation of the
Emoluments Clauses—bestowed “some competitive advantage” on Trump establishments. 7 The majority was
wrong. Contrary to the majority’s holding, plaintiffs
may not avail themselves of the competitor standing
doctrine without a showing of actual or imminent injury.
The competitor standing doctrine does not relax the
basic requirements of Article III standing that “an injury must be concrete, particularized, and actual or im-

Legislators in the House and Senate brought a third suit in the
D.C. Circuit, alleging that the President’s failure to seek congressional approval for his receipt of emoluments, despite the Clauses’
requirement of such approval, deprived them of their right to vote
and thereby caused them an Article III injury. The D.C. Circuit
recently held that the plaintiffs lacked standing for want of a cognizable injury. Blumenthal, et al. v. Trump, 949 F.3d 14, 19 (D.C.
Cir. 2020) (per curiam).
6
Maj. op. 17 (quoting In re U.S. Catholic Conference, 885 F.2d
1020, 1029 (2d Cir. 1989)).
7
Id. (quoting Fulani v. League of Women Voters Edu. Fund, 882
F.2d 621, 626 (2d Cir. 1989)).
5

161a
minent; fairly traceable to the challenged action; and redressable by a favorable ruling.” 8 Rather, the doctrine
affords a plaintiff-competitor the presumptions of injury, traceability, and redressability in certain discrete
contexts in which “economic logic” 9 tells us that an unlawful benefit, bestowed upon a defendant-competitor
as the result of some government action or violation of a
rule, will predictably cause the plaintiff-competitor to
suffer an injury in fact. 10 This showing of a likelihood
of personal injury to the plaintiffs is critical, and has
been required not only by the Supreme Court but also

Monsanto Co. v. Geertson Seed Farms, 561 U.S. 139, 149 (2010)
(citing Horne v. Flores, 557 U.S. 443, 445 (2009)).
9
Canadian Lumber Trade All. v. United States, 517 F.3d 1319,
1332 (Fed. Cir. 2008); see also Sherley v. Sebelius, 610 F.3d 69, 72
(D.C. Cir. 2010) (citing Canadian Lumber for this “economic logic”
requirement).
10
Although the required degree of certainty varies across circuits, our sister circuits have consistently maintained that a competitor must demonstrate that the defendant’s unlawful gain will,
with some degree of certainty, cause the plaintiff to suffer an injury
in fact. The First Circuit has required “sufficient likelihood” of
specific harm to the plaintiff. Adams v. Watson, 10 F.3d 915, 923
(1st Cir. 1993). The Federal Circuit has required a showing that
the plaintiff will “likely suffer” an injury in fact. Canadian Lumber, 517 F.3d at 1332. The D.C. Circuit has explained that the
“nub” of the competitor standing doctrine is that the challenged
action will “almost surely cause petitioner to lose business.” El
Paso Nat. Gas Co. v. FERC, 50 F.3d 23, 27 (D.C. Cir. 1995). But
no matter the level of certainty required, if that certainty is absent,
no economic logic exists, and the competitor standing doctrine cannot supply the concrete and imminent injury necessary for Article
III standing.
8

162a
by our sister circuits. 11 Yet the majority has omitted
that requirement from its analysis entirely.
This court has been inconsistent in requiring a showing
of personal injury. As Judge Menashi observes in his
dissent, this court has previously announced two different versions of the competitor standing doctrine without
reconciling the differences. The earlier, stricter version appropriately requires a plaintiff-competitor to
make two showings. First, “to establish an injury as a
competitor a plaintiff must show that he personally competes in the same arena with the party to whom the government has bestowed the assertedly illegal benefit.” 12
Second, and critically, a plaintiff must also show personal disadvantage beyond baldly “asserting that an advantage to one competitor adversely handicaps the others.” 13 Together, these requirements make clear that
plaintiffs invoking competitor standing must plausibly
plead not only that they compete in the same arena as
the defendant who received an unlawful advantage, but
also that they were personally harmed.
In later cases, this court has left the personal harm requirement out of the competitor standing test. That
See Already, LLC v. Nike, Inc., 568 U.S. 85 (2013) (rejecting
plaintiff ’s theory that, under the competitor standing doctrine, “a
market participant is injured for Article III purposes whenever a
competitor benefits from something allegedly unlawful”); see, e.g.,
El Paso Nat. Gas Co., 50 F.3d at 28 (“We therefore caution that
even if El Paso were ‘competing’ with the LDCs in Mexico, that
would not necessarily bring petitioners within the ambit of our
‘competitor standing’ cases. El Paso would still be required to allege facts demonstrating ‘injury in fact.’ ”).
12
In re U.S. Catholic Conference, 885 F.2d at 1029.
13
Id. at 1030.
11

163a
version collapses the original test by allowing a plaintiff
to fulfill the second requirement (personal harm) simply
by fulfilling the first (competition plus unlawful advantage to the defendant). This was enough to satisfy
the panel majority in this case, but it has not satisfied
the Supreme Court. In Already, LLC v. Nike, Inc., 14
Already, a maker of athletic shoes, claimed standing to
challenge the validity of a Nike trademark on the basis
that it was Nike’s competitor in the athletic shoe market. Already sought to challenge the trademark even
after Nike had issued a covenant not to bring trademark
claims against Already for present or future products
that potentially infringed the trademark. 15 Already’s
theory of competitive injury was that the continued existence of Nike’s allegedly unlawful mark, notwithstanding the covenant, deterred investment in its company,
thereby placing Already at a competitive disadvantage.
The Court explicitly rejected that theory, explaining
that “[t]aken to its logical conclusion, [Already’s] theory
seems to be that a market participant is injured for Article III purposes whenever a competitor benefits from
something allegedly unlawful—whether a trademark,
the awarding of a contract, a landlord-tenant arrangement, or so on. We have never accepted such a boundless theory of standing.” 16
The Already court viewed the competitor standing doctrine as an application—not a relaxation—of the “irreducible constitutional minimum of standing” required
by Article III. 17 The personal injury requirement is
14
15
16
17

568 U.S. 85 (2013).
See id. at 88-89.
Id. at 99.
Lujan v. Defenders of Wildlife, 504 U.S. 555, 560 (1992).

164a
necessary to ensure that a plaintiff-competitor’s injury
is “actual or imminent” and “fairly traceable” to the defendant’s actions. 18 To be sure, in some circumstances,
competitive injury is so predictable and certain that we
can say, as a matter of economic logic, that it will “almost
surely” occur, 19 or that the plaintiffs will “likely suffer”
an injury in fact, 20 or that there is a “sufficient likelihood” of personal injury 21 —whatever degree of certainty is required by a particular circuit. But only then
does the competitor standing doctrine permit a plaintiff
to show standing without making a specific showing of
injury. Plaintiffs have simply not shown that those circumstances are present in this case.
Rather, plaintiffs have failed to plead facts that show
that economic logic connects the alleged emoluments to
President Trump (the share of profits personally received by the President from hotel bookings or restaurant patronage by foreign and state officials) to any decrease in plaintiffs’ business. As Judge Menashi aptly
observes, this market is the very opposite of one with
1,000 buyers and two sellers. There, economic logic
dictates that an unfair advantage to seller A will almost
surely harm seller B, such as might be true of the competition between Boeing and Airbus. 22 Here, in contrast, plaintiffs and defendant compete in a diverse hotel

Id. (alterations omitted).
El Paso Nat. Gas Co., 50 F.3d at 27.
20
Canadian Lumber, 517 F.3d at 1332.
21
Adams, 10 F.3d at 923.
22
The competition between Boeing and Airbus has been characterized as a duopoly, with those two companies accounting for ninetynine percent of the large plane market. See, e.g., Praveen Duddu,
18
19

165a
and restaurant market with many sellers and many variables. In this context, plaintiffs have not shown that
an unlawful benefit to a Trump business from increased
patronage, much less the President’s personal share, is
sufficiently likely 23 (let alone almost sure) 24 to cause
harm to plaintiffs’ businesses. As the district court
correctly observed, myriad factors such as “service,
quality, location, price and other factors related to individual preference” 25 might influence a foreign or state
official’s independent third-party decision whether to
patronize a Trump business. 26 With so many variables
at play, the challenged conduct of a single defendant
competing
over a small set of customers in a virtual sea of luxury
hotels and restaurants will not be “almost sure[]” 27 or
even “sufficient[ly] like[ly]” 28 to cause plaintiffs harm.
The fact that it possibly could is not enough, and plaintiffs have not alleged anything more.
Airbus vs Boeing: A Tale of Two Rivals, AEROSPACE TECHNOLJan. 31, 2020, https://www.aerospace-technology.com/features/
airbus-vs-boeing/; Kate Sprague, Why the Airbus-Boeing Duopoly
Dominate 99% of the Large Plane Market, CNBC, Jan. 26, 2019,
https://www.cnbc.com/2019/01/25/why-the-airbus-boeing-companiesdominate-99percent-of-the-large-plane-market.html.
23
See Adams, 10 F.3d at 923.
24
See El Paso Nat. Gas Co., 50 F.3d at 27.
25
Citizens for Responsibility & Ethics in Washington, et al. v.
Trump, 276 F. Supp. 3d 174, 186 (S.D.N.Y. 2017).
26
See Simon v. Eastern Ky. Welfare Rights Org., 426 U.S. 26, 4142 (1976) (stating that a federal court acts only to redress injury
traceable to the defendant “and not injury that results from the independent action of some third party not before the court”).
27
El Paso Nat. Gas Co., 50 F.3d at 27.
28
Adams, 10 F.3d at 923.
OGY,

166a
In the absence of compelling economic logic, plaintiffs
could marshal specific evidence to show that they were
personally harmed by the unlawful benefit conferred on
their competitor. But plaintiffs here have failed to allege a “concrete, particularized, and actual or imminent”
injury in fact under the standard Article III requirements. 29 Plaintiffs have also failed to identify any particularized disadvantage, or an instance in which government customers chose to patronize the President’s hotels and restaurants instead of their own. This failure
is underscored by plaintiffs’ own complaint, which does
allege that a different competitor, the Four Seasons—
who is not a plaintiff in this suit—lost identifiable business to the President’s businesses when the government
of Kuwait cancelled its reservations and switched to a
Trump hotel. But plaintiffs make no similar allegation
of their own personal injury, and they are not purporting to sue on behalf of anyone else who allegedly suffered such a loss.
The competitor standing doctrine does not permit a
plaintiff to end-run around Article III’s requirements of
injury, traceability, and redressability simply because a
competitor in the same market has received an allegedly
unlawful benefit. Because this watered-down standing
requirement now appears to be the law of the circuit,
this case should have been reheard en banc.
II.
In my panel dissent, I postulated a hypothetical that
shows the absence of the required economic logic in this
case: a competitor plaintiff who sues a competing restaurant that used a fraudulently obtained bank loan or
29

Monsanto, 561 U.S. at 149.

167a
tax refund to improve its business, such as by hiring a
new chef or lowering prices, thereby increasing its market competitiveness. The majority denied that its approach would confer competitor standing in my hypothetical because “[a] plaintiff who establishes an injuryin-fact by alleging direct competition and an inability to
compete with the defendant on an equal footing must
also establish that such injury is fairly traceable to the
defendant’s allegedly unlawful conduct and likely to be
redressed by the requested relief.” 30 That cursory response simply restated the basic rules of Article III
standing, which are met neither by my hypothetical nor
by the facts in this case; it does nothing to show how my
hypothetical would not lead to a finding of competitor
standing under the majority’s conception of the doctrine.
The majority’s response is especially incongruous with
the structure and purpose of the competitor standing
doctrine itself. That doctrine affords a plaintiff the
presumptions of injury, traceability, and redressability
to alleviate the requirement of a specific showing where
doing so would be difficult in certain competitive contexts. So, it makes no sense to say that, in a case properly applying the competitor standing doctrine, a separate requirement to show traceability and redressability would prevent my hypothetical plaintiff from showing standing.
The majority’s effort to distinguish this case from my
hypothetical is also fundamentally flawed in that it mis-

Maj. op. 34 (internal quotation marks, citations, and modifications omitted).
30

168a
characterizes the harm that plaintiffs allege. The majority concludes that the “connection between the alleged violations of law and Plaintiffs’ harm is far more
direct” than it is in my hypothetical, because it is “precisely the President’s receipt of allegedly illegal emoluments that constitutes Plaintiffs’ competitive injury.” 31
Not so. Plaintiffs nowhere allege that whatever injury
they claim was caused by the President’s receipt of emoluments. Instead, on the facts as plaintiffs have alleged
them, it is not the conferral of emoluments that causes
harm to plaintiffs’ businesses, but instead foreign and
state officials’ preference to patronize Trump establishments rather than plaintiffs’ own.
Those harms are distinct.
The one that plaintiffs
have alleged could easily persist absent any conferral of
emoluments—that is, even if the President’s personal
gains from the patronage of foreign and state officials
were removed from the calculus. Foreign diplomats
and state officials might, quite lawfully, still choose the
Trump establishment over plaintiffs’ establishments to
attempt to curry favor with the President. Plaintiffs
point to a Washington Post article revealing that certain
diplomats stated in interviews that “spending money at
Trump’s hotel is an easy, friendly gesture to the new
president” 32—but nothing in the article says the friendliness of the gesture is tied to the President’s personal
receipt of profits from that patronage. Indeed, a group
Id. at 34-35.
Appellants’ Reply Br. 12 (quoting Jonathan O’Connell & Mary
Jordan, For Foreign Diplomats, Trump Hotel Is Place to Be,
WASH. POST, Nov. 18, 2016, https://www.washingtonpost.com/business/
capitalbusiness/2016/11/18/9da9c572-ad18-11e6-977a-1030f 822fc35_
story.html.
31
32

169a
of former national security officials writing as amici curiae warned that foreign officials, attempting to “curry
favor through private business relations with senior
U.S. officials,” will “seek to use all available rewards or
incentives to influence the behavior of other nations.” 33
Regardless of whether any of their money finds its way
into the President’s pocket, foreign diplomats can still
come to Washington or New York and, when they meet
the President, tell him that they are staying at Trump
hotels and dining at Trump restaurants. That ingratiation, not the supposed emoluments themselves, is what
plaintiffs have alleged to be the source of any adversity
against their business. But ingratiation is not an emolument. And if the emoluments are stopped, nothing
suggests that the ingratiation will not remain. 34

Brief of Former National Security Officials as Amici Curiae Supporting Plaintiffs-Appellants, Citizens for Responsibility & Ethics
in Washington v. Trump, No. 18-474, 2019 WL 8165708 (2d Cir.
Sept. 13, 2019), as amended (Mar. 3, 2020) (no. 18-474).
34
The Trump Organization publicly claims to have remitted profits
from foreign-government business to the U.S. Treasury: approximately $150,000 in 2016 and $191,000 in 2017. See Rebecca Ballhaus,
Trump Organization Details Level of Profits from Foreign Governments, WALL ST. J., Feb. 25, 2019, https://www.wsj.com/articles/
trump‐organization‐details‐level‐of‐profitsfrom‐foreign‐governments‐
11551116974. This is an infinitesimal amount in relation to the
President’s reported net worth of $3 billion in 2019. See Shahien
Nasiripour & Caleb Melby, Trump’s Net Worth Rises to $3 Billion
Despite Business Setbacks, BLOOMBERG, June 12, 2019, https://www.
bloomberg.com/news/articles/2019‐06‐12/trump‐s‐net‐worth‐rises‐
to‐3‐billion‐despite‐businesssetbacks. Although these specific
amounts remain untested and unconfirmed, the public claim of remittal undermines any argument that foreign officials’ desire to confer a relatively modest financial benefit on the President is the driv33

170a
III.
Apart from the confusion caused by the panel majority’s
misapplication of the competitor standing doctrine,
en banc rehearing should have been ordered for another
reason. Plaintiffs have sued the President in his official capacity and are seeking injunctive relief against
him in that capacity. The Supreme Court has made
clear that the standing inquiry is “especially rigorous”
where, as here, the dispute implicates the separation of
powers. 35 This weighty and complex suit should not be
permitted to proceed based on plaintiffs’ speculation
and conjecture that the President’s receipt of a share of
profits for meals and lodging, from a limited group of
people, is causing them competitive harm. And, as Judge
Menashi observes, because it is questionable that this
court (or any court) is empowered to order the injunctive relief against the President that the panel majority
posits—but that plaintiffs never specifically asked for in
their pleadings, that relief may not be available at all.
Interpretation and application of the Emoluments Clauses
is entirely novel in this circuit and in the federal courts
nationwide.
The unprecedented application of the
competitor standing doctrine in a situation where economic logic is absent invites uncertainty and impermissibly waters down the Article III standing requirements.
The dissonance between our and other circuits’ treatment of the competitor standing doctrine only exacerbates that uncertainty. Equally, if not more important,
ing force behind increased competition. And plaintiffs have not alleged or anywhere argued that business from foreign officials to the
Trump Organization has decreased as a result of that remittal.
35
Raines v. Byrd, 521 U.S. 811, 819–20 (1997).

171a
the case asserts standing to invoke judicial authority in
an implied private right of action under the Constitution
against the President in his official capacity. In this
new and highly significant area of law, this court has a
responsibility to do everything it can to address the confusion over the standing doctrine that this case has fostered. Granting en banc review would have fulfilled
that responsibility.

172a
PIERRE N. LEVAL, Circuit Judge: Statement in Support of the Denial of En Banc Rehearing
Article III of the Constitution limits the jurisdiction
of federal courts to “cases” and “controversies,” thus requiring that there be real and concrete adversity between the parties, so that courts not be empowered to
give advisory opinions on hypothetical disputes. See
Baker v. Carr, 369 U.S. 186, 204 (1962) (Article III
standing “assure[s] that concrete adverseness which
sharpens the presentation of issues upon which the
court so largely depends for illumination of difficult []
questions”). On a daily basis, federal courts adjudicate
disputes among competitors involving claimed violations
of federal and state law (including antitrust, unfair competition, trademark, false advertising, and false designation of origin) based on allegations of substantial risk
of competitive injury no different than what the plaintiffs have alleged here. Judge Menashi does not dispute this. See generally CREW v. Trump, __ F.3d __
(2d Cir. 2020) (Menashi, J., dissenting from denial of rehearing en banc) (hereinafter “Menashi Dissent”).
Nonetheless, he argues that, at least for this case, nothing short of certainty of injury can satisfy Article III; 1
and that precedents finding sufficient adversity to support exercise of jurisdiction over claims expressly authorized by legislative texts have no pertinence because
those claims derive from statutes, while this one is based
on the Constitution, id. at 34-35.

Menashi Dissent at 4 (“If the injury is not certain or ‘certainly
impending’ . . . the requirements of Article III are not met.”
(citation omitted)).
1

173a
Judge Menashi also characterizes President Trump’s
indisputably private sales of hotel and restaurant services to foreign and domestic governments (and his receipt of revenues from those sales) as “actions taken by
one of the other two branches of the Federal Government,” id. at 1, and suggests that a court’s declaration
that such sales violate the Emoluments Clauses might
amount to impermissibly instructing the President how
to carry out the duties of his office, id. at 15. In this
Statement, I respond to Judge Menashi’s arguments.
I.
Suggesting that the courts have neither jurisdiction
nor authority to instruct the President on how to conduct the business of the Executive Branch, Judge
Menashi questions whether a ruling for the plaintiffs in
this case would be instructing the President “how to exercise the executive power,” an act “tantamount to telling a member of Congress to vote to pass or repeal a
particular law.” Id. at 15 (citing Franklin v. Massachusetts, 505 U.S. 788, 826-27 (1992) (Scalia, J., concurring)). Putting aside whether courts have jurisdiction
to hear a suit seeking an injunction or declaratory relief
against the President on the grounds that his official
acts on behalf of the United States violate the Constitution, the proposition has no application to this case,
which questions the lawfulness of the President’s purely
private conduct of selling hotel and restaurant services.
The Foreign Emoluments Clause forbids any “Person
holding any Office of Profit or Trust” of the United
States from “accept[ing] any . . . Emolument . . .
of any kind whatever, from any . . . foreign State.”
U.S. CONST. art. I, § 9, cl. 8. The Domestic Emoluments Clause provides that “the President . . . shall

174a
not receive within [the period of his presidency] any
other Emolument [other than his presidential salary]
from the United States, or any of them.” U.S. CONST.
art. II, § 1, cl. 7. The theory of the complaint is that, in
his personal receipt of payments by foreign states and
domestic state governments to his establishments, the
President violates the prohibitions of those clauses of
the Constitution. The complaint does not challenge anything the President has done or will do on behalf of the
United States. It challenges only the President’s private conduct. Indeed, if those payments from domestic
or foreign governments were accepted by the President
on behalf of the United States, so that those payments
went into the federal treasury, rather than enriching
President Trump, they would not be an emolument of
the President and would not even arguably violate the
Constitution.
In support of his argument that the courts have no
jurisdiction to hear this case, Judge Menashi cites a
number of precedents that have no pertinence to this
complaint because they involved the question of the
power of the courts to direct a President’s conduct of the
business of the United States. The Supreme Court’s
1866 decision in Mississippi v. Johnson related to
whether the federal courts may “enjoin the President in
the performance of his official duties.” 71 U.S. 475, 501
(1866). In that case, the State of Mississippi sought to
enjoin the President from using the power of the Executive Branch to enforce an allegedly unconstitutional
law. Id. at 497-98. Likewise, in Franklin v. Massachusetts, the plaintiffs sought a court order declaring
the President’s exercise of Executive power to be unlawful and requiring the President and his subordinates to

175a
conduct the duties of the Executive Branch in a particular manner. 505 U.S. 788, 790-91 (1992). 2 In that case,
As Judge Menashi notes, see Menashi Dissent at 16-17, in most
cases, a court may redress an injury arising from unlawful Presidential action by issuing relief against an inferior executive offer. See,
e.g., Youngstown Sheet & Tube Co. v. Sawyer, 343 U.S. 579, 585-89
(1952) (declaring President Truman’s executive order directing the
seizure of steel mills unlawful where the defendant was Truman’s
Secretary of Commerce); Franklin, 505 U.S. at 803 (“[W]e need not
decide whether injunctive relief against the President was appropriate, because we conclude that the injury alleged is likely to be redressed by declaratory relief against the Secretary [of Commerce]
alone.”). In this case, however, because the President’s allegedly
unlawful acts are personal acts done for his own benefit and not in
the name of, or for the benefit of, the United States, there are no
inferior executive officers against whom the plaintiffs could seek declaratory or injunctive relief that would redress their injuries. See
Swan v. Clinton, 100 F.3d 973, 978 (D.C. Cir. 1996) (noting that in
“rare instances . . . only injunctive relief against the President
himself will redress [the plaintiffs’] injury”). This fact, however,
does not mean that the plaintiffs’ injuries are beyond the reach of
judicial redress. See Nat’l Treasury Emp. Union v. Nixon, 492
F.2d 587, 613 (D.C. Cir. 1974) (“[I]t would be exalting form over substance if the President’s acts were held to be beyond the reach of
judicial scrutiny when he himself is the defendant, but held within
judicial control when he . . . has delegated the performance of
duties to federal officials subordinate to [him] and one or more of
them can be named as a defendant.”).
Judge Menashi also contends that my observation that injunctive or
declaratory relief against an inferior executive officer cannot redress the plaintiffs’ injuries “highlights a[] [] flaw in the plaintiffs’
case: they have not alleged an injury . . . that the Emoluments
Clauses are designed to prevent.” Menashi Dissent at 29. I see
no logic in the argument. The question whether the plaintiffs are
at substantial risk of injury is entirely distinct from whether the injury may be redressed by relief against an inferior officer or only by
relief against the President himself, and whether the plaintiffs’ injury falls within the concerns of the Emoluments Clauses.
2

176a
the plaintiff challenged a decision of the President relating to how overseas federal employees are counted in
the census for purposes of the apportionment of state
representatives to the House of Representatives. Id.
at 790-91. And Swan v. Clinton questioned whether
the President had used his Executive power unlawfully
by removing from office a member of the Board of the
National Credit Union Administration without cause,
and sought an injunction directing the President to reinstate the plaintiff. 100 F.3d 973, 975-77 (D.C. Cir.
1996).
Those authorities have no pertinence to this case because this complaint has nothing to do with the President’s exercise of his official duties. The judicial order
sought by the plaintiffs pertains only to the President’s
personal behavior. What the plaintiffs seek is not at all
like “telling a member of Congress to vote to pass or repeal a particular law.” Menashi Dissent at 15. 3

Lastly, Judge Menashi says I imply that the plaintiffs must have
satisfied Article III because “if [they] have no standing to sue, no one
would have standing.” Id. I make no such argument. I say only
that the plaintiffs have established standing under well-established
Article III standards, and that the unavailability of relief from an
inferior officer does not in any way negate the likelihood of injury
to the plaintiffs sufficient to establish federal court jurisdiction.
3
Indeed, during the course of the Emoluments Clause suit filed
against the President in the District of Maryland, the President conceded that, by challenging his receipt of revenues from his hotel and
restaurant establishments, plaintiffs based their claims on the President’s “private business pursuits . . . having nothing to do with
the President’s service as President.” Memorandum in Support of
Defendant’s Motion to Dismiss at 30, District of Columbia v. Trump,
315 F. Supp. 3d 875 (D. Md. 2018) (No. 8:17-cv-01596), Dkt. No.
21-1. The President’s later filing in the same case, cited by Judge

177a
A grant of declaratory or injunctive relief would affect only the President’s private, unofficial business
dealings; it would in no way “interfer[e] with the exercise of Executive discretion.” Johnson, 71 U.S. at 501.
Nor would it “requir[e] [the President] to exercise the
‘executive Power’ in a judicially prescribed fashion,”
Franklin, 505 U.S. at 826 (Scalia, J., concurring), or pose
any “danger[] of intrusion on the authority and functions
of the Executive Branch,” Nixon v. Fitzgerald, 457 U.S.
731, 754 (1982). 4 I know no authoritative precedent that
would preclude court-ordered relief should the plaintiffs
prevail on the merits, and there is no reason to suggest
that a judicial order affecting the President’s personal
receipt of revenues from his hotel businesses would impermissibly interfere with the exercise of Executive
power. See Clinton v. Jones, 520 U.S. 681, 701-05 (1997)
(concluding that “the federal courts have power to deMenashi, see Menashi Dissent at 25 n.30, did not contradict this earlier concession. See Memorandum in Support of Motion to Dismiss
on Behalf of Defendant in His Official Capacity at 14-15, Trump, 315
F. Supp. 3d 875, Dkt. No. 112-1. That filing argued that the district
court was “mistaken” to conclude that “this dispute has ‘nothing’ to
do with” the President’s official duties only because “[h]ad the President not been elected, and thereby assumed the duties of that office,
no claim would lie against him under the Emoluments Clauses.” Id.
It is entirely correct that the alleged unlawfulness of the President’s
sale of hotel and restaurant services depends on his holding office as
an officer of the United States. But it in no way follows from that
fact that his sales of restaurant and hotel services are official acts
done on behalf of the United States.
4
See In re Trump, 958 F.3d 274, 288 (4th Cir. 2020) (en banc)
(“The duty to obey [the Emoluments Clauses] . . . flows from
the President’s status as head of the Executive Branch, but this
duty to obey neither constitutes an official executive prerogative
nor impedes any official executive function.”).

178a
termine the legality of [the President’s] unofficial conduct” because “[t]he litigation of questions that relate
entirely to the unofficial conduct of the individual who
happens to be the President poses no perceptible risk of
misallocation of either judicial power or executive
power”). 5
II.
While the conduct addressed by the complaint is
wholly private and not official, it is of course true that
what renders that private conduct illegal under the theory of the complaint is the fact that the beneficiary of
the emoluments holds “[an] Office of Profit or Trust” in
the government of the United States, U.S. CONST. art.
I, § 9, cl. 8 (Foreign Emoluments Clause), indeed holds
the office of the President, U.S. CONST. art. II, § 1, cl. 7
(Domestic Emoluments Clause). Presumably for that
reason, the attorneys for the plaintiffs named President

Cf. Knight First Amendment Inst. at Columbia Univ. v. Trump,
928 F.3d 226 (2d Cir. 2019) (affirming the district court’s grant of
declaratory relief holding that the President’s “blocking” of several
plaintiffs from his Twitter account violated the First Amendment),
reh’g denied, 953 F.3d 216; Complaint at ¶ 16, Knight v. Trump, 302
F. Supp. 3d 541 (S.D.N.Y. 2018) (No. 1:17:-cv-05205) (“Defendant
Donald Trump . . . is sued in his official capacity only.”); see also
Nixon v. Fitzgerald, 457 U.S. 731, 753-54 (1982) (“It is settled law
that the separation-of-powers doctrine does not bar every exercise
of jurisdiction over the President of the United States.”) (citing, inter alia, United States v. Nixon, 418 U.S. 683 (1974)); Halperin v.
Kissinger, 606 F.2d 1192, 1211-12 (D.C. Cir. 1979) (“[A] proper regard for separation of powers does not require that the courts
meekly avert their eyes from presidential excesses while invoking a
sterile view of three branches of government entirely insulated from
each other.”).
5

179a
Trump as a defendant “in his official capacity,” reflecting the recognition that, were Mr. Trump not a federal
office holder, his receipt of emoluments from domestic
or foreign governments would not fall within the restrictions of the Constitution. Judge Menashi interprets the complaint’s statement that it sues the President “in his official capacity” to mean that the complaint
seeks judicial orders that would control the actions of
the President in the exercise of his “official powers,”
which Judge Menashi contends is beyond the court’s jurisdiction. See Menashi Dissent at 15. Judge Menashi
further asserts that our treatment of the complaint as
challenging personal, non-official acts of the President
is inconsistent with the plaintiffs’ “deci[sion] to pursue
claims against the President only in his official capacity.” Id. at 25 n.30. The complaint’s naming of the
President in his “official capacity” is arguably necessary
because it is the President’s official capacity as an officer of the United States that renders his private conduct illegal under the theory of the complaint. 6 It does
not follow from naming the President in his official capacity that the suit is directed against official conduct of
the President, or that the conduct the plaintiffs challenge must be characterized as “official” business of the
Executive Branch. 7 Judge Menashi’s suggestion to the
Indeed, in seeking dismissal of a similar suit before the District
of Maryland, the President argued that there was “no cause of action against the President in his individual capacity under the
Emoluments Clauses.” Memorandum in Support of Motion to
Dismiss on Behalf of Defendant in His Individual Capacity at 1417, District of Columbia v. Trump, 315 F. Supp. 3d 875 (D. Md.
2018) (No. 8:17-cv-01596), Dkt. No. 112-1.
7
See District of Columbia v. Trump, 291 F. Supp. 3d 725, 746-47
(D. Md. 2018) (dismissing the argument that, because President
6

180a
contrary construes the complaint as meaning something
it obviously does not mean. There is no inconsistency
in recognizing that a President’s personal receipt of
moneys is private conduct, notwithstanding a complaint’s naming the President in his official capacity because his office is what renders that private conduct unlawful. 8

Trump was sued in his “official capacity,” the suit “amounts to a suit
against the United States” because “it is clear that the gist of [plaintiffs’ Emoluments Clauses challenges] is that the President’s purported receipt of emoluments . . . has nothing at all to do with
his ‘official duties’ ”), mandamus denied on reh’g sub nom. In re
Trump, 958 F.3d 274 (4th Cir. 2020) (en banc).
8
Judge Menashi seeks to support his argument by citation to the
Supreme Court’s recent statement that, in the context of an intervention by President Trump to quash congressional subpoenas for
his personal records, the “interbranch conflict [between Congress
and the Executive] does not vanish simply because the subpoenas
seek personal papers.” See Menashi Dissent at 15-16, 22, 23 n.24
(quoting Trump v. Mazars USA, LLP, 140 S. Ct. 2019, 2034 (2020)).
But that statement must be read in context. The Court’s separationof-powers analysis in Mazars stemmed from its concern that, without “limits on the congressional power to subpoena the President’s
personal records,” Congress could abuse its power to secure information needed to legislate, instead using that power to “harass” the
President. 140 S. Ct. at 2034. Accordingly, one of the Court’s primary concerns was to ensure the subpoenas at issue were justified
by (and narrowly tailored to) a “valid legislative purpose”—and were
not impermissible attempts to “inquire into [the President's] private
affairs” or to “expose for the sake of exposure.” See id. at 2031-32.
In that context, the fact that the subpoenas were for “personal papers” rather than official ones posed “a heightened risk of such impermissible purposes,” and therefore of a separation-of-powers
problem, “precisely because of the documents’ personal nature and
their less evident connection to a legislative task.” Id. at 2035 (emphasis added).

181a
Further, if the complaint is ambiguous as to whether
it challenges official or personal acts of the President, it
is the obligation of courts in assessing the legal sufficiency of a complaint to construe ambiguities in the manner most favorable to the plaintiff. See Aurecchione v.
Schoolman Transp. Sys., Inc., 426 F.3d 635, 638 (2d Cir.
2005) (noting that, when considering a motion to dismiss
under Rule 12(b)(1), the court must “constru[e] all ambiguities” and “draw[] all inferences in [the] plaintiff ’s
favor” (citations and internal quotation marks omitted)).
This is to preserve the complaint notwithstanding that a
possible, but not necessarily correct, meaning of an ambiguous passage would require its dismissal. By construing an ambiguity in the complaint in the manner
least favorable to the plaintiff so as to require its dismissal, Judge Menashi disregards the basic principle that

That point does not support Judge Menashi’s argument, which questions whether the federal courts have the power to adjudicate whether
the President’s purely private conduct is unlawful. Indeed, the
Mazars Court explicitly distinguished the separation-of-powers concerns raised by a congressional subpoena from the constitutional
concerns raised by judicial proceedings against the President, see id.
at 2034 (citing In re Sealed Case, 121 F.3d 729, 753 (D.C. Cir. 1997)),
and reaffirmed its prior unanimous opinion in Clinton v. Jones holding that a sitting president is amenable to civil litigation particularly
where, as here, “there is no possibility that the decision will curtail
the scope of the official powers of the Executive Branch.” 520 U.S.
at 701; see also Mazars, 140 S. Ct. at 2036 (citing Clinton). While
in Mazars the personal nature of the papers subpoenaed by Congress made it less likely the subpoenas fell within Congress’s legitimate authority, here the personal nature of President Trump’s operation of his private business makes it all the more likely that adjudication of the dispute will not involve the court in any inappropriate
interference with Executive prerogative. See Clinton, 520 U.S. at
701.

182a
we are required to do the opposite in considering a motion to dismiss. In any event, even if the plaintiffs’ decision to sue President Trump “in his official capacity”
somehow required treating the complaint as directed
against the exercise of the President’s official powers
notwithstanding its obvious contrary intention, the
plaintiffs should be allowed to amend their complaint to
state that President Trump is sued “in both his official
and his personal capacities.” Rule 15(a)(2) of the Federal Rules of Civil Procedure provides, “The court
should freely give leave [to amend a complaint] when
justice so requires.” 9
Judge Menashi objects to the suggestion that, if it were necessary in order for this suit to proceed, the plaintiffs should be permitted to amend the complaint to explicitly name the President in his
individual capacity. He argues that this would “have large implications” because the President does not have counsel to represent him
in his individual capacity. Menashi Dissent at 27 n.31. But the President could simply retain counsel for that purpose. Although the
suit has been pending for over 3 years, it has not yet reached its first
substantive phase. Up to now the litigation has been entirely consumed with whether it may be heard by the court. In a similar case
before the District of Maryland, after the court granted the plaintiffs
leave to amend their complaint to add the President “in his individual
capacity,” the President promptly retained counsel for that purpose.
See Notice of Appearance, District of Columbia v. Trump, 315
F. Supp. 3d 875 (D. Md. 2018) (No. 8:17-cv-01596), Dkt. No. 109.
9

Judge Menashi further argues that the majority opinion impermissibly “treated the complaint as having been amended—without stating that it was doing so and without even requiring an actual amendment.” Menashi Dissent at 27 n.31. He is mistaken. The majority opinion did not deem it necessary for the plaintiffs to amend the
complaint to state a claim that falls within the jurisdiction of a federal court. Neither this statement, nor the majority opinion, treats
the complaint as if it had been amended. I merely observe that, if
the district court illogically viewed the naming of the President “in

183a
III.
Judges Walker and Menashi contend that our finding
of standing depends on relaxation of the Article III standard to the point that any advantage realized by a defendant would give standing to all competitors. The
justification for the panel opinion’s finding of standing,
however, was that the facts alleged persuasively show a
very substantial likelihood of injury to the Trump competitors. Judge Walker acknowledges that when injury to a plaintiff competitor will “likely” result from the
defendant’s conduct, that is sufficient to establish standing. 10 No relaxation of that standard is required to recognize that injury to competitors of the Trump establishments in the field of high-end, luxury hotels and restaurants will likely result from the powerful motivation
his official capacity” as necessarily meaning that the conduct complained of was official conduct and that this took the complaint outside the scope of the court’s jurisdiction, the proper ruling for the
district court would have been to allow the plaintiffs to amend the
complaint to clarify that the conduct from which it seeks relief is private conduct.
10
Judge Walker’s statement asserts, “To be sure, in some circumstances, competitive injury is so predictable and certain that we can
say, as a matter of economic logic, that it will ‘almost surely’ occur, or
that the plaintiffs will ‘likely suffer’ an injury in fact, or that there is
a ‘sufficient likelihood’ of personal injury—whatever degree of certainty is required by a particular circuit. But only then does the competitor standing doctrine permit a plaintiff to show standing without
making a specific showing of injury.” CREW v. Trump, __ F.3d __
(2d Cir. 2020) (Walker, J., statement on denial of rehearing en banc,
at 3) (hereinafter “Walker Statement”) (emphasis added) (citations
omitted). As discussed below, Judge Walker’s suggestion that a plaintiff ’s likelihood of future injury must be at or near “certainty” misstates the standard for establishing an Article III injury-in-fact. See
infra.

184a
of governmental patrons to curry favor with the President by spending money in his establishments.
The logic supporting a substantial likelihood of injury
to competitors of the Trump hotels and restaurants is
simple and compelling. With respect to the Foreign
Emoluments Clause claim, the President exercises control over the foreign relations of the United States, negotiates its treaties, in many regards sets the terms of
trade with foreign nations, 11 and presides over its Armed
Forces. As the United States is the richest and most
powerful nation in the world, provides foreign aid and
military defense support to many nations, and provides
the richest markets for the sale of products made all
over the world, there is scarcely a nation that does not
seek benefits from the United States in its diplomatic
dealings. Governments and their diplomats from all
over the world perceive it as crucial to their success in
diplomacy with the United States to secure the personal
goodwill of the President and avoid the risk of incurring
his displeasure. The President’s favor is a lucrative
prize for a foreign diplomat whose visits to our country
often have the purpose of seeking some favorable action
from the government which the President largely controls. It is therefore the business of a diplomat, whose
mission depends on such favorable action, to use any
available means to seek the President’s favor and to
avoid the risk of displeasing him. It is an “accepted
See Fed. Energy Admin. v. Algonquin SNG, Inc., 426 U.S. 548,
550-51 (1976) (discussing the President’s power, under Section 232(b)
of the Trade Expansion Act of 1962, to “take such action . . . to
adjust the imports of [articles of commerce by imposing quotas and
tariffs] . . . [so that they do not] threaten to impair the national
security”).
11

185a
tenet of modern statecraft” that diplomats will “seek to
use all available rewards or incentives to influence” the
President. Brief of Former National Security Officials
as Amici Curiae at 25-26, CREW v. Trump, 953 F.3d 178
(2d Cir. 2019) (No. 18-474). In addition, the President,
according to the allegations of the complaint, has announced to the world his favoritism for nations that patronize his businesses. 12 It follows with undeniable
logic that the envoys of foreign nations, who are free to
choose otherwise equivalent venues, will be strongly motivated to choose the President’s establishments, so as
to advance their objective of currying the President’s favor, and to avoid the risk of displeasing him by choosing
his competitors. This likelihood is substantiated not
only by obvious logic but by the complaint’s references
to explicit statements of foreign diplomats. One of
those diplomats, quoted in the Washington Post, stated:
“Why wouldn’t I stay at his hotel blocks from the White
House, so I can tell the new president, ‘I love your new
hotel!’ Isn’t it rude to come to his city and say, ‘I am
staying at your competitor?’ ” Second Am. Compl. ¶ 62.
Another said: “Believe me, all the delegations will go
there.” Id. 13 Similar economic logic explains why representatives of states of the United States will likely be
See Second Am. Compl. ¶ 96 (“Trump said [of the Saudis, in the
context of discussing trade negotiations], ‘ . . . They spend $40
million, $50 million. Am I supposed to dislike them? I like them
very much.’ ”); id. ¶ 52 (quoting the President’s response to a question about the U.S.’s dispute with China over the South China Sea:
“I do deals with [China] all the time. [China’s largest bank] is a
tenant of mine. . . . ”).
13
Judge Menashi faults me for citing these statements because
they relate to the President’s hotel in Washington D.C., and because
“no plaintiff in this case owns or is otherwise associated with a hotel
12

186a
motivated to make choices that will please the President,
rather than offend him.
Judges Walker and Menashi dismiss the plaintiffs’
theory of injury as too speculative and not “so predictable and certain that we can say, as a matter of economic
logic” that plaintiffs will suffer harm. Walker Statement
at 3. 14 But neither Judge Menashi nor Judge Walker offer reasons to dispute the seemingly obvious proposition
in Washington D.C.” Menashi Dissent at 29. That is beside the
point. The plaintiffs compete with Trump hotels in New York City,
see Second Am. Compl. ¶¶ 196-97, 228, and with Trump restaurants
in both New York City and Washington, D.C., id. ¶¶ 182, 191, 196.
These statements support the commonsense and logical proposition
that the possibility of influencing the President by spending money
at his establishments will be a powerful motivation for domestic and
foreign government officials to patronize his businesses in preference to those of competitors.
14
Judge Menashi suggests that the fact that the plaintiffs do not
point to a verified instance in which they themselves lost business to
a Trump establishment as a result of the challenged conduct means
that in all likelihood they have not and will not suffer an injury.
Menashi Dissent at 3, 10, 11 n.12. This argument overlooks the fact
that the three-year-old complaint we now consider was filed in May
2017, less than five months after Mr. Trump assumed the presidency. In any case, the plaintiffs were under no obligation to include in their complaint evidence that they have already suffered
injury because Article III clearly confers standing based on a substantial likelihood of future injury. Lujan v. Defenders of Wildlife,
504 U.S. 555, 560 (1992) (explaining that the plaintiff ’s injury must
be “actual or imminent” (emphasis added) (citation omitted)); Dep’t
of Commerce v. New York, 139 S. Ct. 2551, 2565-66 (2019) (upholding
standing based on the plaintiffs’ showing that the reinstatement of a
citizenship question on the census would cause a likely future injury
to the plaintiffs by “depress[ing] the census response rate and lead[ing] to an inaccurate population count”). Moreover, Judge Menashi’s argument overlooks Justice Scalia’s clarification that “general

187a
that the opportunity to procure the President’s favor or
avoid his disfavor is a highly significant motivator for a
foreign diplomat or a state representative. It is precisely the significance of that competitive advantage
that makes the plaintiffs’ theory of injury plausible and
supports the conclusion that the plaintiffs are substantially likely to suffer economic injury as a result of the
conduct they challenge.
The logic that supports the likelihood that governmental customers will be motivated by the opportunity
to attempt to curry the President’s favor by spending
money at his establishments does not at all depend on
the proposition, as Judges Walker and Menashi argue,
that any advantage realized by a competitor as a result
of allegedly illegal conduct is sufficient to establish
standing. What is involved in the plaintiffs’ allegations
is an advantage (derived by the defendant from allegedly illegal conduct) that will be clearly perceptible to
governmental customers, and will provide them with a
strong incentive to patronize the President’s establishments in preference to the plaintiffs’. It is not only eminently plausible but highly likely that foreign diplomats
and state representatives will be motivated to spend
their money at President Trump’s hotels and restaurants precisely because of the hope that doing so will
earn favor with him and avoid displeasing him, and that
at least some of those officials would have otherwise patronized the plaintiffs’ establishments. In a case where
the advantage derived by the defendant from illegal conduct was small, and the likelihood was low that potential
customers would be aware of it, much less motivated by
factual allegations of injury” suffice at the pleading stage.
504 U.S. at 561.

Lujan,

188a
that advantage to prefer the defendant over a plaintiff,
those circumstances would not support a substantial likelihood that the challenged conduct would cause the
plaintiff injury, and should not support a finding of
standing. But the present allegations are far removed
from that. 15
Judge Walker undertakes to prove the “the absence of the required economic logic in this case” by a hypothetical case, in which
the plaintiff, a restaurant, “sues a competing restaurant that used a
fraudulently obtained bank loan or tax refund to improve its business, such as by hiring a new chef or lowering prices, thereby increasing its market competitiveness.” Walker Statement at 5.
Judge Walker’s reasoning seems to be that such a case obviously
does not involve an injury that is traceable to the defendant’s fraud
and is therefore not within our Article III jurisdiction.
15

Judge Walker’s hypothetical, however, proves little because it is silent
as to the crucial fact of the significance of the competing restaurant’s
unlawfully obtained advantage to its competitive position. If the proceeds from his hypothetical defendant’s fraud were small, or enabled
only marginal improvements in service or small reductions in prices,
the circumstances would not support a substantial likelihood that customers would perceive the differences, much less choose the defendant’s restaurant over the plaintiff’s because of those differences.
On the other hand, if the proceeds of the defendant’s fraud enabled
him to offer a restaurant of obviously better quality at substantially
similar prices, or a similar restaurant at markedly lower prices, then
there would be a far stronger showing of likelihood that the defendant’s illegal conduct would cause injury to the plaintiff. Whether
there is a substantial likelihood that the defendants’ illegal conduct
will cause injury to competitors depends on detailed analysis of the
facts. In our case, the allegations support a strong inference of likely
resultant harm. Judge Walker’s hypothetical case does not supply
sufficient facts to support such an inference.
What makes his case even more confusing is that Judge Walker’s hypothetical complaint would obviously be dismissed on the merits because the fraud laws do not afford a remedy to one who is injured in

189a
IV.
Judge Walker and Menashi make two more arguments regarding the competitor standing doctrine,
which I believe have no force. First, they argue, based
on the Supreme Court’s decision in Already, LLC v.
Nike, Inc., 568 U.S. 85 (2013), and this court’s decision
in In re United States Catholic Conference, 885 F.2d
1020 (2d Cir. 1989), that our ruling was premised on an
overly permissive standard and failed to reconcile a perceived discrepancy in Second Circuit case law. They
rely on Already and Catholic Conference as showing
that a plaintiff does not establish Article III standing by
merely “asserting that an advantage to one competitor
adversely handicaps the others,” and that a court may
not assume, merely based on such an assertion, that the
plaintiff will suffer harm as a result of her competitor’s
advantage. Walker Statement at 2. They assert that
a plaintiff “must [instead] make that showing” affirmatively. Menashi Dissent at 8.
Our panel decision was not to the contrary. We did
not rely on a mere assertion of a likelihood that the
plaintiffs would suffer harm. To the contrary, as explained at length above, our finding of a substantial likelihood of injury to the plaintiffs was based on analysis of
factual allegations that persuasively support that conclusion. Already and Catholic Conference do not cast
that fashion. The Supreme Court has warned us not to confuse the
insufficiency of a complaint on the merits with lack of Article III
standing. See Morrison v. Nat’l Australia Bank Ltd., 561 U.S. 247,
253 (2010) (“Subject-matter jurisdiction . . . refers to a tribunal’s
power to hear a case. It presents an issue quite separate from the
question whether the allegations the plaintiff makes entitle him to relief.” (citations and internal quotation marks omitted)).

190a
any doubt on the logic that supports the likelihood of the
plaintiffs’ injury in our case. The difference between
those cases and this one is that in those cases there was
no likelihood that the plaintiffs would suffer injury resulting from the challenged conduct.
In Already, the petitioner, Already, LLC, which competed with the respondent Nike, Inc. in footwear, sought
to invalidate a Nike trademark on which Nike had asserted a claim against Already. 568 U.S. at 88. Nike,
however, later abandoned its trademark claim and issued a “Covenant Not to Sue,” “promis[ing] that [it]
would not raise against Already or any affiliated entity
any trademark or unfair competition claim based on any
of Already’s existing footwear designs, or any future Already designs that constituted a ‘colorable imitation’ of
Already’s current products.” Id. at 88-89. The Supreme Court concluded, on the basis of that covenant,
that it was “absolutely clear” that Nike could not be reasonably be expected to again raise a similar trademark
challenge. Id. at 100. The facts thus showed no likelihood that Already would suffer injury from Nike’s challenged trademark. 16
As Judge Walker notes, one of Already’s alternative theories of
competitive injury was that “so long as Nike remains free to assert
its trademark, investors will be apprehensive about investing in Already.” 568 U.S. at 96; see also Walker Statement at 3. The Supreme Court rejected this theory, explaining that any investor concerns about Nike’s assertion of trademark claims against Already
were “conjectural or hypothetical” given the existence of the covenant that precluded this possibility, 568 U.S. at 97, apparently using
the adjectives “conjectural” and “hypothetical” to mean predictions
without factual or logical basis. Here, by contrast, especially as the
complaint alleges that the President has openly proclaimed his preference for those who patronize his businesses, government officials’
16

191a
Similarly, in Catholic Conference, our court found no
likelihood that the plaintiffs would suffer a competitive
injury from the defendant’s unlawful conduct because
the plaintiffs and the party that enjoyed the allegedly
unlawful benefit did not compete. 885 F.2d at 1029-30
(explaining that the “fatal flaw” in plaintiffs’ standing
argument is that “they are not competitors” with the
party enjoying the allegedly unlawful benefit). An advantage to an alleged competitor was not likely to cause
a disadvantage to the plaintiffs if, in fact, they are not in
competition against each other.
There is a clear strong difference between our case,
on the one hand, and Already and Catholic Conference.
Whereas in our case the alleged facts logically support a
substantial likelihood that the plaintiffs will be harmed
by the defendant’s alleged misconduct, in Already and
Catholic Conference the facts showed that there was no
such likelihood. Neither case undermines the substantial likelihood, based on the facts asserted in the complaint, that the President’s alleged violation of the Emoluments Clauses will cause harm to the plaintiffs. Second, Judge Menashi argues that the plaintiffs’ theory of
likely choice to patronize the President’s establishments over those
of the plaintiffs in order to curry his favor would not be based on
mere “conjectur[e].”
Another of Already’s theories of competitive injury was that, notwithstanding the absence of a reasonable possibility that Nike would
assert its trademark against Already, Already had standing to challenge that trademark due to its status “as a company engaged in the
business of designing and marketing athletic shoes.” Id. at 98 (alterations omitted). It was in this context that the Court stated that
a plaintiff must do more than allege that “a competitor benefits from
something allegedly unlawful,” and clarified that “[w]e have never
accepted such a boundless theory of standing.” Id. at 99.

192a
injury is insufficient as a matter of “economic logic” because the market in which the plaintiffs compete has too
few buyers (i.e. government patrons) and too many
sellers (i.e. high-end hotels and restaurants) to permit a
court to conclude that the plaintiffs—rather than other
hotel and restaurant competitors—are harmed by the
President’s conduct. In a “single transaction market,”
he explains, in which one seller obtains an unfair advantage over competitors, it is more reasonable to assume that a different, competing seller suffers an injury
as a result of that unfair advantage if the market has
1,000 buyers and only two sellers, than if the market has
1,000 sellers and only one buyer. Menashi Dissent at
11. He posits that the high-end market in which the
Trump hotels and restaurants compete with the plaintiffs’ might be more like the latter, so that there would
be no reason to expect that the inducement to governments to favor Trump establishments causes harm to
the plaintiffs. Judge Menashi points to no factual basis
to support his proposition. Given the fact that there
are nearly 200 nations in the world (and 50 states), many
of which send delegates to Washington or New York,
where they become buyers whose business the Trump
establishments seek, I doubt Judge Menashi’s speculation that the ratio of buyers to high-end luxury hotels
and restaurants that compete with Trump establishments would look anything like a market of “one buyer
and 1000 sellers.” Id. In any event, this makes no difference because, as explained below in Part V of this
statement, our conclusion that the plaintiffs have
pleaded likelihood of concrete competitor injury sufficient to satisfy Article III is in conformity with conventional daily decisions of federal courts to entertain suits

193a
alleging antitrust violations, false advertising, false designations of origin, and unfair competition. 17
V.
In assailing the panel opinion’s analysis of the plaintiff ’s theory of competitive injury, Judge Menashi asserts that the Supreme Court has held that, to meet the
requirements of Article III, an imminent injury must be
“certainly impending”—or, alternatively, that the challenged conduct must ‘almost surely” have caused the
plaintiffs harm. Menashi Dissent at 4. He cites to the
Supreme court’s opinion in Clapper v. Amnesty International USA, 568 U.S. 398 (2013), in which the Court
stated that a plaintiff can establish Article III standing
based on an imminent injury by showing that her threatened injury is “certainly impending” rather than merely
“possible.” Id. at 409. The Clapper opinion, however,
acknowledged that “[o]ur cases do not uniformly require
plaintiffs to demonstrate that it is literally certain that
the harms they identify will come about,” and that a
“substantial risk” of harm will suffice. Id. at 414 n.5. 18
Judge Menashi complains that I gratuitously and incorrectly attribute to him a view that “the market for high-end restaurants and
hotels is one with many sellers and few buyers,” when in fact, he asserts, his only point was to note the majority’s lack of interest in the
question. Menashi Dissent at 11 & n.12. If I have misread his argument, I apologize. But, especially as this passage of his dissent
calls the majority’s conclusion “indefensible” and impermissibl[e],
id., I read it as suggesting that a proper exploration of the buyerseller ratio would have shown the majority that its conclusion was
erroneous. I do not interpret his vote for en banc rehearing as expressing a wish for a new opinion supporting the same conclusion
with better reasons.
18
Judge Menashi further points out that, in Clapper, the Supreme
Court stated that a plaintiff “cannot rely on speculation about ‘the
17

194a
Indeed, the Supreme Court has often expressed the governing standard without any reference to “certainty,”
but requiring only a “realistic danger” or a “substantial
risk” of harm. See Babbitt v. United Farm Workers
Nat’l Union, 442 U.S. 289, 298 (1979) (“A plaintiff who
challenges a statute must demonstrate a realistic danger of sustaining a direct injury as a result of the statute’s operation or enforcement.” (emphasis added)). 19
One year after Clapper, Justice Thomas, writing for a
unanimous Court, asserted that an allegation of imminent injury qualifies as an Article III injury-in-fact either “if the threatened injury is ‘certainly impending’ ”
or if “there is a ‘substantial risk’ that the harm will occur.” Susan B. Anthony List v. Driehaus, 573 U.S.
149, 158 (2014) (citing Clapper, 568 U.S. at 414 n.5).
Still more recently, the Supreme Court has explained
unfettered choices made by independent actors not before the court’ ”
to establish standing. 568 U.S. at 414 n.5 (citation omitted); Menashi
Dissent at 34. However, as explained in the majority opinion,
“[t]hat Plaintiffs’ theory of harm results from decisions of third parties does not preclude finding the cognizable link between the challenged action and the alleged harm that Article III requires.” 953
F.3d at 197-98; see also Dep’t of Commerce, 139 S. Ct. at 2566 (holding that plaintiffs had Article III standing where their “theory of
standing . . . relies [] on the predictable effect of [the challenged
action] on the decisions of third parties”); Block v. Meese, 793 F.2d
1303, 1309 (D.C. Cir. 1986) (Scalia, J.) (“It is impossible to maintain,
of course, that there is no standing to sue regarding action of a defendant which harms the plaintiff only through the reaction of third
persons.”).
19
As Justice Breyer’s dissenting opinion explained in Clapper,
“certainty is not, and has never been, the touchstone of standing,”
and “federal courts frequently entertain actions for injunctions and
for declaratory relief aimed at preventing [harm] that [is] reasonably likely or highly likely, but not absolutely certain, to take place.”
568 U.S. at 431 (Breyer, J., dissenting).

195a
that a “risk of real harm” can satisfy the injury-in-fact
requirement of Article III. Spokeo, Inc. v. Robins, 136
S. Ct. 1540, 1549 (2016). 20 And in Department of Commerce v. New York, the Court upheld Article III standing based on a “sufficient likelihood” of “future injur[y].”
139 S. Ct. 2551, 2565 (2019). These holdings make clear
that certainty of impending injury is not necessary to
establish Article III jurisdiction. 21
Moreover, if “certainly impending” injury were necessary, hardly ever would a competitor’s suit for antitrust violation, trademark infringement, false designation of origin, false advertising, or unfair competition be
heard in federal court. 22 In most such cases, there is

The Spokeo opinion added, “[T]he law has long permitted recovery by certain tort victims even if their harms may be difficult to
prove or measure.” 136 S. Ct. at 1549.
21
Cf. Nat. Res. Def. Council v. Nat’l Highway Traffic Safety Admin., 894 F.3d 95, 104 (2d Cir. 2018) (“[Plaintiffs] need not prove a
cause-and-effect relationship with absolute certainty; substantial
likelihood of the alleged causality meets the test [for Article III purposes].” (quoting Competitive Enter. Inst. v. NHTSA, 901 F.2d
107, 113 (D.C. Cir. 1990))).
22
In POM Wonderful LLC v. Coca-Cola Co., for example, the Supreme Court allowed a false advertising claim to proceed based on
defendant’s allegedly deceptive use of the words “pomegranate blueberry” on its juice packaging. 573 U.S. 102, 110 (2014). The plaintiff ’s theory of harm was that customers would likely buy the defendant’s product in preference to plaintiff’s in the mistaken belief that
the defendant’s juice, like the plaintiff ’s, contained predominantly
pomegranate juice. Id. There were no doubt innumerable reasons
why some customers might have favored the defendant’s product regardless of the defendant’s allegedly false claims. The Supreme
Court nonetheless upheld the sufficiency of pleading without questioning the plaintiff ’s Article III standing.
20

196a
no less likelihood than here that customers would patronize the alleged offender regardless of the offending
conduct because of better service or quality, lower
prices, dependence on the defendant’s goodwill, or other
motivations.
Making a related argument, Judges
Walker and Menashi suggest that standing is necessarily defeated by the possibility that government patrons might choose Trump establishments for a variety
of reasons other than their desire to curry favor with the
President, such as “service, quality, location, price and
other factors related to individual preference.” See
Walker Statement at 4; Menashi Dissent at 10. It is of
course true that some government customers might
choose Trump hotels and restaurants for other reasons.
That is true in virtually all cases of competitor standing.
If it were clear that customers would choose the defendant over the plaintiff regardless of the defendant’s allegedly illegal activity—i.e. that the challenged conduct
could not affect customer decision-making—then there
would be no likelihood that the defendant’s illegal conduct would cause the plaintiffs injury, and the plaintiffs
would have no Article III standing. Such a claim would
fail for the same sorts of reasons as defeated Already’s
claim in the Supreme Court. Already, 568 U.S. at 100.
But the mere possibility of that circumstance does not
affect the plaintiff ’s Article III standing so long as the
facts show a substantial likelihood that the defendant’s
conduct will cause the plaintiff injury.
Where a plaintiff brings a trademark infringement
claim, for example, alleging that a competitor is using
the plaintiff ’s trademark on similar goods, the federal
courts exercise jurisdiction without need for allegation
or proof, to a certainty, that the plaintiff has lost or will
lose business or suffer harm as a result. A substantial

197a
likelihood that the defendant’s conduct will inflict harm
is sufficient, and a mere possibility that some customers
may choose the defendant’s product over the plaintiff ’s
for reasons unrelated to the challenged conduct does not
defeat standing. 23 Indeed, the federal trademark statute expressly authorizes a claim where the defendant’s
conduct is “likely to cause confusion, or to cause mistake, or to deceive.” 15 U.S.C. § 1114(1)(a)-(b) (emphasis added). Were the federal courts to adopt the “certainty” standard as necessary to establish Article III jurisdiction, or reject all cases in which the possibility exists that customers might choose the defendant over the
plaintiff for reasons other than the defendant’s unlawful
conduct, antitrust, trademark, false advertising, and unfair competition litigation would virtually disappear
from the federal court dockets.
Judge Menashi dismisses as irrelevant the fact that
the injury alleged by these plaintiffs would satisfy Article III in antitrust, trademark, false designation of
origin, false advertising, and unfair competition cases.
See Menashi Dissent at 34-35. He quotes from Spokeo,
136 S. Ct. at 1549, “Congress has the power to define
injuries . . . that will give rise to a case or controversy where none existed before,” and argues that our
jurisdiction over those federal claims depends on the
fact that Congress has passed a statute creating a cause

See Johnson & Johnson v. Carter-Wallace, Inc., 631 F.2d 186,
190-91 (2d Cir. 1980) (holding that because the parties were “competitors in a relevant market,” and because the plaintiff had shown
a “logical causal connection between the alleged false advertising
and its own sales position,” the plaintiff had established statutory
standing under the Lanham Act).
23

198a
of action, which elevated the injury resulting from its violation into one that can satisfy Article III. Id. at 35.
Accordingly, he argues, injuries in such cases satisfy Article III only because they are “defined by statute,” id.,
and those precedents therefore “provide no support” for
the exercise of jurisdiction in this case because the plaintiffs here “cannot identify any ‘statutes creating legal
rights, the invasion of which creates standing.’ ” Id.
(quoting Lujan, 504 U.S. at 578). He further contends
that the Emoluments Clauses do not provide these
plaintiffs a “right to be free from the competition they
allege causes them harm,” and that, because the plaintiffs cannot point to any “statutory or other legal
right[s] the violation of which might serve as an injury
to them,” their interest in the President’s compliance
with the Emoluments Clauses is a mere “generalized
grievance” that must be viewed as on the same inadequate footing as a citizen suit seeking to vindicate the
right to “have the Government act in accordance with
law.” Id. at 35 (quoting Lujan, 504 U.S. at 575).
The flaws in this reasoning seem to be numerous.
To begin, Judge Menashi is mistaken that our ability under Article III to exercise jurisdiction over lawsuits alleging violations of federal unfair competition laws (i.e.
antitrust, trademark, and false advertising cases) depends on Congress having exercised its ability to “define
injuries and articulate chains of causation that will give
rise to a case or controversy where none existed before.”
Id. at 35 (quoting Spokeo, 136 S. Ct. at 1549). While it
is undoubtedly true, as stated in Spokeo, that “Congress
may elevat[e] to the status of legally cognizable injuries
concrete, de facto injuries that were previously inadequate in law,” 136 S. Ct. at 1549 (alteration in original)

199a
(quoting Lujan, 504 U.S. at 578), there is neither a logical nor legal basis for Judge Menashi’s apparent corollary that injury to a plaintiff ’s business interests inflicted by a competitor’s conduct can satisfy the adversity requirement of Article III only if the claim is statutory. 24 Federal courts exercise jurisdiction over similar state law claims, common law as well as statutory,
on the basis of precisely the same form and degree of
likelihood of competitive injury—that is, the loss of business resulting from the conduct of a competitor. 25 Our
adjudication of these state common law claims is incom-

24
Particularly because competitive economic injuries, like the injuries alleged here, “have long been recognized as sufficient to lay
the basis for standing.” Sierra Club v. Morton, 405 U.S. 727, 733
(1972).
25
See, e.g., Lemberg Law, LLC v. eGeneration Marketing, Inc.,
No. 3:18-cv-570, 2020 WL 2813177, at *4 (D. Conn. Mar. 29, 2020)
(exercising jurisdiction over a state law deceptive practices claim
brought by a law firm alleging that the defendant “deceive[d] . . .
Plaintiff ’s customers and potential customers[] into believing that
Defendants are lawyers” (internal quotation marks omitted)); Merck
Eprova AG v. Gnosis S.p.A., 901 F. Supp. 2d 436, 449 (S.D.N.Y. 2012)
(Sullivan, J.) (holding that a plaintiff has Article III standing—but
not statutory standing—to bring state law false advertising claims
because “a manufacturer . . . is injured [for Article III purposes] when a competitor falsely advertises that its chemically distinct product is identical to the manufacturer’s product”). Federal
courts also exercise jurisdiction over claims asserting novel forms of
injury—e.g., hot news misappropriation—without regard for whether such injuries have been recognized by statute. See Int’l News
Serv. v. Associated Press, 248 U.S. 215, 231-32 (1918) (adjudicating
a common law claim for misappropriation of breaking news articles
brought by The Associated Press against a competing news provider); Associated Press v. All Headline News Corp., 608 F. Supp.
2d 454, 457 (S.D.N.Y. 2009) (exercising jurisdiction over a similar
state law “hot news” misappropriation claim).

200a
patible with Judge Menashi’s proposition that our jurisdiction over similar federal claims depends on a statutory enactment. See Menashi Dissent at 34-35. To
the contrary, it tends to confirm that likelihood of competitive injury can satisfy the adversity requirement of
Article III, regardless of whether the plaintiff ’s claim
arises under a federal statute, a state statute, state common law, or the Constitution.
As for Judge Menashi’s contention that an injury that
satisfies Article III if it results from violation of a right
explicitly stated in a federal statute will not necessarily
satisfy Article III if it results from violation of a right
allegedly implied in the Constitution, Justice Scalia
forcefully stated in Lujan, “there is absolutely no basis
for making the Article III injury turn on the source of
the asserted right.” 504 U.S. at 576. Whether a claim
of competitive injury satisfies the adversity requirements of Article III turns on the substantiality and degree of likelihood of injury, and not on whether the injury resulted from a violation of federal, as opposed to
state, law, or whether the asserted right is expressly
stated or implied in the legislative writing.
Judge Menashi further argues that “the Emoluments
Clauses do not give plaintiffs a right to be free from the
competition they allege causes them harm,” Menashi
Dissent at 36, and that, without a “legal right the violation of which may serve as an injury to them,” id. at 35,
they cannot satisfy the requirements of Article III.
This argument depends on reasoning that has been expressly repudiated by the Supreme Court. While in
the 1930s the Supreme Court dismissed several cases
for lack of standing on the grounds that a plaintiff whose

201a
injury was the result of “lawful competition” has not suffered violation of a “legal interest” or a “legal right,”
Ala. Power Co. v. Ickes, 302 U.S. 464, 479-83 (1938) (dismissing case brought by power company alleging that
federal officials harmed its business by unlawfully supplying loans and grants to its competitors); see also
Tenn. Elec. Power Co. v. Tenn. Valley Auth., 306 U.S.
118, 140 (1939), the Court decisively repudiated that approach 30 years later, clarifying that “the existence or
non-existence of a ‘legal interest’ is a matter quite distinct from the problem of standing” and instead “goes to
the merits,” Ass’n of Data Processing Serv. Orgs., Inc.
v. Camp, 397 U.S. 150, 153 & n.1 (1970); see also id. at
152 (holding that “[t]here can be no doubt” that the
plaintiffs have Article III standing because they “allege
that competition [resulting from the challenged regulation] might entail some future loss of profits for [them]”).
Indeed, the Supreme Court, speaking through Justice
Scalia, has made clear that whether a complaint states
an actionable claim, and whether the court has jurisdiction to adjudicate the claim, are wholly separate questions. Lexmark Int’l, Inc. v. Static Control Components,
Inc., 572 U.S. 118, 125-28 (2014) (explaining that
“whether [the plaintiff] has a cause of action” is separate
from whether the complaint “presents a case or controversy that is properly within federal courts’ Article III
jurisdiction”). “[I]t is well settled,” the Court stated in
Bell v. Hood, “that the failure to state a proper cause of
action calls for a judgment on the merits and not for a
dismissal for want of jurisdiction.” 327 U.S. 678, 682
(1946); see also Whitmore v. Arkansas, 495 U.S. 149, 155
(1990) (“Our threshold inquiry into standing in no way
depends on the merits of the [plaintiff ’s] contention that
particular conduct is illegal.” (internal quotation marks

202a
and citation omitted)); Davis v. Passman, 442 U.S. 228,
239 n.18 (1979) (criticizing the Court of Appeals for “confus[ing] the question of whether petitioner had standing
with the question of whether she had asserted a proper
cause of action”).
Finally, Judge Menashi notes that “the mere alleged
violation of the Emoluments Clauses cannot itself serve
as an Article III injury,” and that the Clauses do not
“confer on the plaintiffs a particularized interest the violation of which might create standing in the absence of
an otherwise cognizable concrete injury.” Menashi
Dissent at 36 (emphasis added). I completely agree
that a violation of the Emoluments Clauses does not, by
itself, confer standing, and agree as well that a mere
“generalized grievance” is insufficient.
But Judge
Menashi goes on to assert that these plaintiffs’ only interest “in the President’s compliance with the Emoluments Clauses” is “common to all members of the public.” Id. at 36 (quoting Lujan, 504 U.S. at 575). This argument sweeps under the rug the plaintiffs’ entirely
plausible allegation that, as a result of the President’s
conduct, their businesses will suffer a direct and particularized economic injury: specifically, a diminution of
business revenues. As the Supreme Court explained in
Sierra Club v. Morton, harm to a plaintiff ’s “competitive
position” in the marketplace is precisely the type of “palpable economic injur[y]” that “ha[s] long been recognized as sufficient to lay the basis for standing, with or
without a specific statutory provision [permitting suit].”
405 U.S. at 733-34. It is the plaintiffs’ “palpable economic injury”—not an “impermissible generalized grievance,” Menashi Dissent at 36,—that supports exercise
of jurisdiction here.

203a
VI.
Judge Menashi asserts that the standards adopted in
the panel opinion and in this statement would have the
consequence of “convert[ing] the Judiciary into an open
forum for the resolution of political or ideological disputes.” Menashi Dissent at 21. 26 He suggests no reason why that should be the case, and I can see none.
The panel opinion and my Statement simply apply well
established Supreme Court precedent to the facts alleged in the complaint. The same precedents and logic
support Article III standing in numerous other cases
concerning commercial disputes between private competitors. That the President is the defendant in this
suit is not a reason to depart from these well-established
Judge Menashi’s formulation is quoted from Justice Powell’s
concurring opinion in United States v. Richardson, 418 U.S. 166, 192
(1974). That case was nothing like this one. In Richardson, a taxpayer sought a judicial declaration that the CIA violated the Constitution by failing to disclose certain expenditures. Id. at 167-70.
The Supreme Court held that the taxpayer lacked a “personal stake
in the outcome” of his lawsuit. Id. at 179-80. Justice Powell concurred, arguing that the Court should have gone further and disavowed a more permissive approach to standing that the Court had
adopted in prior precedents. Id. at 180 (Powell, J., concurring).
Justice Powell noted his agreement with other precedents in which
the Court had rejected “taxpayer or citizen standing where the
plaintiff has nothing at stake other than his interest as a taxpayer or
a citizen” as a result of its “antipathy to efforts to convert the Judiciary into an open forum for the resolution of political or ideological
disputes about the performance of government.” Id. at 192. Justice Powell’s words simply expressed the well-accepted principle
that a “generalized grievance . . . common to all members of the
public” is insufficient to establish standing. Id. at 176-77. They
have no conceivable bearing on a suit by operators of hotels and restaurants claiming that they are suffering and will suffer losses of
business because of allegedly illegal conduct of a competitor.
26

204a
principles of jurisdiction, nor does it justify the contention that the panel’s faithful application of those principles in support of its finding of subject matter jurisdiction would alter or expand the role of the judiciary or
have any political or ideological consequences.

